<html>
<title> - BIOTERRORISM PREPAREDNESS: PEOPLE, TOOLS, AND SYSTEMS FOR DETECTING AND RESPONDING TO A BIOTERRORIST ATTACK</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                   BIOTERRORISM PREPAREDNESS: PEOPLE,
                  TOOLS, AND SYSTEMS FOR DETECTING AND
                  RESPONDING TO A BIOTERRORIST ATTACK

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 3, 2004

                               __________

                           Serial No. 108-56

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                    U.S. GOVERNMENT PRINTING OFFICE
93-361                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                                 ______

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              NICK LAMPSON, Texas
NICK SMITH, Michigan                 JOHN B. LARSON, Connecticut
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
GEORGE R. NETHERCUTT, JR.,           BRAD MILLER, North Carolina
    Washington                       LINCOLN DAVIS, Tennessee
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JUDY BIGGERT, Illinois               ZOE LOFGREN, California
WAYNE T. GILCHREST, Maryland         BRAD SHERMAN, California
W. TODD AKIN, Missouri               BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        ANTHONY D. WEINER, New York
J. RANDY FORBES, Virginia            JIM MATHESON, Utah
PHIL GINGREY, Georgia                DENNIS A. CARDOZA, California
ROB BISHOP, Utah                     VACANCY
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama                   VACANCY
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
VACANCY
                            C O N T E N T S

                              May 3, 2004

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Randy Neugebauer, Member, Committee 
  on Science, U.S. House of Representatives......................     7
    Written Statement............................................     8

Statement by Representative Dennis Moore, Member, Committee on 
  Science, U.S. House of Representatives.........................     8
    Written Statement............................................    10

                               Witnesses:

Mr. Charles A. Schable, Director, Bioterrorism Preparedness & 
  Response Program, Centers for Disease Control & Prevention
    Oral Statement...............................................    12
    Written Statement............................................    13
    Biography....................................................    17

Mr. Samuel H. Turner, Sr., Chief Executive Officer, Shawnee 
  Mission Medical Center
    Oral Statement...............................................    18
    Written Statement............................................    20
    Biography....................................................    27
    Financial Disclosure.........................................    28

Mr. Richard J. Morrissey, Acting Director of Health, Kansas 
  Department of Health & Environment
    Oral Statement...............................................    29
    Written Statement............................................    30
    Biography....................................................    43

Ms. W. Kay Kent, Administrator/Health Officer, Lawrence Douglas 
  County Health Department
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    47

Mr. Brad Mason, Division Chief of Special Operations, Johnson 
  County Med-Act
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    53

Dr. Ronald J. Kendall, Director, The Institute of Environmental 
  and Human Health
    Oral Statement...............................................    53
    Written Statement............................................    56
    Biography....................................................    69
    Financial Disclosure.........................................    71

Discussion.......................................................    74

              Appendix: Additional Material for the Record

Statement of Mr. Scott C. Voss, MPH, Public Health Emergency 
  Coordinator, Johnson County Health Department                      98

 
BIOTERRORISM PREPAREDNESS: PEOPLE, TOOLS, AND SYSTEMS FOR DETECTING AND 
                  RESPONDING TO A BIOTERRORIST ATTACK

                              ----------                              


                          MONDAY, MAY 3, 2004

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:00 a.m., in the 
Shawnee Mission Room, Shawnee Mission Medical Center, 9100 West 
74th Street, Shawnee Mission, Kansas, Hon. Randy Neugebauer 
[Acting Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                   Bioterrorism Preparedness: People,

                  Tools, and Systems for Detecting and

                  Responding to a Bioterrorist Attack

                          MONDAY, MAY 3, 2004
                         10:00 A.M.-12:00 P.M.
                     SHAWNEE MISSION MEDICAL CENTER
                        SHAWNEE MISSION, KANSAS

1. Purpose

    On Monday, May 3, 2004, the House Science Committee will hold a 
field hearing to receive testimony on state and local preparedness for 
a bioterrorist attack, on the role of the Federal Government in 
supporting local efforts to prepare for, detect, and respond to a 
bioterrorist attack, and on the development and deployment of tools and 
systems for detecting and responding to a bioterrorist attack.

2. Witnesses

Mr. Charles A. Schable is the Director of the Bioterrorism Preparedness 
& Response Program at the U.S. Department of Health and Human Services' 
Centers for Disease Control and Prevention (CDC). CDC's bioterrorism 
and public health preparedness activities include support for 
strengthening of regional and state laboratories' capacity to detect 
different biological and chemical agents, upgrading of state and local 
health agencies' capacity to detect and communicate different health 
threats, and working with pharmaceutical companies and other partners 
to create regional stockpiles of the drugs needed to treat 
intentionally-launched disease outbreaks.

Mr. Samuel H. Turner, Sr. is the Chief Executive Officer of Shawnee 
Mission Medical Center (SMMC). SMMC has mutual aid agreements with 
local government agencies to monitor and respond to potential 
biological events, and uses bio-surveillance software to coordinate and 
communicate with other local hospitals to track outbreaks of diseases.

Mr. Richard J. Morrissey is Acting Director of Health at the Kansas 
Department of Health & Environment (KDHE). The KDHE responds to 
potential public health emergencies resulting from bioterrorism events 
and natural disease outbreaks. The KDHE Bioterrorism Program includes 
preparedness planning and response assessment, surveillance and 
epidemiologic capacity, laboratory capacity, health alert network/
communications and information technology, risk communication and 
health information dissemination, and education and training.

Ms. W. Kay Kent is the Administrator/Health Officer at the Lawrence-
Douglas County Health Department. Her expertise is in community health 
nursing, and she serves on the Bioterrorism Preparedness Planning 
Committee for the Kansas Department Health and Environment and Kansas 
Association of Local Health Departments. Lawrence-Douglas County 
experienced an outbreak of cryptosporidiosis in September of 2003, so 
Ms. Kent has recent practical experience in disease/outbreak 
management, treatment, and prevention, as well as in working with CDC 
in outbreak response efforts.

Mr. Brad Mason is the Division Chief of Special Operations at Johnson 
County Med-Act, where he directs the emergency medical services (EMS) 
Special Operations Teams. He is responsible for EMS emergency planning 
for mass casualty, mass fatality, incident management, hazardous 
materials, and weapons of mass destruction incidents. He is also the 
Chairman of the Mid America Regional Council Emergency Response 
Committee, through which he has worked on regional incident response 
and communications plans and metro-wide hospital diversion protocols.

Dr. Ronald J. Kendall is the Director of The Institute of Environmental 
and Human Health (TIEHH) at Texas Tech University/Texas Tech University 
Health Sciences Center. He is an expert in environmental toxicology. 
TIEHH leads the Admiral Elmo R. Zumwalt, Jr. National Program for 
Countermeasures to Biological and Chemical Threats, which includes work 
on detection, biological mechanisms, physical and medical 
countermeasures, modeling, and education, training, and outreach.

3. Overarching Questions

    The hearing will address the following overarching questions:

        <bullet>  How do first responders, Federal, State and local 
        governments, and health services providers work together to 
        prepare for, detect, and respond to bioterrorist attacks?

        <bullet>  What tools and systems are used to detect and respond 
        to bioterrorist attacks? What tools need to be developed? Who 
        is developing these tools? Who is deploying them? What barriers 
        exist to their use?

        <bullet>  How does preparedness for bioterrorist attacks affect 
        our ability to meet day-to-day health care needs and respond to 
        natural disease outbreaks?

4. Brief Overview

        <bullet>  To be properly prepared to detect and respond to a 
        bioterrorist attack, numerous governmental and private entities 
        must coordinate their efforts and plan for targeted and 
        prioritized use of public health resources. Key players include 
        federal agencies, state and local health departments, first 
        responders, and hospitals.

        <bullet>  Development and deployment of information technology 
        systems for the detection of bioterrorist agents or other 
        infectious diseases, the surveillance of unusual symptoms, and 
        rapid communication during incident management is significantly 
        improving capabilities to detect and respond effectively to 
        bioterrorist incidents and natural outbreaks of infectious 
        diseases.

        <bullet>  After the anthrax attacks in the fall of 2001, the 
        Department of Health and Human Services (HHS) expanded its 
        programs to fund state, municipal, and territorial governments' 
        efforts to upgrade their bioterrorism preparedness and response 
        capabilities. In fiscal years 2002 and 2003, HHS distributed a 
        total of $2.5 billion.

        <bullet>  Great strides in preparedness have been made. 
        However, a 2003 GAO report found that workforce shortages and 
        gaps in disease surveillance and laboratory facilities continue 
        to potentially limit state and local jurisdictions' ability to 
        response to a bioterrorist attack. Further strengthening public 
        health systems will not only improve bioterrorism preparedness, 
        but will also improve our capability to detect and respond to 
        natural outbreaks of infectious diseases.

5. Background

Vulnerability to Infectious Disease Crises
    We live in a mobile, highly interconnected society. Infectious 
diseases can be spread rapidly via people's movement across countries 
and across oceans on planes, and hazardous substances can be spread 
broadly via the mail system. The dangers and potential impact of a 
bioterrorist attack can be seen in recent examples of intentional and 
natural disease outbreaks--the anthrax attacks through the postal 
system in the fall of 2001 and the severe acute respiratory syndrome 
(SARS) epidemic experienced by China and internationally in 2003. These 
incidents highlight the challenges inherent in identifying and 
addressing gaps that could impair health systems' capacity to respond 
to sudden infectious disease outbreaks. To be properly prepared for a 
bioterrorist attack, plans for targeted and prioritized use of public 
health resources must be made, and these plans will have the added 
benefit of improving our capability to detect and respond to natural 
outbreaks of infectious diseases.

Efforts to Improve Preparedness
    After the anthrax attacks in the fall of 2001, Congress was 
concerned that the Nation was not prepared to respond to a bioterrorist 
attack that resulted in a major public health threat. Therefore, 
several months after the incidents, Congress appropriated funds to 
strengthen state and local bioterrorism preparedness. The Department of 
Health and Human Services (HHS), through the CDC and the Health 
Resources and Services Administration, provided funds through 
cooperative agreement programs with state, municipal, and territorial 
governments. These agreements were aimed at upgrading bioterrorism 
preparedness and response capabilities at state and local public health 
agencies, hospitals, and emergency medical service agencies, and the 
participants were required to complete specific activities designed to 
build public health and health care capacities. In fiscal years 2002 
and 2003, HHS distributed a total of $2.5 billion toward this effort.
    The General Accounting Office (GAO) has performed several studies 
relating to the public health system's preparedness for bioterrorist 
attacks and natural infectious disease outbreaks. In testimony last 
year,\1\ GAO described how efforts of state and local public health 
agencies to prepare for a bioterrorist attack have improved the 
Nation's capacity to respond to infectious disease outbreaks and other 
major public health threats, but also noted that gaps in preparedness 
remain. For example, most hospitals reported participating in basic 
planning activities for large-scale infectious disease outbreaks and 
training staff about biological agents, but most hospitals also lacked 
adequate equipment, isolation facilities, and staff to treat the large 
increase in the number of patients that could result from a 
bioterrorist attack. Not surprisingly, GAO found that jurisdictions 
that have had multiple prior experiences with public health 
emergencies, including natural disasters, demonstrated the highest 
levels of preparedness. In another study, GAO also found that while 
contingency plans for disease outbreaks or bioterrorist events are 
being developed at the state and local levels, planning for regional 
coordination that transcends state boundaries was lacking.\2\
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office testimony before the Committee 
on Government Reform, House of Representatives on April 9, 2003; GAO-
03-654T.
    \2\ U.S. General Accounting Office testimony before the 
Subcommittee on Emergency Preparedness and Response, Select Committee 
on Homeland Security, House of Representatives on September 24, 2003; 
GAO-03-1176T.
---------------------------------------------------------------------------
Information Technology for Disease Surveillance and Information Sharing
    Information technology (IT) systems can play a critical role in 
both detecting and responding to a public health emergency. Relevant 
examples of IT-facilitated information gathering include systems for 
environmental sampling and detection of bioterrorist agents or other 
infectious diseases; surveillance systems that provide ongoing 
collection and analysis of data related to behavior or symptoms 
potentially associated with disease outbreaks; and systems that 
facilitate the timely delivery of information to relevant responders 
and decision-makers. Ongoing advances in the development and deployment 
of sampling and surveillance systems are particularly critical, as 
early detection of a bioterrorist attack or disease outbreak enables 
public health officials to issue warnings and execute containment and 
treatment plans to mitigate the potential effects of the incident.
    A large number of surveillance and information sharing systems are 
operational or planned throughout the country. In spring of 2003, a GAO 
survey of just six federal agencies identified about 70 such 
systems.\3\ One example is the Department of Defense's Electronic 
Surveillance System for the Early Notification of Community-based 
Epidemics (ESSENCE). This system is designed to support early 
identification of infectious disease outbreaks among personnel using 
military treatment facilities. The system works by gathering daily data 
on symptoms reported by patients and alerting officials when data show 
abnormal patterns. Another federal system is the CDC's Health Alert 
Network, which is aimed at ensuring communications capacity at all 
local and state health departments; ensuring that these departments 
have the capacity to receive distance learning offerings from CDC and 
others; and ensuring that the public health system has the capacity to 
broadcast and receive health alerts at every level.
---------------------------------------------------------------------------
    \3\ U.S. General Accounting Office, Information Technology Strategy 
Could Strengthen Federal Agencies' Abilities to Respond to Public 
Health Emergencies, May 2003, GAO-03-139. The six agencies surveyed 
were the Department of Defense, the Department of Health and Human 
Services, the Department of Energy, the Department of Agriculture, the 
Environmental Protection Agency, and the Department of Veterans 
Affairs.
---------------------------------------------------------------------------

6. Questions for Witnesses

Questions for Mr. Schable

        <bullet>  How does the CDC work with State and local 
        governments on preparedness for a bioterrorist attack?

        <bullet>  What tools and systems has the CDC developed, or is 
        in the process of developing, to assist State and local 
        governments in detecting and responding to a bioterrorist 
        attack?

        <bullet>  If a bioterrorist attack occurred, what role would 
        the CDC play in the response and how would the CDC coordinate 
        with first responders, State and local governments, and health 
        services providers?

Questions for Mr. Turner

        <bullet>  Please describe the elements of the Shawnee Mission 
        Medical Center (SMMC) bioterrorism response plan. How has the 
        plan been tested? Was the plan employed during last year's 
        cryptosporidiosis outbreak? What lessons were learned from that 
        experience and any other tests of the plan?

        <bullet>  How would you compare the SMMC bioterrorism response 
        plan with the plans in place at similarly-situated hospitals 
        throughout the country?

        <bullet>  How have Federal, State, and local governments 
        provided coordination and assistance in SMMC's efforts to 
        prepare for a bioterrorist attack? What could these governments 
        do to improve their efforts to help hospitals be better 
        prepared for a bioterrorist attack?

Questions for Mr. Mason

        <bullet>  How does the current system for communication and 
        coordination between hospitals and public health officials 
        throughout the region work to facilitate overall first 
        responder performance? How has this system changed or improved 
        over the past several years?

        <bullet>  How have recent technology advancements improved the 
        performance records of first responders?

        <bullet>  What could the Federal Government do to improve its 
        efforts to help Johnson County be better prepared for a 
        bioterrorist attack?

Questions for Mr. Morrissey

        <bullet>  What are the elements of the Kansas Bioterrorism 
        Preparedness Program? What level of readiness currently exists 
        in each of these elements, or ``focus areas''?

        <bullet>  What systems have been put in place by the Kansas 
        Department of Health and Environment for early detection of a 
        possible bioterrorist attack? Is there clear integration and 
        coordination among the public health system, first responders, 
        and government officials about what to look for when trying to 
        detect an attack and how to track information that may be 
        useful for detection?

        <bullet>  In Kansas, how do federal, state, and local officials 
        interact in developing bioterrorism preparedness plans? What 
        could the Federal Government do to improve its contributions to 
        support state and local preparedness?

Questions for Ms. Kent

        <bullet>  What is the Lawrence-Douglas County Health 
        Department's role in regional preparedness for a potential 
        bioterrorist attack?

        <bullet>  How have Federal and State governments facilitated 
        Lawrence-Douglas County's efforts to prepare for a bioterrorist 
        attack? What could these governments do to improve their 
        efforts to help the county be better prepared for a 
        bioterrorist attack?

        <bullet>  Last summer, when the Kansas City area experienced an 
        outbreak of cryptosporidiosis, how did your department interact 
        with the CDC? Did the CDC offer the department and other local 
        organizations an appropriate level of support during that 
        outbreak?

Questions for Dr. Kendall

        <bullet>  What tools and systems is the Institute of 
        Environmental and Human Health (TIEHH) working on to detect and 
        respond to a bioterrorist attack? What organizations provide 
        the funding to support this research and development? How are 
        the resulting technologies transitioned to users?

        <bullet>  How does the TIEHH work with first responders and 
        State and local government organizations to understand their 
        needs for the technologies being developed at TIEHH? How do you 
        work with them on education, training, and outreach?

        <bullet>  How can the Federal Government, particularly the 
        Department of Homeland Security, improve its efforts to help 
        communities be better prepared for a bioterrorist attack? Are 
        there specific areas that demand increased attention?
    Mr. Neugebauer. We will call to order the Science Committee 
hearing for Bioterrorism Preparedness: People, Tools, and 
Systems for Detecting and Responding to a Bioterrorist Attack. 
It's good to be here at Shawnee Mission Medical Center.
    Mr. Turner, thank you for allowing us to have this hearing 
here today. We appreciate that very much and it's good to be 
with my friend and colleague, Congressman Moore from Kansas.
    I want to say to the people in Kansas that you are well 
represented by Mr. Moore and other great Members from the 
Kansas delegation and so it's a pleasure to be in Kansas today.
    Before I read my opening statement, I was thinking flying 
here yesterday about this hearing and those of us that, I look 
around the room, some of us grew up during the Cold War era and 
we remember the threat of a nuclear attack and the drills and 
the preparedness that we went through in our nation for a 
different kind of attack. Today, we're going to be talking 
about becoming more prepared for a different kind of threat to 
our nation and how we begin to, as we did in the Cold War, 
detect that threat, to respond to that threat and to mitigate 
that threat.
    And so I'm looking forward to today, and I know that we 
have a very distinguished group of panelists and we're looking 
forward to hearing from them.
    So I'll read my opening statement. First, I'd like to thank 
again my friend, Mr. Moore, Congressman Moore, for hosting this 
field hearing, his home state of Kansas. And I'd like to thank 
our panel of distinguished witnesses, Dr. Charles Schable; Mr. 
Turner, our host; Mr. Richard Morrissey, Ms. Kent and Mr. Brad 
Mason and my good friend, Dr. Ron Kendall, appearing before the 
Science Committee today.
    I'd like to recognize Dr. Kendall because he's from my home 
town of Lubbock, Texas. Dr. Kendall is Director of the 
Institute of Environmental and Human Health or what we like to 
call TIEHH at Texas Tech University. He's an expert in 
environmental toxicology. He leads the Admiral Elmo R. Zumwalt 
National Program for Countermeasures to Biological and Chemical 
Threats, which includes work on detection, biological 
mechanisms, physical and medical countermeasures, modeling, 
education, training and outreach. Thank you, Dr. Kendall, for 
being here today. Thank you for taking time out of your busy 
schedule.
    At this time in American history, our national security has 
become the most important issue facing our nation. The events 
of September 11, along with our anthrax attacks in 2001, have 
increased the Nation's concern about bioterrorism and our 
ability to respond to those attacks.
    Public health professionals play a vital role in preparing 
and coordinating emergency personnel for such events. They are 
responsible for detecting, investigating and identifying 
disease outbreaks and simultaneously communicate effective 
information for our first responders, the media and the public. 
The capacity to fulfill these responsibilities depends on the 
strength of the infrastructure that supports our public health 
services. Today, we are going to receive testimony on state and 
local preparedness for bioterrorist attacks and discuss the 
role of our Federal Government in supporting local efforts to 
prepare for, detect and respond to these attacks. We will also 
talk about developing and deploying the necessary tools and 
systems for detecting and responding to those attacks.
    Again, I thank you for being here and I look forward to 
hearing your testimony.
    Mr. Moore.
    [The prepared statement of Mr. Neugebauer follows:]

         Prepared Statement of Representative Randy Neugebauer

    First, I'd like to thank Mr. Moore for hosting this field hearing 
in his home state Kansas; and I'd like to thank our panel of 
distinguished witnesses, Mr. Charles Schable, Mr. Samuel Turner, Mr. 
Richard Morrissey, Ms. Kay Kent, Mr. Brad Mason, and Dr. Ronald J. 
Kendall for appearing before the Science Committee today.
    I would also like to recognize Dr. Kendall as he is here from my 
hometown, Lubbock Texas. Dr. Kendall is the Director of the Institute 
for Environmental and Human Health, or what we like to call TIEHH, at 
Texas Tech University. He is an expert in environmental toxicology. 
TIEHH leads the Admiral Elmo R. Zumwalt, Jr. National Program for 
Countermeasures to Biological and Chemical Threats, which includes work 
on detection, biological mechanisms, physical and medical 
countermeasures, modeling, and education, training, and outreach.
    Thank you Dr. Kendall. And thank you all for taking time out of 
your busy day to be here to talk about this important issue.
    At this time in American history, our national security has become 
the most important issue facing our nation. The events of September 
11th along with the anthrax attacks in 2001 have increased the Nation's 
concern about bioterrorism and our ability to respond to attacks. 
Public health professionals play a vital role in preparing and 
coordinating emergency personnel for such events. They are also 
responsible for detecting, investigating and identifying disease 
outbreaks and simultaneously communicate effective information with 
first responders, the media, and the public. The capacity to fulfill 
these responsibilities depends on the strength of the infrastructure 
that supports public health services.
    Today we are going to receive testimony on state and local 
preparedness for a bioterrorist attack and discuss the role of the 
Federal Government in supporting local efforts to prepare for, detect, 
and respond to an attack. We will also talk about developing and 
deploying the necessary tools and systems for detecting and responding 
to a bioterrorist attack.
    Again, thank you all for being here. I look forward to hearing your 
testimony.
    Mr. Moore.

    Mr. Moore. Good morning. I'd like to thank my good friend, 
Randy Neugebauer for being here from Texas this morning and all 
of you, the witnesses and people who have attended this 
hearing.
    I want to invite all of you to participate in this 
important hearing this morning and we're fortunate to have, 
we're very fortunate to have the opportunity to hold this 
hearing at the Shawnee Mission Medical Center and I thank my 
friend Sam Turner for letting us use this great facility.
    And Randy, thank you, for traveling up from Lubbock, Texas 
to be with us here today. He does a great job in Congress and I 
really appreciate his willingness to hold a hearing here in our 
Congressional District.
    I feel fortunate to serve on the Science Committee for 
Republicans and Democrats who are able to work together in a 
bipartisan spirit toward many common goals on issues that have 
a day to day impact on the quality of an American's life.
    We have assembled an impressive panel of witnesses. Mr. 
Neugebauer has already introduced those, so I'm not going to 
read all the names again, but I think each of them has a great 
deal to contribute to the goals of our hearing here today. And 
I want to thank each of the witnesses for taking their time out 
of their busy schedules to come here and share their expertise 
with us.
    You will have an opportunity, and I'm going to ask the 
Chairman for an opportunity, five days after the conclusion of 
this hearing, for people to submit written statements, if we 
can do that, Mr. Chairman?
    Mr. Neugebauer. Without objection, so ordered.
    Mr. Moore. Thank you, sir. I'll never forget my first visit 
to the World Trade Center or actually, it was my second visit 
to the World Trade Center, about two weeks after September 11. 
I don't think any of us will ever forget the thousands of 
people who died and the children who lost a parent that day. 
Shortly after those vicious attacks at the World Trade Center 
and at the Pentagon, another kind of terror was encountered in 
Washington, D.C. and throughout our nation's postal system. 
Anthrax was found to have killed two postal workers and the 
contamination had spread through numerous federal buildings. 
The containment and clean up following that event was 
extraordinarily expensive, complicated and disturbing for all 
those who were involved in the clean up process.
    Since the months that followed those attacks of terror, 
we've been confronted, both as a nation and as a community here 
in the Kansas City area, with more naturally occurring, but 
significant infectious disease outbreaks. Whether we're dealing 
with vaccine shortages for an unusually tough strain of 
influenza or something more disturbing like anthrax infections, 
we know that our preparedness to deal with a bioterrorist 
attack can have a positive bearing on overall public health and 
infectious disease challenges.
    In October of 2001, I co-hosted the Metropolitan Meeting on 
Biological and Chemical Weapons. Three hundred law enforcement, 
emergency response and health care professionals were invited 
and we had a tremendous showing at that first meeting about two 
weeks after September 11, excuse me, about a month after 
September 11. In fact, we invited first responders. We invited 
public health officials, law enforcement personnel, 
firefighters, emergency medical service personnel, elected 
public officials and people from various hospitals throughout 
the greater Kansas City metropolitan area and again, we had a 
tremendous attendance.
    My objective in that first meeting was to find out, about a 
month after September 11, where we were as a nation and 
specifically, in the Kansas City metropolitan area, in terms of 
being prepared to deal with a bioterrorist threat, attack in 
the Kansas City area. At that time, we really discovered, I 
think, and we listened. Karen McCarthy, Representative McCarthy 
from right across the state line and myself were the co-hosts, 
and we listened to the various people who appeared and 
testified. And I think at that time, we were light years from 
where we needed to be in terms of preparedness. And we have 
come a long way since mid-October of 2001 in terms of being 
prepared for something further in this area, but we still have 
a ways to go.
    And last June, I co-hosted the Homeland Security Forum in 
the Greater Kansas City Area for additional follow-up. This 
brought together regional stakeholders like each of you, to 
assess how far our region has come in its efforts to promote a 
regional response to homeland security issues. While throughout 
the country as a whole, we still have room to improve on that 
score, I am pleased that we have come a long way here in the 
Kansas City metropolitan area.
    Some of you may have experienced delays and difficulties in 
obtaining funding that you need to provide the level of 
preparedness that's needed by our communities. And I want to 
learn about these roadblocks you may have experienced as you've 
sought funding, as well as other difficulties you've had.
    I also want to hear about success stories, and to remind 
you that I'm available to support your efforts to request 
grants, assist in grant searches and provide information about 
potential funding.
    Kansas City is one of the 30 cities to receive the High 
Threat Urban Area Security Initiative Account Program funding. 
In Fiscal Year 2003, the metropolitan area received $9.6 
million and $13.2 million for Fiscal Year 2004. This federal 
funding recognizes some of the serious needs and drastic 
funding shortfalls created in the federal formulas for 
distributing homeland security funding to communities most 
vulnerable to terrorism, but there are still other problems. 
We've read and heard a great deal about how state lines and 
other jurisdictional boundaries have become unnecessary 
obstacles and the efforts to achieve much needed communication 
and cooperation between people and organizations. Yet, I think 
in this area, particularly, I'm very proud of the fact that 
we're working very well together, Missouri and Kansas residents 
and the whole metropolitan area, in Kansas City to address this 
very serious threat.
    We hope that another attack never happens, but we have to 
be prepared and expect the worse in case it does and make 
provisions for that. Great strides are being made, yet local 
public officials just like the panel before us today, continue 
to report shortages of adequate medical equipment and work 
forces to handle potential sudden surges from epidemic levels 
of infection.
    We can make great strides here. I'm really anxious to hear 
all of you, so I'm going to stop talking now and again, thank 
Congressman Neugebauer for coming here today to chair this 
hearing in Kansas. Congressman Neugebauer has already indicated 
that if you're not one of the witnesses or if you are a 
witness, please if you have additional statements to submit 
within five days of today's hearing, please do so and they will 
be made part of the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moore follows:]

           Prepared Statement of Representative Dennis Moore

    Good morning. Welcome to all of you who have come to listen and 
participate in this important hearing today. We are fortunate and very 
appreciative to have the opportunity to hold this hearing today here at 
Shawnee Mission Medical Center, I extend my gratitude to you, Mr. 
Turner as well as all of your staff here at SMMC, for making this space 
available to us today. I also want to extend my warm welcome to my 
Colleague, Mr. Neugebauer and to thank him for traveling to Kansas 
today to preside at this hearing. I feel fortunate to serve on the 
Science Committee, where Republicans and Democrats are able to work 
together in a bipartisan spirit towards many common goals, on issues, 
that have a day to day impact on the quality of life for all Americans.
    We have assembled an impressive panel of witnesses with vast 
expertise in many technical and administrative areas that bear upon our 
readiness to face the challenges of preparedness for a bioterrorist 
attack. I want to thank each of our witnesses for the time and energy 
they expended in preparing for this hearing. Your carefully written and 
informative testimony is a reflection of your commendable dedication to 
your jobs and the people that you serve.
    I will never forget my visit to the World Trade Center site shortly 
after September 11th. None of us can ever forget the thousands who died 
and the children who lost a parent that day. Shortly following those 
vicious attacks at the World Trade Center, and at the Pentagon, another 
kind of terror was encountered in Washington, and throughout our 
nation's postal system. Anthrax was found to have killed two postal 
workers, and that the contamination had spread through numerous federal 
buildings. The containment and clean-up following that event was 
extraordinarily expensive, complicated and disturbing for all those who 
had been at risk of being exposed.
    Since the months that followed those attacks of terror, we have 
been confronted both as a nation and as a community here in the Kansas 
City area with more naturally occurring but significant infectious 
disease outbreaks. Whether we are dealing with vaccine shortages for an 
unusually tough strain of influenza, or something more disturbing like 
anthrax infections, we know that our preparedness to deal with a 
bioterrorist attack can have a positive bearing on overall public 
health challenges.
    In October 2001, I co-hosted the Metropolitan Meeting on Biological 
and Chemical Weapons; 300 law enforcement, emergency response and 
health care professionals were invited. At that time, we discovered how 
little coordination there was between local, State and federal 
agencies. In June of last year, I also co-hosted the Homeland Security 
Forum in the Greater Kansas City Area. This follow-up event brought 
together regional stakeholders like each of you to assess how far our 
region has come in its efforts to promote a regional response to 
homeland security issues. While throughout the country as a whole we 
still have room to improve on that score, I am pleased at how far we 
have come here in the Kansas City metropolitan area.
    Many of you have experienced delays and difficulties in obtaining 
the funding that you need to provide the level of preparedness that is 
needed by our communities. Today I want to learn about these roadblocks 
you may have experienced as you have sought funding, as well as other 
difficulties you may be having. I also want to hear some of your 
success stories, and to remind you that I am available to support your 
efforts to request grants, assist in grants searches, and provide 
information about potential funding.
    I am pleased Kansas City is one of 30 cities to receive High Threat 
Urban Area Security Initiative Account program funding (UASI). In 
fiscal year '03 the metropolitan area received $9.6 million dollars and 
$13.2 for FY04 from UASI. This federal funding recognizes some of the 
serious needs and drastic funding shortfalls created in the federal 
formulas for distributing homeland security funding to communities most 
vulnerable to terrorism. However, we know that it is not enough; 
problems remain.
    We have read and heard a great deal about how state lines and other 
jurisdictional boundaries have become unnecessary obstacles in the 
efforts to achieve much needed communication and cooperation between 
people and organizations. Yet, everyone on both sides of a political 
boundary or state line, face the same urgent challenge: to be prepared 
for whatever bioterrorist or other wide-spread infectious disease 
threats whenever they may strike. We of course all hope that we will 
never be confronted with a bioterrorist attack. But after September 
11th, we all have a stronger sense of the value of being prepared.
    In conclusion, numerous governmental and private entities must be 
effectively coordinated for a bioterror related event to be met with 
the appropriate level of response. We have many new and impressive 
technologies available to aid in the task of early detection, 
containment and treatment for victims. We also have access to 
sophisticated state-of-the-art communications equipment to aid in the 
task of issuing early warnings to potential victims, and directives to 
health professionals in the field. Great strides are being made. Yet, 
local public health officials, just like the panel before us today 
continue to report shortages of adequate medical equipment, and work 
forces to handle potential sudden surges from epidemic levels of 
infections. This is a challenge that we must be prepared to meet and I 
believe that this hearing today will offer us some information to help 
us in reaching toward that goal.

    Mr. Neugebauer. What we'll do is we'll give each member of 
our panel an opening statement, your statement, the written 
testimony will be entered into the record as the gentleman 
mentioned. And then if we ask you questions and you want to 
submit some additional information, you have five days to do 
that.
    And we're going to start with Mr. Schable, and if you would 
just kind of introduce yourself, a little bit about what 
capacity you're in today.
    Welcome, Mr. Schable.

 STATEMENT OF CHARLES A. SCHABLE, DIRECTOR OF THE BIOTERRORISM 
PREPAREDNESS AND RESPONSE PROGRAM, CENTERS FOR DISEASE CONTROL 
  AND PREVENTION, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Mr. Schable. Thank you, Congressman. Good morning, 
everyone. I am Charles Schable and I am Director of the 
Bioterrorism Preparedness and Response Program of the National 
Center for Infectious Diseases, the Centers for Disease Control 
and Prevention in Atlanta.
    Thank you for the opportunity to join you to testify today 
about CDC's bioterrorism preparedness efforts. I was last in 
Kansas City in 2001 when the investigation of the anthrax 
attacks through the mail led us to a mail sorting facility here 
that was contaminated and I was part of the response team CDC 
sent here to work with state and local officials. Fortunately, 
no human cases occurred here, but the experience afforded me 
the opportunity to witness an example of productive 
collaborations between federal, state and local public health, 
law enforcement and postal officials, under extremely trying 
circumstances. These types of working relationships are part of 
the foundation of a strong public health system that leads to 
effective preparedness for and response to threats to health, 
whether they be manmade or naturally caused.
    With our partners, CDC continues to make vast strides 
toward achieving optimal terrorism preparedness and emergency 
response capacity at the federal, state and local levels and is 
committed to strengthening the capacity of the public health 
system to respond to both routine and emergent health threats. 
In 1999, CDC began a program of providing technical assistance 
and funding to state, local and territorial public health 
departments to develop capacity to respond to terrorism events 
and related public health emergencies.
    In FY 2002, Congress appropriated a substantial increase in 
funding for this preparedness effort and CDC's state and local 
cooperative agreement program has grown rapidly as a result. 
The resources provided through this program support 62 grantees 
in the development of critical public health preparedness 
capacities, including preparedness planning and readiness 
assessment, surveillance in epidemiology, biological and 
chemical laboratory capacity, communications systems and 
information technology, health information dissemination and 
risk communication and education and training.
    States and localities have made substantial progress toward 
achieving optimal levels of preparedness since the terrorist 
attacks of fall 2001. For example, every state has developed an 
emergency preparedness and response plan and nearly 90 percent 
of states have trained public health practitioners to respond 
to terrorism. Recent events such as the SARS, monkeypox and 
avian influenza outbreaks, have underscored the essential role 
early detection systems play in mobilizing rapid response. 
Detection of a disease almost always occurs at the local level 
where health care professionals encounter patients seeking 
medical assessment or treatment. A clinician's ability to 
quickly recognize and identify symptoms of unusual illnesses on 
the front line has been critical to the CDC's ability to 
recognize unfolding disease events and implement containment 
measures to prevent further spread of disease.
    For many years, CDC has made significant achievements in 
building or enabling state and local health agencies to build 
information systems that support the practice of public health, 
however, many of these systems operate in isolation, not 
capitalizing on the potential for a cross fertilization of data 
exchange. The Public Health Information Network provides a 
framework to better integrate these data streams.
    Another tool in development to address the detection of 
threats is the recently announced biosurveillance initiative, 
which is part of an interagency effort that crosses multiple 
sectors including food supply, environmental monitoring and 
human health surveillance, and its benefits will be felt in all 
state and local health departments. By integrating these 
otherwise isolated data sources, potential public health 
emergencies can be identified more rapidly.
    In conclusion, CDC is committed to working with federal, 
state and local partners to protect the Nation's health. Our 
best public health strategy against disease is the development, 
organization, and enhancement of public health disease 
detection systems, tools, and the people needed to wield them. 
While we have made substantial progress towards enhancing the 
Nation's capability to rapidly detect disease within our 
communities, improving our response and containment strategies, 
and developing plans to recover from tragic events, much 
remains to be done.
    CDC is very grateful for the congressional support received 
to date and looks forward to continuing to work with Congress 
and Members of this committee as we strive to protect the 
public's health from terrorism and other public health 
emergencies.
    Thank you for the opportunity to testify on this most 
important topic. At this time I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Schable follows:]

                Prepared Statement of Charles A. Schable

    Good morning, Mr. Chairman and Members of the Committee. I am 
Charles A. Schable, M.S., Associate Director for Emergency Response and 
Preparedness, National Center for Infectious Diseases (NCID), Centers 
for Disease Control and Prevention (CDC), and Director of NCID's 
Bioterrorism Preparedness and Response Program. It is a pleasure to 
testify before your committee. CDC's mission, as part of the Department 
of Health and Human Services, is to protect the health and safety of 
the American people through activities that range from terrorism 
preparedness and response, to promoting worker safety, to preventing 
birth defects and limiting the spread of infectious diseases. The 
program I lead provides agency-wide coordination, with CDC's Office of 
Terrorism Preparedness and Emergency Response, to prepare our nation 
for and rapidly respond to a bioterrorism event anywhere in the United 
States. Thank you for the opportunity to join you in Kansas to testify 
today about CDC's bioterrorism preparedness efforts.
    CDC continues to make vast strides toward achieving optimal 
terrorism preparedness and emergency response capacity at the federal, 
State, and local levels and is committed to strengthening the capacity 
of the public health system to respond to both routine and emergent 
health threats. To achieve this imperative, we must continue to prepare 
the broader public health infrastructure to respond to a wide range of 
public health emergencies. Today, I will address how CDC works with 
state and local governments to prepare for a bioterrorist attack, 
explain some of the systems and tools used by CDC to detect and respond 
to a bioterrorist attack and describe CDC's role in response and 
coordination with other state and local health officials, and other 
health service providers.

State and Local Readiness

    Today, as a result of the more than $3 billion investment Congress 
and the Administration devoted over the past three fiscal years, the 
front-lines of public health are better prepared to detect terrorism 
and deal with its consequences, and there are specific initiatives 
underway at CDC and in each state to make America safer.
    While much progress has been made strengthening the Nation's 
defenses against biological attacks, President Bush instructed his 
administration to review its efforts and find new and better ways to 
secure America. The result of this review is Biodefense for the 21st 
Century, a recently approved presidential directive that builds on our 
past accomplishments, specifies roles and responsibilities, and 
integrates the programs and efforts of various communities--national 
security, public health, law enforcement, etc.--into a sustained and 
focused national effort.
    In 1999, CDC began a program of providing technical assistance and 
funding to state, local and territorial public health departments to 
develop capacity to respond to terrorism events and related public 
health emergencies. In FY 2002, Congress appropriated a substantial 
increase in funding for this preparedness effort, and CDC's state and 
local cooperative agreement program has grown rapidly as a result. The 
resources provided through this cooperative agreement program support 
62 grantees in the development of critical public health preparedness 
capacities, including preparedness planning and readiness assessment; 
surveillance and epidemiology; biological and chemical laboratory 
capacity; communications systems and information technology; health 
information dissemination and risk communication; and education and 
training.
    States and localities have made substantial progress toward 
achieving optimal levels of preparedness since the terrorist attacks of 
fall 2001. For example, every state has developed an emergency 
preparedness and response plan and nearly 90 percent of states have 
trained public health practitioners in responding to terrorism. In 
addition, every state either has achieved or is moving toward around-
the-clock capacity to send and receive critical health information, and 
42 states can transmit information among state and local public health 
officials, hospitals, emergency departments, and law enforcement. CDC's 
overarching goal in this arena is to have systems in place in each 
community that protect citizens from infectious diseases, environmental 
threats, and terrorism, and these achievements represent substantial 
progress toward that end.
    Commensurate with CDC's agency-wide emphasis on rigorous 
measurement of programmatic impact, CDC will begin pilot testing 
performance indicators in FY 2004 in an effort to better define and 
establish a fundamental level of public health preparedness. The data 
generated by these standardized indicators will provide a framework for 
future cooperative agreement guidance, allow for accurate evaluation of 
grantee progress, and enable more targeted technical assistance. 
Moreover, these data will make an essential contribution toward 
defining what it actually means to be ``prepared'' at the state or 
local level. CDC anticipates incorporating the goals, objectives, and 
measures of this performance indicators effort into the state and local 
cooperative agreement guidance for FY 2005.

CDC's Role in Response

    In the event of a bioterrorist attack in the United States, CDC 
would provide public health advice to and support the Department of 
Health and Human Services in orchestrating the public health response 
to the attack. CDC would confirm that a biological agent had been 
released, identify the agent, determine how the agent was or is 
transmitted, and provide guidance in the development and implementation 
of effective control measures. CDC would assist the state and local 
health agencies in addition to the efforts described above, by 
providing federal resources in support of critical health and medical 
efforts, to include medical materiel housed within the Strategic 
National Stockpile; deploying public health subject matter experts and 
technicians to assist in managing efforts necessary to detect possible 
additional bioterrorist attacks; and providing recommendations on 
immunization and prophylaxis of the at risk population and guidance and 
recommendations for the treatment, isolation or quarantine of infected 
individuals. CDC would provide recommendations related to occupational 
safety issues for first responders and work on risk communication 
issues related to public health.

Systems and Tools

    An important element to successful defense against any threat to 
the Nation's public health, whether naturally occurring or deliberately 
caused, continues to be accurate, early recognition of the problem.
    Disease surveillance systems can prepare the Nation for potential 
terrorist threats. ``Disease surveillance systems'' or disease 
detection systems, address one important aspect of our nation's overall 
public health preparedness. CDC, in collaboration with our federal, 
State, and local partners is working to build systems that can: (1) 
rapidly detect an event in our communities; (2) mobilize the 
appropriate response to contain the event, and (3) ensure affected 
communities quickly return to a sense of normalcy. These are what we 
refer to as our foundations of public health readiness.
    National disease detection can best be described as the ongoing 
collection, analysis and dissemination of public health data related to 
illness and injury. These ongoing data collection and analysis 
activities enable public health officials to detect disease early, thus 
resulting in faster intervention to control and contain the 
consequences created by the causative agents. Without these early 
detection systems, the consequences of outbreaks of infectious disease 
and human exposures to agents such as chemicals and radiation would 
take a much greater toll by way of increased illness, injury, and in 
some cases death. Recent events, such as the SARS, monkeypox and avian 
influenza outbreaks, have underscored the essential role early 
detection systems play in mobilizing rapid response. Detection of a 
disease almost always occurs at the local level where health care 
professionals encounter patients seeking medical assessment or 
treatment. A clinician's ability to quickly recognize and identify 
symptoms of unusual illnesses on the front-line has been critical to 
the CDC's ability to recognize unfolding disease events and implement 
containment measures to prevent further spread of disease, thus 
mitigating further harm to the public.
    Awareness and diagnosis of a condition by a clinician or laboratory 
is a key element of our current disease detection systems. Clinicians 
and laboratories report diseases to state and local health departments, 
which in turn share information with CDC. CDC works with its public 
health partners to define conditions that should be reported 
nationally. Health departments share these definitions and guidelines 
with health care providers, infection control practitioners, emergency 
department physicians, laboratorians, and other members of the health 
care system to ensure accurate and timely reporting.
    Many local reporters of disease incidence still report to public 
health authorities on paper via facsimile. If a case of illness is 
particularly unusual or severe (such as a case of anthrax), the local 
health care worker may call the local health department immediately to 
report the case. Current reporting systems are largely paper-based and 
burdensome to both providers and health departments, often resulting in 
reports which are neither complete nor timely. In addition to initial 
detection, these detection and reporting systems play a pivotal role in 
the detection of subsequent cases and help support the management of 
the event once a response/investigation are initiated. Such information 
is vital to coordinating response decisions, which ultimately lead to 
the containment of an outbreak.
    A comprehensive detection and reporting system requires a strong 
foundation at all levels of local, State, and federal public health 
agencies. CDC has been working with state and local health agencies for 
many years to build the public health infrastructure to improve disease 
detection and reporting systems.
    Some examples of how states use their bioterrorism funding include:

         Initiating implementation of a secure web-based disease 
        detection and reporting system to improve the timeliness and 
        accuracy of disease reporting.

         Implementing a new hospital tracking system to detect possible 
        outbreaks by monitoring the number of patient admissions and 
        ambulance diversions at hospitals. This system provides a way 
        for hospitals to obtain instant messages and alerts.

         Developing early warning systems based on symptom data from 
        emergency departments to detect unusual patterns of illness and 
        automatically alert hospitals and public health agencies when 
        the incidence of disease exceeds a critical threshold. Use of 
        such early warning systems might enable the earliest possible 
        response and intervention before an outbreak or epidemic 
        spreads.

    Other related activities useful for early detection of emerging 
infections or other critical biological agents include CDC's Emerging 
Infections Programs (EIP). Through the EIP, state and local health 
departments receive funds to conduct population-based surveillance that 
goes beyond their routine function to develop ``next generation'' 
surveillance science, and often involves partnerships among public 
health agencies and academic medical centers. In addition, CDC has 
established networks of clinicians that serve as ``early warning 
systems'' for public health by providing information about unusual 
cases encountered in the clinical practices. As noted earlier, these 
relationships, particularly between health care providers and local 
health departments, are the foundation on which disease detection 
systems operate.

Public Health Information Network

    For many years CDC has made significant achievements in building or 
enabling state and local health agencies to build information systems 
that support the practice of public health. However, many of these 
systems operate in isolation, not capitalizing on the potential for a 
cross-fertilization of data exchange. A crosscutting and unifying 
framework is needed to better integrate these data streams for early 
detection of public health issues and emergencies. The Public Health 
Information Network (PHIN) provides this framework. Through defined 
data, vocabulary standards and strong collaborative relationships, the 
PHIN will enable consistent collection and exchange of response, 
health, and disease tracking data among public health partners. 
Ensuring the security of this information is critical as is the ability 
of the network to work reliably in times of national crisis. PHIN 
encompasses four key components: (1) detection and monitoring; (2) 
analysis and interpretation; (3) information dissemination and 
knowledge management; and (4) public health response. Each of these 
components is briefly described below.
    Public health information systems must support functions that 
include:

         Early event detection--BioSense (described later in this 
        testimony) is being developed to support early event detection 
        activities associated with a possible bioterrorism threat. 
        Regional health data will be sent to authorized health 
        officials detailing health trends that could be related to a 
        possible bioterrorism attack.

         Routine public health surveillance--The National Electronic 
        Disease Surveillance System (NEDSS) supports routine 
        surveillance activities associated with the rapid reporting of 
        disease trends to control outbreaks. The NEDSS platform allows 
        states to enter, update and electronically transmit demographic 
        and notifiable disease data.

         Secure communications among public health partners--The 
        Epidemic Information Exchange, or Epi-X, technology allows for 
        the secure exchange of communications among participating 
        public health partners via the web by providing up-to-the-
        minute information, reports, alerts, and discussions about 
        terrorist events, toxic exposures, disease outbreaks, and other 
        public health events.

         Management and dissemination of information and knowledge--The 
        Health Alert Network's architecture upgraded the capacity of 
        state and local health agencies to communicate different health 
        threats such as emerging infectious and chronic diseases, 
        environmental hazards, as well as bioterrorism related threats.

         Other functions include--Analysis and interpretation of 
        relevant public health data and public health response systems.

    PHIN will provide the framework for these functions to serve as 
part of an integrated and inter-operable network critical in 
establishing a more effective public health system.
    Since the majority of the data management needs come after disease 
is detected, CDC through PHIN is investing in information systems to 
support our public health response teams and our Director's Emergency 
Operations Center (DEOC) in Atlanta and to assist state and local 
health agencies in tracking and managing vital public health 
information before, during, and after an event has occurred. CDC's 
DEOC, which opened in 2003, serves as the centralized facility for 
collaboration to gather and disseminate information to ensure a timely, 
coordinated and effective public health response.

Biosurveillance Initiative

    Recognizing the need to increase our current disease surveillance 
and detection capabilities, the President, on February 3, 2004, issued 
Homeland Security Presidential Directive 9 (HSPD-9), which states in 
part:

         ``The Secretary of Homeland Security shall coordinate with the 
        Secretaries of Agriculture, Health and Human Services, and the 
        Administrator of the Environmental Protection Agency, and the 
        heads of other appropriate Federal departments and agencies to 
        create a new biological threat awareness capacity that will 
        enhance detection and characterization of an attack.''

    CDC's role in this biosurveillance initiative focuses on human 
health and involves three distinct but interrelated elements. The first 
is BioSense, a state-of-the-art, multi-jurisdictional data sharing 
program to facilitate surveillance of unusual patterns or clusters of 
disease around the country. This data sharing effort will support early 
detection of potential terrorism events while minimizing the reporting 
burden for state and local health departments and clinical personnel.
    The second element of the initiative centers on the addition and 
expansion of quarantine stations at U.S. ports of entry and assigning 
multi-disciplinary teams of quarantine officers, public health 
advisors, epidemiologists, and information technicians to these sites. 
This effort will assure effective monitoring of U.S. and international 
regulatory requirements for travelers, rapid communication of disease 
intelligence information to federal, State, local and international 
partners, and consistent supervision of clinical and research material 
movement through ports of entry.
    The Laboratory Response Network, which serves as a point of 
integration for federal, State, local and territorial laboratories to 
ensure rapid and proficient laboratory diagnosis of emerging bioagents 
and environmental contaminants, is the third and final component of the 
biosurveillance initiative. Additional resources in FY 2005 will allow 
the Laboratory Response Network to expand its reach into food safety 
and animal diagnostic labs, thereby strengthening the Nation's 
laboratory infrastructure for timely and accurate reporting of a 
potential bioterrorism attack.
    The biosurveillance initiative is part of an interagency effort 
that crosses multiple sectors, including food supply, environmental 
monitoring, and human health surveillance, and its benefits will be 
felt in all state and local health departments. By integrating these 
otherwise isolated data sources, potential public health emergencies 
that may have gone undetected can be identified more rapidly. Through 
the biosurveillance initiative and ongoing capacity-building efforts at 
the state and local levels, the FY 2005 budget request will continue to 
enhance front-line emergency preparedness.

Conclusion

    CDC is committed to working with federal, State, and local partners 
to protect the Nation's health. Our best public health strategy against 
disease is the development, organization, and enhancement of public 
health disease detection systems, tools, and the people needed to wield 
them. The astute clinician remains the critical link in disease 
detection and reporting. The first case of West Nile in 1999, and the 
first case of anthrax reported in early October 2001, were identified 
by astute clinicians. Training and education of these front-line health 
protectors remain a high priority for CDC and will continue to be a 
priority as we strive to improve all components of the Nation's disease 
detection systems.
    While we have made substantial progress towards enhancing the 
Nation's capability to rapidly detect disease within our communities, 
improving our response and containment strategies, and developing plans 
to recover from tragic events, much remains to be done. CDC is very 
grateful for the congressional support received to date and looks 
forward to continuing to work with Congress and Members of this 
committee as we strive to protect the public's health from terrorism 
and other public health emergencies.
    Thank you for the opportunity to testify on this most important 
topic. At this time I would be happy to answer any questions.

                    Biography for Charles A. Schable

    Mr. Schable is currently the Director of the Bioterrorism 
Preparedness & Response Program at the U.S. Department of Health and 
Human Services' Centers for Disease Control and Prevention, National 
Center for Infectious Diseases. At CDC, Mr. Schable has also served as 
Deputy Director (1998-2002), Division of AIDS, STD & TB Laboratory 
Research, NCID; Chief (1984-1998), HIV Serology Section, Immunology 
Branch, DASTLR, NCID; Chief (1976-1984), Serology Section, Hepatitis 
Branch, DVRD, NCID, Phoenix, AZ.; Microbiologist, (1967-1976), Serology 
Section, Hepatitis Division, NCID.
    Mr. Schable received his B.S. in Microbiology in 1967 and his M.S. 
in Microbiology/Immunology (1976) from Arizona State University, Tempe, 
AZ. His honors include USPHS Commendation Medal (1986), Outstanding 
Unit Citation (1989), Citation (1992), Outstanding Service Medal 
(1994), Achievement Medal (1996); CDC Group/Professional Honor Award 
(1982, 1994, 1998), American Society for Microbiology Elizabeth O. King 
Award (1982).
    Mr. Schable is a member of the Commissioned Officers Association, 
the American Society for Microbiology, the National Registry of 
Microbiologists, and Sigma Xi, National Committee for Clinical 
Laboratory Standards. He is the author/co-author of 85 research and 
review articles.

    Mr. Neugebauer. Thank you, Mr. Schable. What we're going to 
do is go through the entire panel and then we will come back in 
for individual questions.
    Our host, Mr. Samuel Turner.

 STATEMENT OF SAMUEL H. TURNER, SR., CHIEF EXECUTIVE OFFICER, 
                 SHAWNEE MISSION MEDICAL CENTER

    Mr. Turner. Thank you, Mr. Chairman and Congressman Moore. 
There are few things that scare a hospital administrator more 
than the threat of bioterrorism. There are issues like staffing 
shortages, reimbursement for patient care, capital needs for 
aging facilities, the list is endless. However, many of these 
issues are within our creative control and can be addressed 
through diligent efforts to make change.
    The threat of bioterrorism isn't so easily controlled. We 
don't know when it will strike. It could be an hour from now or 
10 years from now. We don't know in what form it will take 
hold. It could be anthrax or smallpox. There's no way to 
estimate the scope of the event. It could affect 10 people or 
10,000 people. These are the thoughts that challenge us during 
the day and keep us up at night.
    I am pleased to have the opportunity to share information 
with you today about the current situation at Shawnee Mission 
Medical Center. We have the largest emergency department in 
Johnson County serving nearly 50,000 patients annually. In the 
entire State of Kansas, only three other hospitals report as 
many visits.
    Over the past several years, community demand for services 
here has grown steadily, and as a result, we are substantially 
expanding our facility. The expansion is desperately needed, 
particularly to accommodate the estimated 60,000 emergency room 
visits expected by 2007. As part of this effort, we also 
believe it is incumbent on us to incorporate features to deal 
with the very real issues of bioterrorism in any of its various 
forms. We sit along Interstate 35 with a number of both truck 
and auto traffic passing by with hazardous materials on a daily 
basis. In addition, we are in close proximity to major rail 
lines that can pose considerable threats to our region from 
either deliberate or accidental causes. It is urgent that the 
hospital be prepared for potential chemical accidents, natural 
disasters and terrorist attacks.
    Due to the projected high costs of our expansion, we will 
not be able to incorporate many of the readiness proposals we 
feel are needed without federal funding and partnerships. The 
cost of incorporating bioterrorism readiness into the proposed 
expansion is estimated to be at least a third of the emergency 
department expansion costs. There are a number of design 
modifications and requirements we feel are necessary to deal 
with requirements of contamination mitigation or mass casualty 
treatment that we would like to incorporate into the new 
facility.
    For instance, to plan for a more secure environment, we 
need a long access road to allow hospital officials to detect 
incoming threats. We need separate ambulance and walk-in 
entrances so if one has to be shut down due to a biothreat, the 
other entrances can be still usable. In addition, design and 
equipment modifications must be incorporated into the air 
handling mechanical systems to isolate the different air flows 
so as not to contaminate the entire emergency department and/or 
the hospital. We need to be prepared to stand alone for 48 to 
72 hours. This includes vaccinations, antibiotics, chemical 
antidotes, personal protective equipment and supplies. 
Emergency department associates must be trained to handle 
bioterrorism response and hazmat.
    There are also needs for space and equipment to perform 
triage, decontamination, mass vaccination and a temporary 
mortuary. Development needs to occur to make the equipment that 
is available on the market applicable to the health care 
environment.
    For years, the Kansas City metropolitan area has been 
performing city-wide disaster drills; however, guidelines and 
best practice recommendations from the Federal Government are 
needed to ensure efficiency and that all communities are as 
prepared as they can be. We have put countless resources into 
upgrading our preparation, but a wide gap still exists.
    In 2002, software was made available at no cost to local 
hospitals that already operated Cerner lab information systems. 
The HealthSentry tracking tool gets information from the 
existing systems without extra technical work and cost. Most 
importantly, health department officials are able to see the 
data two to three days earlier than they would without this 
technology.
    The data made available through this system could be one of 
the first signals that a bioterrorism event has occurred. 
Through automated systems like this and the constant vigilance 
of our front line providers, trends can be identified and more 
appropriately responded to in order to minimize the potential 
loss of human life.
    According to Solucient, the leading source of health care 
business intelligence, the median profitability for community 
hospitals like Shawnee Mission Medical Center is only 3.64 
percent. Although here at Shawnee Mission we reinvest all 
profit back into the hospital for the benefit of the community, 
there simply isn't enough money to make all of the needed 
improvements and preparations while maintaining a financially 
viable organization.
    Nationally, hospitals are being asked to improve overall 
quality, including reducing clinical errors and infection 
rates. The solutions that are in place to help with this effort 
come at no small price. For instance, we are currently in the 
process of implementing a comprehensive clinical informatics 
system that will launch next year at a cost of $4.5 million. 
Clearly, in this time of real threats, we must be prepared for 
possible attack.
    We firmly believe that our new facility could greatly 
assist in overall emergency preparedness for our area by 
designing the emergency department to provide the space, 
equipment and trained personnel that are needed to ensure that 
our first responders have been given every opportunity to save 
precious lives.
    I'll defer the rest of my statement for further questions. 
I see I've run out of time.
    [The prepared statement of Mr. Turner follows:]

              Prepared Statement of Samuel H. Turner, Sr.

INTRODUCTION

    There are few things that scare a hospital administrator more than 
the threat of bioterrorism. There are issues like staffing shortages, 
reimbursement for patient care, capital needs for aging and undersized 
facilities, specialty hospitals. . .the list is endless. However, many 
of these issues are within our creative control and can be addressed 
through consistent and diligent efforts to make change. The threat of 
bioterrorism isn't so easily controlled. We don't know when it will 
strike. It could be an hour from now or 10 years from now. We don't 
know in what form it will take hold. It could be anthrax or smallpox. . 
.or any other number of destructive agents. There's no way to estimate 
the scope of the event. It could affect 10 people or 10,000 people. 
These are the thoughts that challenge us during the day and keep us up 
at night.

THE SITUATION

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I am pleased to have the opportunity to share information with you 
about the current situation at Shawnee Mission Medical Center. To give 
you some perspective, Shawnee Mission Medical Center is located in a 
southwestern suburb of the Kansas City metropolitan area. There are 
roughly three million people in the metropolitan area with about one 
million in Shawnee Mission Medical Center's primary service area. We 
have the largest emergency department in Johnson County serving nearly 
50,000 patients annually. It is the third-busiest emergency department 
in the entire metropolitan area behind only two designated Trauma 
Centers that are located on the Missouri side of the metropolitan area 
(Truman Medical Center and North Kansas City Hospital). In the entire 
state of Kansas, only hospitals in Topeka and Wichita record as many 
visits as Shawnee Mission Medical Center. This volume is particularly 
impressive when taking into consideration that the current Emergency 
Department is one-third the size recommended by current planning 
standards to accommodate this volume.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the past several years, community demand for services at 
Shawnee Mission Medical Center has grown steadily and as a result, the 
hospital is substantially expanding its facility. The mission of this 
expansion project is to create a state-of-the-art medical services 
destination point in an optimal environment for healing and whole-
person health. Improving the patient experience and provider workflow 
is being integrated in every aspect of design along with the concepts 
of adaptability and continual collaboration. The new Emergency 
Department will feature a hub-like triage station that is surrounded by 
disease specific treatment pods and decentralized waiting areas. It is 
our desire to implement a number of bioterrorism readiness features 
into this expansion.

CURRENT FACILITY CHALLENGES & FUTURE SOLUTIONS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 2002 and 2003, Shawnee Mission Medical Center was forced to go 
on diversion for 60 and 40 days respectively. Diversion means that the 
hospital cannot accept any additional ambulance traffic. All 
operational efficiencies have been investigated and implemented. The 
best hope is to maintain the 2003 diversion days and not increase days 
on diversion. The lack of an adequate number of telemetry beds 
contributes greatly to this forced diversion. Currently less than 30 
percent of the Medical-Surgical beds have monitoring capability. 
Without this $84.2 million expansion, there will continue to be times 
when we cannot meet the community need for our services, particularly 
emergency services. And in the case of a disaster situation, we would 
be even less able to accommodate the community's needs without this 
expansion in its entirety.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The expansion is desperately needed, particularly to accommodate 
the estimated 60,000 visits by 2007. As a part of this effort, we also 
believe it is incumbent on us to incorporate features to deal with the 
very real issues of bioterrorism in any of its various forms (i.e., 
biochemical or biological). Shawnee Mission Medical Center sits along 
Interstate 35 with a number of both truck and auto traffic passing by 
with hazardous materials on a daily basis. In addition, we are also in 
close proximity to major rail lines that can pose considerable threats 
to our region from either deliberate or accidental causes. It is urgent 
that the hospital be prepared for potential chemical accidents, natural 
disasters and potential terrorist attacks.
    Due to the projected high costs of our expansion, we will not be 
able to incorporate many of the readiness proposals we feel are needed 
without federal funding and federal partnerships. The cost of 
incorporating bioterrorism readiness into the proposed expansion is 
estimated to be $4.5 million of the entire $12 million Emergency 
Department expansion. The following information outlines a number of 
design modifications and requirements we feel are necessary to deal 
with the requirements of contamination mitigation or mass casualty 
treatment that we would like to incorporate into the new facility.
Security

        --  Long access road to allow hospital officials to detect 
        incoming threat

        --  Dedicated security vestibule with metal detectors and 
        security guard station

Bioterrorism Readiness

        --  The Emergency Department must be built next to a flat 
        parking area that can allow for rapid expansion of the 
        facility. If a bioterrorism threat is detected, the hospital 
        can accommodate First Responder/National Guard/Emergency 
        Services personnel to quickly locate temporary treatment units 
        next to the hospital. The design will allow us to quickly turn 
        our parking areas into extra treatment areas for mass 
        casualties.

        --  Separate ambulance and walk-in entrances must be built. If 
        one entrance has to be shut down due to a bio-threat, the other 
        entrance can still be useable.

        --  A treatment pod system must be incorporated into the design 
        to allow for flexibility and containment of an infectious agent 
        that would not necessarily force us to shut down the entire 
        Emergency Department. In other words, a contaminated patient 
        will be able to enter from the outside into an isolated room 
        that provides privacy for decontamination. After becoming 
        decontaminated, the patient will then be able to directly enter 
        the Emergency Department. In addition, design and equipment 
        modifications must be incorporated into the air handling 
        mechanical systems to isolate the different airflows so as to 
        not contaminate the entire Emergency Department and/or 
        hospital.

        --  A triage area made up of a large area and treatment rooms 
        needs to be positioned adjacent to the Emergency Department to 
        rapidly distinguish medical cases.

        --  
    * The Emergency Department should occupy the first floor and have 
the capability to completely contain itself and be under lockdown from 
the rest of the hospital if needed.

        --  The various medical technology labs must be located in 
        close proximity and within the containment space.

        --  The patient areas must be directly above the Emergency 
        Department for easy access for other hospital personnel in case 
        of terrorism events.

        --  Dedicated security stations, including screening stations 
        and restricted access areas must also be incorporated into the 
        design and construction.

ADDITIONAL PREPAREDNESS NEEDS

Infection Control Concerns
    Infection Control specialists, although always important, have 
become indispensable in the post-9/11 environment. These experts fully 
understand the impact of bioterorism threats and how quickly, if 
implemented, they could have a significant impact on our society. 
Following are some of the concerns of Infection Control staff and the 
needs that exist to be as fully prepared as possible for possible 
attack.

        <bullet>  Resist contamination of the hospital environment by 
        staging triage of incoming suspect patients at a point outside 
        of the hospital.

        <bullet>  Mechanical/equipment resources are needed 
        (ventilators, negative air flow rooms, masks, gloves, and 
        gowns) which could take 24 to 48 hours to access, and may 
        deplete vendor supplies in a short period of time.

        <bullet>  Prophylaxis of healthy individuals coming to the 
        hospital must be carried out away from contaminated areas, but 
        will require staffing.

        <bullet>  Trained Infection Control personnel to monitor 
        wearing of Personal Protective Equipment (PPE) and placement of 
        patients in negative air isolation rooms. SMMC currently has 14 
        isolation rooms.

        <bullet>  Educating staff about the signs and symptoms of 
        bioterrorism agents must be ongoing. Additional staffing and 
        educational funding is needed for this purpose.

        <bullet>  Communication among hospitals, health departments and 
        emergency personnel must be standardized so that the same 
        definitions and control techniques are put into place. With 
        standardization, help from staff can be distributed where it is 
        needed and at any facility. Ideally, this would come from the 
        federal level so that if help is needed, anyone from around the 
        country could be called in to help.

Emergency Planning Integration

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There has been a citywide initiative to coordinate efforts for 
emergency preparedness and these efforts have served the city well. 
There needs to be continued planning integration between our hospital 
and other community resources to ensure that the community will be 
adequately served in a time of need. Good guidelines and best practice 
recommendations from the Federal Government are needed to ensure 
efficiency and that all communities are as prepared as they can be. 
Locally, there have been great strides in this area and an EMS system 
supports hospital coordination. However, not every hospital has access 
to the Hospital Emergency Administrative Radio system due to cost 
constraints, so again our ability to be most effective for our 
community is jeopardized due to lack of funding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Self-Sustaining Protection
    Funding is needed to allow Shawnee Mission Medical Center to stand-
alone for 48-72 hours before help arrives. This includes vaccinations, 
antibiotics, chemical antidotes, personal protective equipment and 
supplies.

Additional Space and Equipment Needs

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Although we feel that we are addressing many of the space needs in 
our expansion planning, there are additional needs for space and 
equipment to perform triage, decontamination, mass vaccination and a 
temporary mortuary. In addition, the current personal protective 
equipment is either not protective enough or so cumbersome it inhibits 
our provider's ability to provide care to patients. Development needs 
to occur to make the equipment that is available on the market 
applicable to the health care environment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


The Best Laid Plans
    The best laid plans are just that without trained personnel to 
carry out the actions. Additional funding is needed for training 
Emergency Department associates including bioterrorism response and 
Hazmat.

Increased Security
    Shawnee Mission Medical Center has increased its security efforts 
since 9/11, but there is so much that is still at risk. Funding is 
needed to improve access control and security for prevention through 
increased surveillance and tighter access and preparedness for a 
response to a terrorist attack.

PRACTICE, PRACTICE, PRACTICE

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For years the Kansas City metropolitan area has been performing 
city-wide disaster drills. Only a couple days before the drill and in 
the midst of our preparation for the drill in 2001, we all sat in shock 
at the horror we were seeing on television the morning of September 11. 
Since that time, the drills have taken on a whole new meaning and there 
is a greater sense of reality. We have put countless resources into 
upgrading our preparation, but a wide gap still exists. We have 
upgraded our emergency preparedness manual to include bioterrorism. We 
have changed our Medical Staff bylaws to give temporary status to 
physicians in a disaster situation. We have created a large notebook 
that is utilized in the lab so they can be vigilant in their efforts to 
swiftly identify any trends as they are occurring. Unfortunately, our 
day-to-day operations limit our preparation. There are several hundred 
patients who need the attention of our caregivers on a daily basis. The 
``what ifs'' are endless and it is almost overwhelming to think about 
all that needs to be done and know that there is no way with our 
current financial resources to accomplish all that we want to.
    In addition to the citywide disaster drills, we also conduct 
periodic table top drills. Before and after all drills, citywide or 
tabletop, we conduct preparation meetings and then following the drill, 
critique our performance. Everyone involved in the drills are included 
in the critique, not just Shawnee Mission Medical Center associates. 
The Merriam Fire Department noticed that our incident command process 
needed some improvement and offered to conduct a training session. This 
type of cooperation has contributed greatly to the improvements our 
hospital and other community resources have been able to make.
    In addition to the drills, there are periodic ``live'' situations 
that help us think through our preparedness for something bigger. In 
the past two years, we have had a severe ice storm that left us without 
our normal power supplies and there was a major water main break that 
left us without running water supplies. Although we were pleased with 
our overall preparedness for these situations, there are things we have 
been able to tweak in the plans that will be valuable for similar 
situations or even more severe ones. In addition, last fall there was a 
local outbreak of cryptosporidiosis that gave an opportunity for the 
state to communicate an outbreak and keep everyone abreast of the 
situation. Because of the media coverage, we encountered a large number 
of patients coming to the Emergency Department for fear of having this 
parasite. There were some confirmed cases, but many others were not. 
This gave both the lab and the providers in the Emergency Department an 
opportunity to be aware of possible patients with a condition.
    We believe that we are virtually as prepared as we can be with our 
current resources, but the limitations we are aware of and do not have 
the ability to overcome are terribly concerning. Our constraints are 
not vastly different than other hospitals in the area, the region or 
the country. We all are faced with many of the same challenges and it 
is clear that federal assistance is needed to address these issues for 
the good of our country.

THE COMPETITION FOR CAPITAL

    According to Solucient, a the leading source of health care 
business intelligence, the median profitability for community hospitals 
like Shawnee Mission Medical Center is 3.64%. Although Shawnee Mission 
Medical Center reinvests all of its profit back into the hospital for 
the benefit of the community, there simply isn't enough money to make 
all of the needed improvements and preparations while maintaining a 
financially viable organization.
    Nationally, hospitals are being asked to improve overall quality 
including reducing clinical errors and infection rates. The solutions 
that are in place to help with this effort come at no small price. In 
2005, Shawnee Mission Medical Center will be installing a comprehensive 
clinical informatics system. Utilizing this system, Shawnee Mission 
Medical Center will be able to gather a wide variety of clinical and 
financial data. This will provide a solid data baseline in which to 
compare with after the project is completed in 2008. This state-of-the-
art system will provide the opportunity to allow health care providers 
more time at the patient's bedside and less time locating and 
maintaining paper records. In addition, Shawnee Mission Medical Center 
will be able to deliver enhanced care more quickly with this system in 
case of a disaster. This system is expected to cost the medical center 
approximately $4.5 million.

SILENT PROTECTION

    If only there were more safeguards in place that like that of 
HealthSentry. In 2002, the Cerner Corporation launched a software 
application as a pilot program in the Kansas City area. Cerner 
estimated that the startup investment over a five-year development and 
rollout period would cost approximately $2 million. This software was 
made available to the local hospitals that already operated Cerner lab 
information systems at no cost, however. The HealthSentry tracking tool 
gets information from the existing systems without extra technical work 
and cost. The program automatically operates in the background and is 
monitored and maintained through connections to Cerner's data center. A 
data file of each provider's lab information is sent daily through a 
secure network with encryption processes to protect patient identity to 
Cerner. After the file arrives at Cerner, the data are analyzed and 
released in a series of reports and regional maps that are made 
available to the health department the next morning. Less than a day 
later, public health officials can log onto a secure web site to view 
which diseases were reported in the field. Health department officials 
have reported that through this system, they are receiving information 
2-3 days earlier than without this technology.
    The data made available through this system could be one of the 
first signals that a bioterrorism event has occurred. Through automated 
systems like this and the constant vigilance of our front-line 
providers, trends can be identified and more appropriately responded to 
in order to minimize the potential loss of human life.

IN SUMMARY

    Clearly in this time of real threats we must be prepared for 
possible attack. We firmly believe that our new facility could greatly 
assist in the overall emergency preparedness for our area. Again, due 
to the location of the hospital, our Emergency Department sees 
significant volume and is strategically located to provide community 
support in the event of a terrorist attack. Therefore, we must design 
the Emergency Department to provide the space, equipment and trained 
personnel that are needed to ensure that our first responders have been 
given every opportunity to save precious lives. However, we know that 
we cannot do this alone. We will continue to make our best efforts to 
prepare our facility, physicians, nurses and staff to the best of our 
ability. We will continue to work proactively with other local health 
care providers and emergency services providers to ensure the most 
coordinated effort should an incident occur. And we will continue to 
ask for the Federal Government's support in these efforts. The 
residents of our community, and others across the Nation, deserve 
nothing less.

                  Biography for Samuel H. Turner, Sr.

    Samuel H. Turner, Sr., presently serves as President and Chief 
Executive Officer of Shawnee Mission Medical Center. Mr. Turner has 
nearly 20 years experience in the industry having served as a health 
care consultant as well as a hospital executive.
    His career began with a position as General Attorney at Aluminum 
Company of America in Pittsburgh, Pa. After eight years in that 
position, he decided to enter the health care arena. Mr. Turner became 
the General Vice President at Hyde Park Hospital in Chicago, Ill. 
Within several years, he was recruited to be a Senior Vice President 
and Chief Operating Officer at Lakeshore Health System, Inc., in East 
Chicago, Ind. In 1993, Mr. Turner became President and Chief Executive 
Officer at St. Vincent Charity Hospital in Cleveland, Ohio. From there, 
he entered private law practice offering consulting for physicians and 
hospitals. Mr. Turner also started his own company, Custom Title and 
Settlement, Inc., during that time. He joined Shawnee Mission Medical 
Center in 2000.
    Mr. Turner received his Bachelor's degree from Tennessee State 
University in 1974, and three years later earned a law degree from 
Vanderbilt University School of Law. Mr. Turner served in the United 
States Army from 1969-1971 and received a Bronze Star for Valor and a 
Bronze Star for Merit during his tour in Vietnam.
    Mr. Turner is active in the community serving on various boards 
including the American Heart Association, Boys & Girls Club of Eastern 
Jackson County, Midwest Bioethics Center, the Johnson County Community 
College Foundation, Country Club Bank, Shawnee Area Chamber of 
Commerce, United Way of Johnson County and Kansas City's public 
television station KCPT.
    He is also a member of the Overland Park Rotary Club and the 
Northeast Johnson County Chapter of NAACP.
    He and his wife, Sharon, reside in Leawood, Kansas.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Neugebauer. Thank you, Mr. Turner.
    Mr. Richard Morrissey.

 STATEMENT OF RICHARD MORRISSEY, INTERIM DIRECTOR, DIVISION OF 
      HEALTH, KANSAS DEPARTMENT OF HEALTH AND ENVIRONMENT

    Mr. Morrissey. Thank you, Mr. Chairman and Congressman 
Moore for this opportunity to testify on bioterrorism 
preparedness and response from the state perspective. I'm Dick 
Morrissey and I currently serve as the Interim Director of the 
Division of Health for KDHE and in that role I'm also the 
Executive Director of the State's Bioterrorism Program.
    The current operating budget for the Kansas program is 
approximately $17 million. KDHE has worked closely with the 
associated local health departments and Kansas Hospital 
Association to develop and implement the State's program and 
plan of work related to public health and hospital 
preparedness. $6,125,000 for public health funding is being 
directly distributed to local health departments in the current 
fiscal year to support their implementation of the state work 
plan. And $4 million is allocated directly to community 
hospitals for that purpose.
    The Hospital Bioterrorism Program required regional 
planning to provide a minimum level of surge capacity. For that 
purpose, the program adopted the same regions used for the 
State Trauma Program and used by the Kansas Hospital 
Association for those purposes. The Public Health Bioterrorism 
Program, on the other hand, did not have a requirement for 
regional planning and development, but the large number of 
small health departments in the State necessitated an approach 
that would foster shared planning and a mechanism for sharing 
resources locally.
    Approximately $800,000 was made available in incentive 
grants to local health departments that participated in a 
regional collaboration. To date, 104 of 105 counties have 
chosen to participate in one of 15 regional groupings that they 
developed. The hallmarks of this process were that it was 
voluntary and it was bottom up. Local health departments 
decided the regions that they would participate with.
    Kansas is focused on technology in the bioterrorism program 
in really three separate areas. The first was the development 
of an automated disease reporting system called HAWK. At the 
present time, 36 counties containing approximately 90 percent 
of the Kansas population now submit information regarding their 
cases of reportable disease through HAWK, which is a secure 
web-based disease reporting system. About 90 percent of all 
case reports from local health departments are received via the 
system.
    The Public Health Information Exchange or PHIX, was 
developed with bioterrorism funding as part of the National 
Health Alert Network. That system provides a secure web and 
pager based two-way communication medium for exchange of alert 
messaging among public health, hospital and laboratory 
officials as well as partners in law enforcement, military, 
emergency management and so forth. Local health departments 
serving all 105 Kansas counties and more than 90 percent of the 
State's community hospitals participate in PHIX.
    The State Public Health Laboratory has been upgraded to a 
biosafety level 3 and can now return confirmatory testing 
results on biological agents more safely, securely and rapidly. 
With the second year of federal funding, the focus in the 
laboratory has shifted to chemical agents in focus area D and 
we are now in the process of upgrading the laboratory for 
testing of chemical agents.
    In the area of coordination, Governor Kathleen Sebelius has 
focused on coordinating Homeland Security efforts in the State 
since first taking office in January of 2003. In June of 2003, 
she created the Governor's Homeland Security Council, charged 
with coordinating policy for Homeland Security efforts and 
assuring that Homeland Security funds are being used to maximum 
effect. The Governor's objectives are to coordinate existing 
and federally required agencies and advisory groups, to reduce 
duplication, and to work toward assuring the highest possible 
level of preparedness and response capability at both the state 
and community levels.
    Finally, funding for restoring public health and hospital 
capacity has long been needed. The neglect of many years has 
not been corrected with two years of funding. We have public 
health departments and hospitals still working to develop the 
capability to respond to disasters and to meet the surge 
capacity requirements.
    We are grateful for the significant federal support you 
have provided, but it is critical that funding continue in 
order to further develop and sustain the local public health 
and hospital infrastructure.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Morrissey follows:]

               Prepared Statement of Richard J. Morrissey

Bioterrorism and First Responders: How Can Biosurveillance Technologies 
     Help Front-line Public Health Facilities and First Responders?

Introduction

    Thank you Chairman Neugebauer and Representative Moore for this 
opportunity to testify on ``Bioterrorism and First Responders: How Can 
Biosurveillance Technologies Help Front-line Public Health Facilities 
and First Responders.'' My name is Richard Morrissey. I serve as 
Interim Director of the Division of Health for the Kansas Department of 
Health and Environment (KDHE). I also serve as the Executive Director 
of the Kansas Bioterrorism Program.

Background

    The current operating budget for the Kansas Bioterrorism Program is 
approximately $17.1 million, which is received from the federal 
Department of Health and Human Services in two separate grant awards.
    The first bioterrorism grant received by KDHE was the Public Health 
Preparedness and Response to Bioterrorism Cooperative Agreement, 
administered at the federal level by the Centers for Disease Control 
and Prevention (CDC). KDHE has received funds under the CDC program 
since it began in 1999. Between 1999 and 2001, Kansas received 
approximately $850,000 per year to meet state public health 
bioterrorism needs. In 2002, a total of $12.3 million was awarded to 
Kansas and another $12 million in 2003.
    The second federal bioterrorism grant administered by the Kansas 
Bioterrorism Program is administered at the federal level by the Health 
Resources and Services Administration (HRSA). Kansas was awarded $1.3 
million for FFY 2002 and $5.1 million for FFY 2003 under this program.
    KDHE has worked very closely with the Kansas Association of Local 
Health Departments and Kansas Hospital Association to develop and 
implement the Kansas Bioterrorism Program's plan of work related to 
public health and hospital preparedness. In 2002, $5,350,000 in grant 
funds was provided directly to local health departments throughout 
Kansas. An additional $6,125,000 is being directly distributed to the 
local health departments in the current federal fiscal year to support 
their implementation of the work plan related to the federal focus 
areas. Attachment A summarizes the activities for each of the seven 
focus areas in the CDC grant, and shows the allocation of grant funds 
for Federal Fiscal Years 2002 and 2003.
    In FFY 2002, the Kansas Bioterrorism Program provided $945,000 
directly to the state's six hospital regions and in FFY 2003, 
$4,000,000 is being provided directly to hospitals and other providers 
for implementation steps to improve surge capacity. Attachment B 
summarizes the planned activity by established federal priority areas.
Program Highlights:

        <bullet>  A statewide bioterrorism plan has been established 
        and all local health departments have submitted local 
        bioterrorism preparedness and response plans, including a 
        smallpox annex. State and local response plans were tested and 
        evaluated during six regional exercises in October 2003.

        <bullet>  The smallpox vaccination program implemented during 
        fiscal year 2002 has resulted in the creation of 46 smallpox 
        response teams in 23 counties. Development and training of 
        these teams will be ongoing, with planning and development of 
        additional response teams occurring at the local level. 
        Training on smallpox vaccination has been conducted at six 
        locations throughout Kansas using a live satellite uplink at 
        the Bob Dole Media Center at Kansas State University. Pre-event 
        vaccination of public health and health care response team 
        members continues while the program's focus shifts toward post-
        event smallpox planning.

        <bullet>  Thirty-six counties (containing approximately 90 
        percent of the Kansas population) now submit information 
        regarding their cases of reportable disease through HAWK, a 
        secure, Web-based disease surveillance reporting system. About 
        90 percent of all case reports from local health departments 
        are received via the HAWK system.

        <bullet>  The Public Health Information exchange (PHIX), was 
        developed with bioterrorism funding as part of the Health Alert 
        Network (HAN). The system provides a secure, web and pager 
        based two-way communication medium for exchange of alert 
        messaging among public health, hospital and laboratory 
        officials, as well as partners in law enforcement, military, 
        and emergency managers. Local health departments serving all 
        105 Kansas counties and more than 90 percent of the state's 
        community hospitals participate in PHIX.

        <bullet>  The state public health laboratory has been upgraded 
        and can now return confirmatory testing results on possible 
        biological agents much more safely, securely and rapidly. These 
        upgrades are direct outcomes of Bioterrorism Program funding. 
        The laboratory is currently implementing similar upgrades to 
        establish capacity for testing of chemical agents.

        <bullet>  A toll-free telephone hotline has been established 
        for 24/7 disease reporting. A phone bank of volunteer staff has 
        been recruited and trained to respond to calls from the public 
        during widespread outbreaks.

        <bullet>  High-speed Internet connections are being provided to 
        one third of the county health departments through the Health 
        Alert Network (HAN) and funded by the Bioterrorism Program 
        grant. All 105 Kansas counties participate in HAN.

        <bullet>  In October 2003, ``Oktoberfest: An Exercise in 
        Terror!'' a regional bioterrorism exercise was conducted in 
        each of the six hospital regions. Individuals from hospitals, 
        public health departments, law enforcement, fire service, 
        emergency management officials from each county and several 
        state and federal officials participated. The two-day exercise, 
        which included instruction on incident command and posed both 
        chemical and biological scenarios was well attended, including 
        112 of 128 Kansas community hospitals. A total of 1,035 
        individuals participated in the exercise.

        <bullet>  Through regional hospital planning meetings, the lack 
        of facilities in Kansas hospitals for patients requiring 
        airborne isolation was recognized as the greatest need. Funds 
        distributed to the regions were used to purchase portable 
        equipment that allows Kansas to boast the availability of at 
        least one airborne isolation room in each community hospital. 
        This equipment will also be used to increase the state's 
        ability to properly care for patients with tuberculosis and 
        other infectious respiratory diseases.

Focus on Regional Planning and Development

    The Hospital Bioterrorism Program required planning on a regional 
basis to provide a minimum level of surge capacity. The program adopted 
the same regions used for the State Trauma Program and by the Kansas 
Hospital Association for this purpose. Attachment C displays the six 
regions. Each of these regions developed a plan during the first year 
and is coordinating implementation activities during the current year.
    The Public Health Bioterrorism Program did not have a requirement 
for regional planning and development, but the large number of small 
health departments in the state necessitated an approach that would 
foster shared planning and a mechanism for sharing resources. 
Approximately $800,000 was made available in incentive grants to local 
health departments that participated in a regional collaboration. To 
date, 104 of 105 counties have chosen to participate in one of 15 
regional groupings that they developed. Hallmarks of this process were 
that it was voluntary and bottom up. Regional structures are 
contractual arms of local health departments that maintain the 
responsibility and authority of local health officers and county 
commissions. Attachment D displays the 15 local health department 
regions.

Federal, State, Local Partnerships

    Partnerships have built the foundation for a successful, 
coordinated Bioterrorism Program in Kansas. As mentioned above, KDHE 
works hand-in-hand with the Kansas Association of Local Health 
Departments and Kansas Hospital Association in developing and 
implementing the CDC and HRSA Cooperative Agreements. Program 
priorities are developed collaboratively and implemented locally, 
regionally, and at the state level to assure a consistent approach at 
Bioterrorism planning and preparedness. Additionally, KDHE has built a 
very solid working relationship with the Kansas Division of Emergency 
Management (KDEM) and Kansas Highway Patrol (KHP), the two lead state 
partners in relationship to terrorism planning and preparedness. The 
KHP is the State Administrative Agency for the Office of Domestic 
Preparedness (ODP) grant program, while KDEM manages all Federal 
Emergency Management Association (FEMA) funds in Kansas. Through this 
ongoing collaboration, funds disbursement at the local level is 
coordinated to assure non-duplication of effort and integration of 
resources to build our state's capacity to protect Kansans from 
terrorism and other emergency situations.
    Our direct federal partners are the Hospital Bioterrorism 
Preparedness Program in the Health Resources and Services 
Administration and the Public Health Preparedness and Response to 
Bioterrorism Program at the Centers for Disease Control and Prevention. 
Both of these programs have struggled to meet the great demands of 
getting these programs organized and have provided us with strong 
support and technical assistance. In doing so, they have to overcome 
the inherent fragmentation involved in the multiple federal programs 
providing support and guidance to the overall response to terrorism.

Early Detection Systems

    KDHE's Bioterrorism Program considers development and expansion of 
epidemiologic and surveillance capacity at all levels among its highest 
priorities. Funding support for HAWK, a secure, Web-based disease 
surveillance reporting system, has allowed for further system 
development and an expansion of the user base over the past two years. 
Thirty-six counties (containing approximately 90 percent of the Kansas 
population) now submit information regarding their cases of reportable 
disease through HAWK, a secure, Web-based disease surveillance 
reporting system. About 90 percent of all case reports from local 
health departments are received via the HAWK system. In addition, 
funding is provided to local health departments to further develop 
their own surveillance capacity, with ongoing training on epidemiology 
and other surveillance issues provided by the state.
    KDHE has placed renewed priority on recruiting and retaining an 
expanded staff of physicians, other health officers, and experienced 
epidemiologists to enhance our communicable disease management and 
bioterrorism detection capacity. Additionally, a team of seven Medical 
Investigators is being developed to provide regional epidemiology and 
surveillance support to local health departments across the state. 
These staff members will be the lead on our regional rapid response 
teams and will work with local health care professionals to manage 
outbreak situations. At the same time, local health departments are 
using bioterrorism funding to develop their capacity to support 
statewide surveillance and communicable disease control efforts, 
working within their newly established bioterrorism regions.
    Kansas has not elected to invest bioterrorism funding in the 
development of new technologies for syndromic surveillance, but we have 
closely monitored those activities in other parts of the country. KDHE 
staff has been directly involved in the discussion at national levels 
about the usefulness of biosurveillance monitoring systems. While some 
of these systems look promising, their role in public health 
surveillance remains unclear, particularly in a predominantly rural 
state like Kansas. Important aspects (such as the presence of 
appropriate response plans when the system detects a potential 
abnormality) need to be addressed before such systems can be deployed 
on a large scale. Most importantly, the conditions under which these 
systems can be useful to assist in the detection of and response to a 
bioterrorism event or another public health emergency still need to be 
clearly understood and demonstrated. We do envision the opportunity in 
the future to participate in or implement systems that have been 
demonstrated effective in development efforts funded in other states.

Integration & Collaboration

    As noted earlier, KDHE works closely with Kansas Highway Patrol 
(KHP) and Kansas Division of Emergency Management (KDEM) to assure 
integration and collaboration at all levels for terrorism preparedness 
planning in Kansas. KDHE's Director of Health serves as the Executive 
Director for Bioterrorism in Kansas, and represents the agency on the 
Governor's Bioterrorism Coordinating Council, Governor's Homeland 
Security Council, and Commission for Emergency Preparedness and 
Response. Through these avenues, KDHE has an opportunity to link with 
all members of the emergency preparedness and response community, 
including health care/mental health, law enforcement, fire, emergency 
management, elected officials, advocacy groups, and others.
    KDHE's Bioterrorism Program Director serves along with the KHP's 
ODP Administrative Lead and KDEM's Administrator on a working committee 
to coordinate all terrorism-related activities funded by ODP, FEMA, 
CDC, and HRSA. This threesome meets weekly to discuss ongoing projects 
and issues, and to develop new and innovative methods of collaboration. 
Additionally, they facilitate communication between the cabinet-level 
representatives of their respective agencies related to policy making 
and consensus building.
    Governor Kathleen Sebelius has focused on coordinating Homeland 
Security efforts in the state since first taking office in January of 
2003. In June of 2003, she created the Governor's Homeland Security 
Council, charged with coordinating policy for Homeland Security efforts 
and assuring that Homeland Security funds are being used for maximum 
effect. The Homeland Security Council includes representatives of all 
the involved state agencies as well as representatives of the Kansas 
Association of Counties and the League of Municipalities. The 
Governor's objectives are to coordinate existing and federally required 
advisory groups, to reduce duplication, and to work toward assuring the 
highest possible level of preparedness and response capability at both 
the state and community level. Attachment E displays the Homeland 
Security organization for the state.

Federal Assistance

    We have appreciated the funding and technical assistance received 
thus far from the federal bioterrorism programs. We have also worked, 
as noted above, to coordinate the program efforts with those of our 
sister Homeland Security agencies in the state. For example, we have 
allocated Office of Domestic Preparedness funding to support an 
integrated system of exercises that will support the needs of health 
agencies, emergency preparedness agencies, and first responders across 
the state. While the challenges to coordinating these programs at the 
federal level have been formidable, all that can be done to facilitate 
future coordination of federal guidance and policy can only enhance the 
ability to collaborate effectively at the state and local levels.
    Funding for restoring public health and hospital capacity has long 
been needed; the neglect of many years has not been corrected with two 
years of funding. We are grateful for the significant federal support 
you have provided, but it is critical that funding continue in order to 
further develop and sustain the local public health infrastructure.
    Accountability is a shared concern and we have worked to build into 
our programs, assessment and evaluation measures that monitor our 
progress against specified grant expectations and requirements. If 
there are to be other performance measures established at the federal 
level, it is critical that state and local officials have the 
opportunity to participate in the process of their development. To the 
extent that federal policy expectations are articulated across Homeland 
Security programs, it will enhance the process of setting functional 
performance expectations.

Conclusion

    The Kansas Bioterrorism Program continues to improve the capacity, 
at both the state and local level, to prepare for and respond to public 
health emergencies. Coordination and collaboration with partner 
organizations and federal funding agencies will remain a priority, and 
is required for continued progress toward our share goals.
    Thank you for the opportunity to provide testimony on this critical 
issue for the Nation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment B

            HRSA Bioterrorism Hospital Cooperative Agreement

Priority Area

1. Administration

    Full-time staff in the Hospital Bioterrorism Program include a 
program manager, who has experience in local Kansas hospitals, and a 
program assistant with expertise in chemical emergency management. 
Additionally a contract pharmacist, shared with the public health 
bioterrorism program will be hired this year as will a new medical 
director. Technical assistance is provided to the program through a 
contract with the Kansas Hospital Education and Research Foundation.

2. Regional Surge Capacity

    In 2002 the six hospital regions prepared a regional hospital 
bioterrorism plan which included plans for the care of 500 additional 
acutely ill patients in the region. The plans included methods to 
acquire more space to care for patients, methods and resource lists for 
transportation of patients both within and outside the region. In 2003 
the regions will continue the planning process and the revised plans 
will address protocols for triage of patients relative to available 
resources, including patients with infectious diseases and placement 
and transportation of patients with diseases requiring airborne 
isolation. Assessment of both intra- and interstate personnel 
credentialing problems will also be a part of the plan.
    During 2003, grants of $25,000 are being provided to community 
hospitals to purchase personal protective equipment to be used during 
chemical, radiological and biological emergencies. Additionally 
facilities are using these funds to purchase systems for 
decontamination, medical supplies, education, training, and terrorism 
related exercises. Once facilities make these personal protective 
equipment purchases, employees in Kansas hospitals will be afforded the 
minimum level of protection in case of a chemical emergency.

3. Emergency Medical Services

    This priority was not directly addressed in FFY 2002. In the 
current year, planning for EMS needs will be initiated. An assessment 
of the current capabilities of EMS agencies with regard to pediatric 
trauma and life support equipment and training will be undertaken. 
Priorities for purchase of equipment will be established and as 
available implementation funds targeted for FFY 2004. Each hospital 
planning region will establish a medical triage subcommittee as a part 
of its planning structure to address EMS and triage issues which could 
arise as a result of a large surge of patients. This subcommittee will 
be responsible for establishing triage, patient transfer, and admission 
guidelines for patients needing hospital services. These guidelines 
will be prepared in cooperation with the State Trauma Planning regions 
and local medical care providers.

4. Links to Public Health Departments

    Development of a sentinel network of health care providers who 
would assist KDHE in collection of syndromic surveillance data is an 
integral part of the hospital linkage to local health departments. 
Establishment of a sentinel network composed of a variety of health 
care provider types including hospitals, health departments, and 
federally qualified health centers is a task currently underway. 
Hospital bioterrorism program staff are currently assisting the Bureau 
of Epidemiology and Disease Prevention in locating sentinel sites for 
monitoring of disease. Hospital infection control practitioners serve 
as a significant link to KDHE and the local health departments with 
regard to both disease reporting and disease investigation.
    An increase of laboratory capacities for microbiology testing for 
Category A Agents and chemical terrorism in at least 10 hospital 
laboratories strategically placed throughout the state is being 
implemented. Funding of up to $10,000 per laboratory is being provided. 
This will increase the overall capacity and decrease the length of time 
for analysis of results based on geography and travel time.

5. Education and Preparedness Training

    Several large scale terrorism preparedness educational programs 
will be undertaken during the coming year. Training for clinical 
providers and other appropriate volunteers to assist in caring for both 
those individuals who have been exposed to terrorist acts and those 
individuals who have behavioral manifestations of terrorism generated 
fear. This training will be useful in assisting the hospital regions in 
developing a cadre of trained workers who can assist in the assuring 
that mental health needs are met at a local level during terrorism 
related and other disasters. Training for non-clinical hospital workers 
in basic infection control procedures with special focus on CDC 
Category A Bioterrorist agents will be conducted using a variety of 
methods including the use of web-based media or ``webinars'' and CD-ROM 
materials. In addition to the on-site trainings, development of a 
manual of appropriate templates for mutual aid agreements, memorandum 
of understanding, memorandum of agreement, and contingency based 
contracts will also be prepared. These materials will be developed in 
cooperation with the Kansas Hospital Association using legal council 
and will be distributed to all community hospitals, local health 
departments and local emergency planning committees.

6. Terrorism Preparedness Exercises

    During fiscal year 2003, KDHE is planning two regional hospital 
bioterrorism exercises. The first of these exercises, ``Oktoberfest: An 
Exercise in Terror!'' occurred in October 2003 the second is scheduled 
to occur in March 2004. The October full-day exercise was a functional 
tabletop exercise that occured at different times in each of the six 
hospital regions and tested each region's capabilities to respond to a 
biological event. The March 2004 full-day exercise is planned to be 
another functional tabletop exercise which will occur in each of the 
six regions. The purpose of this exercise will be to assess whether 
cross-regional coordination planning is sufficient to assure that any 
large scale event could be handled appropriately within the state. Both 
of these events include elements which will test the response systems 
plans and ability to care for children and the frail elderly as well as 
other types of special needs populations including those with limited 
English proficiency. Planned simulations include weather conditions, 
citizen/victim reports, massive pediatric and adult illness and trauma, 
deaths, the worried well, media interaction and movement and 
prioritization of resources.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Biography for Richard J. Morrissey

2003-Present--Interim Director, Division of Health, Kansas Department 
        of Health and Environment, Curtis State Office Building, 1000 
        SW Jackson, Suite 300, Topeka, KS 66612-1365

1992-2003--Director, Office of Local and Rural Health, Kansas 
        Department of Health and Environment, Topeka, Kansas

1989-1992--Deputy Director, Division of Health, Kansas Department of 
        Health and Environment, Topeka, Kansas

1983-1989--Director, Bureau of Adult and Child Care, Kansas Department 
        of Health and Environment, Topeka, Kansas

1981-1983--Special Assistant to the Secretary, Kansas Department of 
        Health and Environment, Topeka, Kansas

1979-1981--Director, Health Resources, Kansas Department of Health and 
        Environment, Topeka, Kansas

1974-1979--Planning Consultant and Associate Director, Office of Health 
        Planning, Kansas Department of Health and Environment, Topeka, 
        Kansas

EDUCATION

    Graduate of the University of Iowa (B.A.), 1971.

PERSONAL BACKGROUND

        1.  Attended elementary and high school in Davenport, Iowa

        2.  Served in the U.S. Army from 1965 to 1968 (First 
        Lieutenant)

        3.  Married; two children

        4.  Presently living in Lawrence, Kansas.

    Mr. Neugebauer. Thank you, Mr. Morrissey.
    Ms. Kay Kent, welcome.

STATEMENT OF W. KAY KENT, RN, MS, ADMINISTRATOR/HEALTH OFFICER, 
  LAWRENCE-DOUGLAS COUNTY HEALTH DEPARTMENT, LAWRENCE, KANSAS

    Ms. Kent. Good morning. My name is Kay Kent. I'm the 
Administrator/Health Officer of the Lawrence-Douglas County 
Health Department in Lawrence, Kansas. Thank you for the 
opportunity to address you today regarding state and local 
preparedness for a bioterrorism event.
    Detection and response to bioterrorism generally happens 
first at the local level. The capacities needed to effectively 
respond to bioterrorism are also the capacities needed by local 
public health agencies to respond to all hazards. In Douglas 
County, we have worked to integrate bioterrorism detection and 
response with systems public health already uses to detect and 
respond to more common, naturally occurring disease outbreaks.
    The Lawrence-Douglas County Health Department has had a 
leadership role in bringing together response partners to work 
on preparedness and response plans for public health 
emergencies.
    Local preparedness efforts are ongoing. A critical step was 
to delegate and delineate our roles and responsibilities among 
response partners, both at the local level and state level. 
Participation in local and state exercises helps to identify 
critical gaps in our response readiness.
    The most significant assistance from the Federal Government 
has been new dollars passed through the Kansas Department of 
Health and Environment to address preparedness for a 
bioterrorism attack and other public health emergencies.
    The federal bioterrorism funding is used primarily to 
address staffing, training and infrastructure needs. In 
addition, we have recently received federal funding for the 
development of a Douglas County Medical Reserve Corps. These 
federal dollars focus on our significant need for developing 
surge capacity in the area of personnel. Resources from the 
Kansas Department of Health and Environment have included the 
template for writing a preparedness and response plan, 
exercises that allow local health departments to exercise their 
plans across county lines, and training on surveillance, risk 
communication and epidemiology.
    In 2003, Douglas County and several surrounding counties 
were involved in an outbreak of Cryptosporidium. The first case 
was reported on July 24, 2003. The outbreak was considered over 
on October 24, 2003. I would like my written testimony to 
reflect that that's 2003, not 2004.
    On August 22nd we made a request for assistance from the 
Centers for Disease Control and Prevention and on August 25th, 
three days, staff from CDC arrived and stayed on-site at our 
health department for five weeks. Kansas Department of Health 
and Environment epidemiology staff was also available on site 
during the first week of the CDC investigation and by telephone 
throughout the investigation.
    Although this was not a disease perpetrated by terrorists, 
the size of the outbreak and the complexity of transmission 
constituted a public health emergency for our health department 
and our community. Our ability to meet our public health 
responsibilities in responding to this emergency was greatly 
enhanced by the preparedness work done over the previous 18 to 
24 months. And these preparedness activities included enhanced 
relationships with key community response partners, key contact 
information and lists available in usable format for rapid 
dissemination of information, improved infrastructure including 
surge computer network capacity and surge capacity of agency 
staff.
    Our experience with working with state and federal staff on 
an outbreak investigation was very positive. In an outbreak, 
strong leadership at the local, state and federal levels is 
critical. In addition to the staff that came on site, daily 
conference calls were held with Kansas Department of Health and 
Environment staff in Topeka and CDC staff in Atlanta to work on 
technical issues and strategies for the intervention.
    In order to assist local health departments, state and 
federal agencies also need resources, particularly surge 
capacity for laboratory and epidemiology staff. We found lab 
support for the investigation at both the state and federal 
levels to be critical. It was vital to the investigation that 
we were able to have a large volume of tests run timely. The 
number of hours contributed by CDC and Kansas Department of 
Health and Environment staff was significant. Had there been 
another disease outbreak to deal with elsewhere in the State, 
the Kansas Department of Health and Environment staff would not 
have been able to provide the level of support needed in 
Douglas County.
    Progress has been made related to preparedness and 
responses to public health emergencies. Federal funding has 
been an important part of that progress. Ongoing federal 
funding is essential to sustain public health response 
readiness at the local level. The added responsibility placed 
on local public health agencies is great, but it is part of our 
mission and public health has a unique role to play.
    Thank you for holding this hearing and for your support of 
public health and I'll be happy to respond to any questions.
    [The prepared statement of Ms. Kent follows:]

                   Prepared Statement of W. Kay Kent

    Good morning. My name is Kay Kent. I am the Administrator/Health 
Officer of the Lawrence-Douglas County Health Department in Lawrence, 
Kansas. Thank you for the opportunity to address you today regarding 
State and local preparedness for a bioterrorism attack.
    To put my comments in context, I will start with a brief 
description of Douglas County and the Lawrence-Douglas County Health 
Department. Douglas County, with a population of just over 100,000 
residents, is located in northeast Kansas, 30 minutes from the Topeka 
state capital to the west and 30 minutes from the Kansas City metro 
area to the east. We are a city-county health department with 
governmental public health responsibilities. A five-member health board 
appointed by city and county commissioners is the policy making body 
for our agency. We currently have a staff of 42 and a total budget of 
$2.7 million. We provide a full range of public health services. 
Program offerings include disease control and prevention, clinic 
services for the maternal and child health population (ranging from 
child health assessments to family planning to nutrition services to 
child care licensing), case management services for the frail elderly, 
teen parents and at-risk families, community health activities, and 
environmental health.
    The major points I will address are our health department's role in 
preparedness for a potential bioterrorism attack and how federal and 
state governments have facilitated those efforts. I will talk about my 
experience with an outbreak of cryptosporidiosis in Douglas County in 
2003 and how preparedness efforts for bioterrorism helped us deal with 
this naturally occurring disease outbreak. Finally, I will discuss what 
State and Federal governments could do to improve their efforts to help 
us be better prepared for the next pubic health emergency.

Local role in preparedness

    Detection and response to bioterrorism generally happens first at 
the local level. Local public health preparedness is a fundamental 
building block of our nation's overall readiness. The capacities needed 
to effectively respond to bioterrorism are also the capacities needed 
by local public health agencies to respond to all hazards. In Douglas 
County we have worked to integrate bioterrorism detection and response 
with systems public health already uses to detect and respond to more 
common, naturally occurring disease outbreaks.
    The Lawrence-Douglas County Health Department began working in 
earnest on a bioterrorism preparedness and response plan in January 
2002. Our agency has had a leadership role in bringing together local 
response partners to work on a preparedness and response plan for 
public health emergencies. This process involved forming new 
relationships, particularly with local law enforcement jurisdictions, 
fire and emergency medical services and emergency management. We also 
strengthened and enhanced our relationships with physicians, the 
hospital, university and urgent health clinics, and pharmacies.
    Local preparedness efforts are ongoing; we continue today to 
update, expand and exercise our local public health emergencies plan. 
Our health department collaborates regionally with four other Kansas 
counties to provide staff training. A critical step during initial 
planning was to delineate roles and responsibilities among response 
partners, both at the local level and state level. Since then we have 
been working to further refine plans that would allow us to provide 
mass distribution of vaccines or prophylaxis through the deployment of 
the Strategic National Stockpile. Participation in local and state 
exercises helped to identify critical gaps in our response readiness. 
We continue to have a significant need for staff with specialized 
skills in risk communication.

State and federal role in assisting with our efforts

    The most significant assistance from the Federal Government has 
been new dollars passed through the Kansas Department of Health and 
Environment (KDHE) to address new or expanded public health 
responsibilities related to preparedness for a bioterrorism attack and 
other public health emergencies. About half of the $11 million in 
federal funding that came to Kansas in FY 2003 was distributed to local 
health departments. Our health department received $111,000 in FY 2003 
and $149,000 in FY 2004.
    Bioterrorism funding is used primarily to address staffing, 
training and infrastructure needs. Staffing was increased by 1.75 FTE 
to address new responsibilities for local public health emergency 
preparedness and response activities and assure improvement in critical 
capacity areas. State-sponsored training on surveillance, epidemiology, 
risk communication, and the Incident Management System was made 
available to select health department staff. Because we must continue 
our day-to-day work while staff is being trained, grant funds pay for 
replacement staff during the trainings. We expanded our computer 
network to address surge capacity needs and put in place security 
enhancements. These activities required additional time for contracted 
IT assistance.
    Other resources from Kansas Department of Health and Environment 
(KDHE) include a template for writing a preparedness and response plan 
that was made available to local health departments early in the 
planning process. KDHE also organized exercises that allow local health 
departments to exercise their plans across county lines.
    We expect the state health agency to provide technical assistance 
on issues where capacity has not yet been developed at the local level 
or, in some cases, would not be effective or practical to implement at 
the local level. For example, the state should provide laboratory 
services and high level technical expertise in epidemiology that can be 
expanded if circumstances warrant.

Outbreak of Cryptosporidiosis

    In 2003, Douglas County and several surrounding counties in 
northeast Kansas were involved in an outbreak of Cryptosporidium. 
Although this was not a disease perpetrated by terrorists, the size of 
the outbreak and complexity of transmission, constituted a public 
health emergency for our health department. Our ability to meet our 
pubic health responsibilities in responding to this emergency was 
greatly enhanced by the preparedness work done over the last 18 to 24 
months.
    Cryptosporidium is a diarrheal illness caused by a chlorine-
resistant parasite. Individuals become infected by swallowing the 
parasite after coming in contact with fecal-contaminated surfaces or 
recreational water. The first case was reported on July 24, 2003; the 
outbreak was considered over on October 24, 2003. During this time 
period, there were 89 laboratory-confirmed cases among Douglas County 
residents plus seven cases among residents in neighboring counties 
linked to exposures in Douglas County. There were more than 600 
probable cases. During the course of the disease investigation and 
implementation of prevention and control measures health department 
staff logged an additional 863 hours, distributed more than 9,000 fact 
sheets, made more than 5,000 telephone calls in search of probable 
cases, and issued 365 stool collection kits.
    On Friday, August 22 we made a request, through the Kansas 
Department of Health and Environment (KDHE), for assistance from the 
Centers for Disease Control and Prevention (CDC). On Monday, August 25 
an EIS officer arrived at our health department and stayed for five 
weeks. She was joined by a second EIS officer and four other CDC staff 
who rotated through. KDHE epidemiology staff was also available on-site 
during the first week of the CDC investigation and by telephone 
throughout the investigation.
    Preparedness activities that assisted us in our response efforts 
included established relationships with key community response 
partners. These partners included local physicians, university health 
center, school district, and hospital infection control. Because these 
individuals or entities had been involved in planning with the health 
department for a bioterrorism incident, we already had built a level of 
trust and familiarity with public health work.
    We also benefited from our current infrastructure. High-speed 
Internet capability was essential as was a functioning computer network 
and phone system. Transforming a conference room into an operations 
center capable of handling several computer and printer connections had 
been tested prior to the outbreak. Earlier preparations such as 
preprogrammed fax numbers for physicians and school nurses, mailing 
labels for child care facilities, and e-mail addresses for key contacts 
assisted with rapid communications.
    The health department had begun to address the need for surge 
capacity in response to a bioterrorism event and this proved useful 
during the outbreak of Cryptosporidium. Individuals previously 
identified as potential workers were contacted and asked to assist. In 
addition, current staff, some of whom are part-time, worked flexible 
hours to meet the need. Nearly all current staff participated in 
response efforts. Had the outbreak been much larger, additional surge 
capacity would have been necessary.

Future efforts from State and Federal Governments

    Ongoing federal funding is essential to sustain public health 
response readiness at the local level. Ongoing preparedness efforts to 
respond to a bioterrorism incident (linkages made, training received, 
exercises held), improve skills that are also needed for responding to 
a naturally occurring disease. Local health departments do not have the 
luxury of hiring staff and creating systems exclusively for 
bioterrorism preparedness. Agency staff and systems are multi-purpose 
in providing essential public health services.
    Since last year's outbreak, the health department has received 
federal funding for the development of a Douglas County Medical Reserve 
Corps. These federal dollars focus on our significant need for 
developing surge capacity to address public health emergencies.
    Our experience with working with state and federal staff on an 
outbreak investigation was very positive. In an outbreak, strong 
leadership at the local, state and federal levels is critical. Those 
involved in the Douglas County outbreak had previous experience in 
partnering across the various levels of government which facilitated a 
good working relationship and an effective investigation. CDC was able 
to bring to us locally, expertise in epidemiology. We were able to 
provide expertise about our community. And together, we problem-solved 
about the source of the infection and what interventions to put in 
place to bring the outbreak under control.
    By having access to local incidents as they unfold, CDC is able to 
improve understanding of new and emerging diseases and test better 
methods for disease identification. For example, one segment of 
research done in Douglas County was for the purpose of finding an 
alternative to stool samples as a means for disease testing.
    In order to assist local health departments, state and federal 
agencies also need resources, particularly surge capacity for both 
laboratory and epidemiology staff. We found lab support for the 
investigation at both the state and federal levels to be critical. It 
was vital to the investigation that we be able to have a large volume 
of tests run timely. The number of hours contributed by CDC and Kansas 
Department of Health and Environment (KDHE) epidemiology staff to the 
Cryptosporidium outbreak was significant--during a public health 
emergency the work is really 24/7. Had there been another outbreak to 
deal with elsewhere in the state, KDHE would not have been available to 
provide the level of support needed in Douglas County.
    In addition to the staff that came on-site, daily conference calls 
were held with KDHE staff in Topeka and CDC staff in Atlanta to work on 
technical issues and strategies for the investigation. Materials 
developed as part of the investigation were reviewed by CDC and KDHE 
epidemiology staff as well as significant contributions from the KDHE 
public information office. We worked to have consistent messages 
conveyed to the public across county lines because communicable disease 
does not know county boundaries.
    Responding to bioterrorism or any other public health emergency is 
more than just learning the specifics of a new disease. There are new 
functions throughout the agency and local health department staff need 
strong analytical, communication and technology skills to be 
successful. Such staff development requires someone to do planning, 
assessment, leadership and monitoring.
    Progress has been made related to preparedness and response to 
public health emergencies and federal funding has been an important 
part of that progress. The added responsibility placed on local public 
health agencies is great, but is part of our mission and public health 
has a unique role to play. Ongoing, adequate resources from the federal 
level are needed to address gaps identified through local planning and 
public health emergency exercises.
    Thank you for holding this hearing and for your support of public 
health. I'll be happy to respond to any questions you may have.

                       Biography for W. Kay Kent

EDUCATION:

Master of Science in Community Health Nursing, Boston University, 
        Boston, Massachusetts, January 1973.

Bachelor of Science in Nursing, University of Kansas, Kansas City, 
        Kansas, June 1966.

Diploma, Trinity Lutheran Hospital School of Nursing, Kansas City, 
        Missouri, August 1964.

PROFESSIONAL CREDENTIALS:

    Licensed to practice as a Registered Nurse in Kansas.

PROFESSIONAL EXPERIENCE:

Administrator/Health Officer: Lawrence-Douglas County Health 
        Department, Lawrence, Kansas, June 1973 to present. First non-
        physician Health Officer in Kansas.

Public Health Leadership Institute, Centers for Disease Control and 
        Western Consortium for Public Health, 1992-1993 (Year 2 
        Scholar).

Instructor, Community Health Nursing: University of Kansas School of 
        Nursing, Kansas City, Kansas, January 1973 to June 1973.

Instructor, Psychiatric Nursing: Faulkner Hospital School of Nursing, 
        Boston, Massachusetts, September 1970 to September 1971.

Instructor: Mendota State Hospital, Madison, Wisconsin, January 1967 to 
        August 1970.

Staff Nurse: New England Deaconess Hospital, Boston, Massachusetts, 
        June 1966 to January 1967.

Staff Nurse (Part-time): Trinity Lutheran Hospital, Kansas City, 
        Missouri, August 1964 to June 1966.

PROFESSIONAL ORGANIZATIONS:

Public Health Leadership Society.

American Public Health Association.

Kansas Public Health Association.

American Nurses Association.

Kansas Association of Local Health Departments.

Kansas Nurses Association.

District 17 of the Kansas Nurses Association.

CURRENT ACTIVITIES:

Board of Directors, Kansas Health Institute.

Kansas Public Health Systems Group.

Bioterrorism Preparedness Planning Committee for the Kansas Department 
        Health and Environment and Kansas Association of Local Health 
        Departments.

Douglas County Community Health Improvement Project Leadership Group.

Legislative Committee, Kansas Association of Local Health Departments.

PAST ACTIVITIES:

Chair, Board of Directors, Kansas Health Institute.

Lawrence Partnership for Children and Youth, Inc., Board of Directors.

Supreme Court Task Force on Permanency Planning and Children's Justice 
        Act Task Force.

Governor's Public Health Improvement Commission Task Force on Effective 
        Public Health Organizations.

Lawrence Memorial Hospital Board of Directors.

Kansas Master of Public Health Degree Program Advisory Committee.

Douglas County Health Care Access Board of Directors.

Kansas Department of Health and Environment Strategic Planning 
        Committee.

Douglas County Area Health and Human Services Needs Assessment Steering 
        Committee.

Kansas Public Health System Study Committee Co-Chair.

Douglas County Visiting Nurses Board of Directors.

Jayhawk Area Agency on Aging, Inc., Tri-County Advisory Council.

Douglas County AIDS Project Advisory Committee.

American Public Health Association/American Academy of Pediatrics 
        Health and Safety Organization and Administrative Technical 
        Panel of the Child Care Performance Standards Project.

Kansas Coalition on Medical Indigency.

Kansas Advisory Committee to the Coordinating Council on Early 
        Childhood Development Services.

Emergency Planning Committee for Douglas County.

Kansas University School of Nursing Ad Hoc Nursing Curriculum 
        Committee.

Kansas Long Term Care Advisory Committee.

Kansas Department of Health and Environment P.L. 99-457 (Handicapped 
        Infant and Toddlers) Grant Review Committee.

Kansas Hospital Association Human Services Alternative for Rural 
        Hospitals Grant Advisory Committee.

Douglas County Teen Pregnancy Task Force.

President, President-Elect, Secretary-Treasurer, District 
        Representative, and Legislative Chair, Kansas Association of 
        Local Health Departments.

Board of Directors and Secretary of Health Systems Agency Board, Health 
        Systems Agency of Northeast Kansas.

Chairman, Project Review Committee of Northeast Kansas Health Systems 
        Agency.

Chairman, Nominations Committee, Health Systems Agency of Northeast 
        Kansas.

Board of Directors, Douglas County Planning Council On Services for the 
        Aging.

Chairman, Health Committee, Douglas County Planning Council On Services 
        for the Aging.

Kansas Public Health Association Legislative Committee.

Kansas Public Health Association Program Committee.

University of Kansas Biohazards Committee.

Douglas County Citizens Committee on Alcoholism.

Douglas County Heart Unit.

Douglas County March of Dimes.

Douglas County Emergency Medical Services Council.

Kansas State Board of Nursing Subcommittee on Communication between 
        Nursing Service and Nursing Education.

Chairperson, Fourth Annual Governor's Conference on Aging Health 
        Program.

HONORS AND AWARDS:

Kansas Health Foundation Leadership Fellow, 1999.

First Recipient of Kansas Health Foundation Community Health Leadership 
        Award, 1994.

Kansas Public Health Association Special Services Award, October 1992.

Kansas Public Health Association Samuel J. Crumbine Medal for 
        Outstanding Service in Public Health, May 1987.

Kansas State Public Health Association Certificate of Merit, October 
        1982.

District 17 of Kansas State Nurses Association Certificate of Merit, 
        May 1982.

Sigma Theta Tau National Honor Society for Nursing, 1966.

Florence Nightingale Award, Trinity Lutheran School of Nursing, 1964.

PUBLICATIONS AND NATIONAL PRESENTATIONS:

``Mumps Outbreak in a Highly Vaccinated Population,'' Bradley S. Hersh, 
        M.D., M.P.H., Paul E.M. Fine, V.M.D., Ph.D., W. Kay Kent, R.N., 
        M.S., Stephen L. Cochi, M.D., Laura H. Kahn, R.N., B.S.N., 
        Elizabeth R. Zell, M. Stat., Patrick L. Hays, Ph.D., and Cindy 
        L. Wood., M.D., M.P.H., The Journal of Pediatrics. August 1991.

Co-presenter of The Health of Children in Day Care, a Public Health 
        Challenge, American Public Health Association meeting, 1986.

``An Integrative Approach to Child Care Licensing by a City-County 
        Health Department,'' co-authored with Peggy Scally, R.N., 
        Health of Children in Day Care, Public Health Profiles, Kansas 
        Department of Health and Environment, 1986.

``A Multi-Service County Health Department,'' Dynamics of Aging, 
        Forrest J. Berghorn and Donna E. Schafer, and Associates, 
        Boulder, Colorado: Westview Press, 1981.

    Mr. Neugebauer. Thank you, Ms. Kent.
    Mr. Brad Mason.

   STATEMENT OF BRADLEY C. MASON, DIVISION CHIEF OF SPECIAL 
   OPERATIONS, JOHNSON COUNTY MED-ACT, JOHNSON COUNTY, KANSAS

    Mr. Mason. Good morning, Mr. Chairman, Congressman Moore. 
Thank you for inviting me here today.
    I am Brad Mason. I'm the Special Operations Chief for 
Johnson County Med-Act. Also I serve as the Chairman of the Mid 
America Regional Council Emergency Response Committee, commonly 
known in these parts as MARCER. MARCER is an emergency medical 
services committee serving the eight county MARC region. It 
covers both sides of the state line. I am also a member of the 
Regional Homeland Security Coordinating Committee and a number 
of its operational subcommittees.
    I was asked to come here today to provide testimony on how 
current and future technology investments provide for 
coordinated communication among the public health, hospital and 
emergency response community within Johnson County and the 
Kansas City region.
    MARCER has always been in the forefront of providing voice 
communications infrastructure to link EMS providers in the 
field to base hospital physicians in the emergency departments 
of all metro area emergency rooms. A recent upgrade to the 
MARCER system was completed in 2003. Presently, a wireless 
voice radio system links all providers in the area. Public 
Health agencies in the metro area have a minimal role in the 
MARCER radio system on a day-to-day basis. It is important to 
note that the radio system has the ability to expand to meet a 
need for public health radio communications, should such a need 
be demonstrated. At this time the need for day-to-day metro-
wide access for our public health agencies is not required.
    The use of internet-based communications is becoming more 
and more commonplace in metro Kansas City. One such application 
is called EMSystem. MARCER led the deployment of EMSystem 
throughout the region in 2001. While EMSystem was initially 
implemented to facilitate disaster communications and hospital 
diversion information between hospitals and EMS providers, a 
side benefit was discovered in helping public health agencies 
communicate among EMS providers and emergency departments. 
Public health agencies have leveraged the rapid messaging 
ability of EMSystem to provide yet another means of instant 
access to health alerts and other critical information 
pertaining to disease outbreaks, reporting, etc.
    Based on the success in the Kansas City region with 
EMSystem, the State of Missouri implemented EMSystem 
statewide starting in 2002. This brought obvious benefits for 
the state health agencies in providing another communications 
conduit for the dissemination of public health alerts and 
advisories. Utilizing grant funding, the State of Missouri has 
covered all of the annual expenses for EMSystem users 
statewide, including users from Kansas that serve the metro 
Kansas City region. EMSystem combined with other public health 
information systems provides for an adequate means of 
information alerts to the response community. I also understand 
the State of Kansas is considering a statewide implementation 
of the EMSystem as well.
    As is widely reported, public health agencies need to have 
an early detection system in order to properly respond to 
potential infectious disease outbreaks. I understand that this 
is an area where quite a bit of improvement can be made, not 
only locally, but nationally. Johnson County presently uses the 
First Watch program. Public Health grant funding from the CDC 
has helped fund the deployment of this program in Johnson 
County. First Watch is an internet-based system at our 
Emergency Medical Systems dispatch center. The program looks 
for spikes in certain EMS call activity. Once a spike is 
recorded the system automatically notifies public health 
officials, who then in turn start an investigation into the 
matter. For instance, if there was an increase in respiratory 
distress calls that EMS ran in a given period of time, public 
health officials would be notified of that alert. The same 
First Watch system is used in Kansas City, Missouri at the 
MAST ambulance system. Presently, there is no compilation of 
the two systems data to obtain a better ``metro'' picture of 
alerts.
    While computer based programs have streamlined the sharing 
of information, much more can still be done to get a broader 
picture of the metro area when it comes to surveillance of the 
medical community. The shortcomings of only performing 
syndromic surveillance of CAD data are several. More detailed 
surveillance could occur by developing applications that mine 
the data of the EMS systems electronic medical record systems. 
Patient records are much more detailed in terms of reporting 
patient signs and symptoms compared to the very basic 
information found in CAD systems. The same could be said for 
the electronic patient records in hospitals and other health 
care settings in the metro area such as pharmacies. While the 
metro area has been making positive strides towards the 
information sharing and coordination needed for adequate early 
warning, more work still needs to be done.
    Critically important to the progress being made on the 
aforementioned programs in place for the Johnson County and 
metro Kansas City area is federal funding. Funding from such 
programs as the Department of Homeland Security's State 
Homeland Security Grant Program and the Urban Area Security 
Initiative have started the ball rolling in the right direction 
with Johnson County and in our region. Continued funding at or 
above current levels will help move our region closer to the 
goal of a solid early warning network for public health 
emergencies.
    As we progress into the future years, sustainment funding 
is also necessary for the new resources obtained through the 
grants. Often times, equipment is perishable and requires 
replacement in a matter of a few years. For example, Johnson 
County is considering stockpiling antibiotics to provide 
prophylaxes treatment of our first responders. However, we 
assume the risk that these medications will expire and we need 
funding to replace them in three to five years.
    These are but a few of the representative issues we are 
dealing with locally and regionally. We are on the front lines 
and our community expects us to respond accordingly to their 
local emergency. I appreciate you taking the time to listen to 
your local first responders. I look forward to our continued 
dialogue on this matter.
    [The prepared statement of Mr. Mason follows:]

                 Prepared Statement of Bradley C. Mason

    Mr. Chairman and Members of the Committee, I thank you for inviting 
me to testify today.
    I am the Division Chief of Special Operations for Johnson County 
Med-Act, the county paramedic service here in Johnson County, Kansas. I 
also serve as the Chairman of the Mid America Regional Council 
Emergency Response Committee or MARCER. MARCER is a Metro Kansas City 
EMS committee serving the eight county MARC region. I am also a member 
of the MARC Regional Homeland Security Coordinating Committee.
    I was asked to provide testimony on how current and future 
technology investments provide for coordinated communication among the 
public health, hospital and emergency response community within Johnson 
County and the Kansas City region.
    MARCER has always been in the forefront of providing voice 
communications infrastructure to link EMS providers in the field to 
base hospital physicians in the emergency departments of all hospitals 
in metro Kansas City. A recent upgrade to the MARCER system was 
completed in 2003. Presently a wireless voice radio system links all 
providers in the area. Public Health agencies in the metro area have a 
minimal role in the MARCER radio system on a day-to-day basis. It is 
important to note that the radio system has the ability to expand to 
meet a need for public health radio communications, should such a need 
be demonstrated. At this time the need for day-to-day metro-wide radio 
access for our public health agencies is not required.
    The use of Internet based computer applications is becoming more 
commonplace in metro Kansas City. One such application is called 
EMSystem. MARCER led the deployment of EMSystem throughout the region 
in 2001. While EMSystem was initially implemented to facilitate 
disaster communications and hospital diversion information between 
hospitals and EMS providers, a side benefit was discovered in helping 
public health agencies communicate among EMS providers and emergency 
departments. Public health agencies have leveraged the rapid messaging 
ability of EMSystem to provide instant access to health alerts and 
other critical information pertaining to disease outbreaks, reporting, 
etc.
    Based on the success in the Kansas City region with EMSystem the 
State of Missouri implemented it's use statewide starting in 2002. This 
brought obvious benefits for the state health agencies in providing 
another communications conduit for the dissemination of public health 
alerts and advisories. Utilizing grant funding the State of Missouri 
has covered all of the annual expenses for all EMSystem users 
statewide, including users from Kansas that serve the metro Kansas City 
region. EMSystem combined with other public health information systems 
provide for an adequate means of information alerts to the response 
community. I also understand that the State of Kansas is considering a 
statewide implementation of EMSystem.
    As is widely reported, public health agencies need to have early 
detection systems in order to properly respond to potential infectious 
disease outbreaks. I understand that this is an area where quite a bit 
of improvement can be made, not only locally but also nationally. 
Johnson County presently uses the First Watch program. Public Health 
grant funding from the CDC have helped fund the deployment of the 
program in Johnson County. First Watch is an Internet based 
application that mines the data in the computer aided dispatch (CAD) 
system at the EMS dispatch center. The program looks for spikes in 
certain EMS call activity. Once a spike is recorded the system 
automatically notifies public health officials, who then in turn start 
and investigation into the matter. For instance if there was an 
increase is respiratory distress calls for EMS, beyond a predefined 
threshold, public health officials would be automatically notified by 
the First Watch system. The spikes in calls at our 911 centers, urgent 
care center and emergency departments that are often the first real 
indicators of a potential biological incident. The same First Watch 
system is in use in Kansas City, Missouri at the MAST ambulance system. 
Presently there is no compilation of the two systems data to obtain a 
more ``metro'' oriented perspective of the data.
    While computer based programs have streamlined the sharing of 
information much more can still be done to get a broader picture of the 
metro area when in comes to surveillance in the medical community. The 
shortcomings of only performing syndromic surveillance of CAD data are 
several. More detailed surveillance could occur by developing 
applications that mine the data of the EMS systems electronic medical 
record systems. Patient records are much more detailed in terms of 
reporting patient signs and symptoms compared to the very basic data 
found in CAD systems. The same could be said for the electronic patient 
records in hospitals and other health care settings. While the metro 
area has been making positive strides towards the information sharing 
and coordination needed for adequate early warning, more work needs to 
be done.
    Critically important to the progress being made on the 
aforementioned programs in place in the Johnson County and metro Kansas 
City area is federal funding. Funding from such programs as the 
Department of Homeland Security's State Homeland Security Grant Program 
and the Urban Area Security Initiative have started the ball rolling in 
the right direction within Johnson County and in our region. Continued 
funding at or above current levels will help move our region closer to 
the goal of a solid early warning network for public health 
emergencies.
    As we progress into the future years, sustainment funding is also 
necessary for the new resources obtained through the grants. Often 
time's equipment is perishable and requires replacement in a matter of 
a few years. For example, Johnson County is considering stockpiling 
antibiotics to provide prophylaxes treatment to our first responders 
until Federal Response Plan resources are made available. Such 
medication has a two to five year shelf life and will eventually need 
replaced. If continued federal funding is not maintained, where will 
our local community find the needed dollars to maintain what we have?
    These are but a few of the representative issues we are dealing 
with locally and regionally. We are on the front lines and our 
community expects us to respond accordingly to their local emergency. I 
appreciate you taking the time to listen to your local first 
responders. I look forward to our continued dialogue on this matter.

                     Biography for Bradley C. Mason

        <bullet>  Has worked for Johnson County EMS: Med-Act since 1984

        <bullet>  Division Chief of Special Operations since 1997

        <bullet>  Directs EMS Special Operations Teams which include:

                <bullet>  Emergency Operations Team

                <bullet>  Disaster Response Team

                <bullet>  Hazardous Materials Medical Support Team

                <bullet>  Tactical Medic Team

                <bullet>  Bike Medic Team

        <bullet>  Responsible for EMS emergency planning for Med-Act 
        and for Johnson County Government. Plans include Mass Casualty, 
        Mass Fatality, Incident Management, Haz-Mat and Weapons of Mass 
        Destruction (WMD)

        <bullet>  Presently the Chairman of the Mid America Regional 
        Council Emergency Rescue (MARCER) Committee.

                <bullet>  Through MARCER Brad has led:

                        <bullet>  A major overhaul to the radio 
                        communications system that links EMS providers 
                        in the field with hospital emergency 
                        departments in metro Kansas City

                        <bullet>  Revisions to the Regional Mass 
                        Casualty Incident (MCI) Response Plan

                        <bullet>  Revisions to the Regional Disaster 
                        Communications Plan

                        <bullet>  Development and implementation of the 
                        EMSystem in Metropolitan Kansas City

                        <bullet>  Development of metro-wide hospital 
                        diversion protocols

        <bullet>  Member of the Regional Homeland Security Coordinating 
        Committee and numerous related homeland security subcommittees.

        <bullet>  Recipient of the Mid America Regional Council's 
        ``2004 Regional Leadership Award''

    Mr. Neugebauer. Thank you, Mr. Mason.
    Dr. Ron Kendall.

   STATEMENT OF DR. RONALD J. KENDALL, PH.D., DIRECTOR, THE 
    INSTITUTE OF ENVIRONMENTAL AND HUMAN HEALTH, TEXAS TECH 
                           UNIVERSITY

    Dr. Kendall. Chairman Neugebauer, Congressman Moore, thank 
you for the invitation to be here and to sit with these 
distinguished guests. I was presented a letter from the Science 
Committee to address some of the research underway in our 
Institute at Texas Tech University and I'm pleased to be here 
to represent the University and the District and your support, 
Congressman Neugebauer, and thank you very much for that 
support.
    The activities that we have related to biological and 
chemical terrorism countermeasures date back to July 1998. We 
were, at that time, contacted by Admiral Elmo R. Zumwalt, Jr., 
previously Chief of Naval Operations in Vietnam. He had 
interactions with the National Security Council, identified our 
program as a place upon which we could interact in 
toxicological research and information leveraging related to 
biological and chemical terrorism. We worked closely with the 
Admiral to set up a briefing and subsequently an initiative by 
which we were funded in 2000 by the United States Congress to 
appropriate funding for Texas Tech University system, the 
University of Texas at Austin and the University of South 
Florida to support research and technology development, 
training and education for countermeasures to biological and 
chemical threats. This funding was critical to establishing the 
Zumwalt Program which is implemented through the Institute of 
Environment and Human Health at Texas Tech which I oversee and 
this Institute is the joint venture of our medical school, law 
school and university and I think reflects the multi-
disciplinary cooperation that's critical.
    In terms of purpose, we were to coordinate and facilitate 
multi-disciplinary, basic and applied research and to provide 
education and training programs in cooperation with the 
Department of Defense to enhance various operational military 
capabilities to more effectively and efficiently identify, 
prevent, mitigate and eliminate biological and chemical threats 
and other weapons of mass destruction.
    Our focus has been to integrate and expand the multi-
disciplinary pool of expertise, technologies and collaborations 
necessary to remain a premiere internationally recognized 
leader in the scientific research and proliferation of 
information pertinent to military, and now civilian, 
countermeasures to biological and chemical weapon threats. This 
was not done irrelevant to other needs in the country, 
particularly as those identified previously by the National 
Research Council.
    Our current research focus areas which are identified in 
great detail in my appended testimony today are to develop and 
test advanced modeling and simulation capabilities to predict 
and preclude the dispersion of biological and chemical agents 
inside buildings and in urban and rural environments within and 
including livestock and wild animal populations. Secondly, to 
study and identify and quantify as well as qualify emerging 
foreign animal disease and re-emerging zoonotic disease threats 
and their potential uses as biological terrorism weapons; 
develop and test advanced composite non-woven fabrics for use 
as personal protective equipment against ballistic, biological 
and chemical insult and as I speak, we have several patents 
emerging, already one in place and moving forward to others; to 
develop and test novel approaches to detect and remediate 
biological and chemical agent exposures through therapeutic and 
genetic approaches, and to test existing and develop new 
generations of sensors to detect and identify biological and 
chemical weapon agents.
    This work has involved extraordinary collaboration. It has 
involved many multi-disciplinary research projects at Texas 
Tech that have engaged more than 60 faculty scientists 
addressing modeling, textiles, chemical engineering, 
atmospheric science, electrical engineering, plant and soil 
sciences, pharmacology, physiology, microbiology and 
toxicology.
    The Zumwalt Program has used and embraced this expertise in 
a multi-disciplinary format to bring this level of expertise to 
the focus of transferring the information to the scientific 
literature and to first responders. We have patented, 
published, as well as presented more than 60 professional 
scientific presentations not only in this country, but 
internationally. This research has been sponsored by the United 
States Army Research, Development and Engineering Command and 
continues to be sponsored through that process.
    We have interacted with the first responders by developing 
scientific expertise and state-of-the-art technologies through 
our collaborations in the Zumwalt Program and leveraging that 
success to now the establishment of the Texas Emergency 
Analysis and Response Program, TEARP, operated through our 
program. This gives us an opportunity to integrate scientific 
and technical expertise with state-of-the-art computing, 
communications, information systems and visualization 
technologies to create an immediately responsive and highly 
accurate operational capability to save lives and protect 
property. This also employs the engagement and deployment of 
our mobile platforms known as the VIPER systems.
    The federal funding that we have received has been 
predominantly through the Department of Defense. However, we 
encourage through the Department of Homeland Security and other 
entities becoming involved in the bioterrorism directive issued 
by President Bush to increase research focus on the development 
of more rapid biological pathogen recognition and 
identification capabilities for use in both active and passive 
surveillance systems, particularly in high population density 
areas such as this area; to create regionally focused research 
labs to assess and develop technologies to address the growing 
threat of emerging and resurging pathogens that may have also 
the potential for the use as biological terror agents; an 
increased focus on the establishment of training and education 
facilities to provide the most up-to-date information and 
technologies to emergency responders, their leadership, as well 
as elected officials, on the preventive and response procedures 
for biological weapon agents.
    In July of 1998, as a toxicologist, and having the 
opportunity to visit with Admiral Zumwalt, this is an area we 
were concerned about. Now, it is an area that I think is a part 
of our reality. We must get ready. We must get ready as soon as 
possible. I think the threat is imminent.
    Thank you.
    [The prepared statement of Mr. Kendall follows:]

                Prepared Statement of Ronald J. Kendall

Overview and History of The Institute of Environmental and Human 
                    Health:

    In 1997, Texas Tech University and Texas Tech University Health 
Sciences Center established, as a joint venture, The Institute of 
Environmental and Human Health (TIEHH) to bridge their ability to 
assess the impacts of toxic chemicals on the environment and on human 
beings. This initiative employs a medical school and health sciences 
center interfaced with a comprehensive university, including the Texas 
Tech University School of Law, and represents an opportunity to address 
environmental and human health issues from a multi-disciplinary 
perspective. Research members have been recruited based on experience 
in the field of environmental toxicology, as well as the diversity of 
their research. Dr. Ronald J. Kendall, a prominent leader in the 
international toxicology community, was hired as the founding director 
of TIEHH to direct this team and recruit the best scientists and 
personnel in this field.
    TIEHH research assesses human exposure to chemicals in the 
environment associated with symptomologies that can be determined to 
enhance and standardize the diagnostic process. TIEHH builds upon 
analytical methods of elements from human exposure to enhance 
quantitation of chemicals in association with environmental exposures. 
TIEHH also builds upon population-based epidemiological studies, 
including both humans and wildlife, to begin to better define the 
``Canary in the Coal Mine'' concept from a more quantitative and 
rigorous scientific basis. TIEHH is developing new innovative 
approaches to assess human health consequences in the environment.
    In a very short time, experts at TIEHH have created a one-of-a-kind 
program working to find answers to real-world issues. Incorporating a 
multi-disciplinary group of scientists, scholars, business leaders and 
government agencies, TIEHH personnel have assembled the best minds in 
the country to research environmental issues and provide solutions. 
Located in Lubbock, Texas, on the former Reese Air Force Base which is 
now Reese Technology Center, TIEHH occupies six buildings and more than 
150,000 sq. ft. Over $15 million was invested through several state and 
federal agencies, as well as support from Texas Tech, for the building 
and laboratory renovation and capital improvements. This includes over 
$3 million for the renovation of facilities and purchase of a high 
performance computing system and virtual reality theater equipment that 
is housed in TIEHH.
    As of Fiscal Year 2002-2003, TIEHH has facilitated approximately 
$50 million in grants and contracts awarded to Texas Tech University 
since TIEHH's establishment in 1997. Active grants facilitated by TIEHH 
core and research faculty and collaborators include the following 
sponsors: Strategic Environmental Research and Development Program, 
U.S. Army Soldier and Biological Chemical Command, Environmental 
Protection Agency, National Institute of Health, U.S. Department of 
Agriculture, National Institute of Environmental Health Sciences, 
National Science Foundation, and U.S. Army Corps of Engineers.

Admiral Elmo R. Zumwalt, Jr. National Program for Countermeasures to 
                    Biological and Chemical Threats

    For almost five years The Institute of Environmental and Human 
Health at Texas Tech University has been the home of the Admiral Elmo 
R. Zumwalt, Jr. National Program for Countermeasures to Biological and 
Chemical Threats (Zumwalt Program), which is a multi-disciplinary 
research, education, and service consortium composed of more than 60 
research scientists. The Zumwalt Program was formally established in 
1999 with the primary mission of defining, investigating, mitigating, 
and furthering the understanding and ability of operational military 
forces to prevent the threats associated with biological and chemical 
weapons. Inspired by the leadership of the late Admiral Elmo R. 
Zumwalt, Jr., the former Commander of Naval Operations during the 
Vietnam War, Dr. Ronald Kendall, Director of TIEHH, took the steps 
necessary to begin a countermeasures research program at Texas Tech 
University (TTU). He and others judiciously selected a team of multi-
disciplinary intellectual and technological experts from the Texas Tech 
University System and charged them with developing effective 
countermeasure strategies that would improve the Nation's understanding 
of biological and chemical weapons. By late 1999, these efforts 
culminated in a large research consortium that submitted a white paper 
designed to meet the critical needs of the National Research Council. A 
short time later the U. S. Congress appropriated funding to the Texas 
Tech University System, the University of Texas at Austin, and the 
University of South Florida to support research and technology 
development, training and education for countermeasures to biological 
and chemical threats, the Zumwalt Program received funding from the 
U.S. Army Soldier Biological and Chemical Command (SBCCOM) to establish 
and implement the research initiative (in October 2003 the SBCCOM was 
re-organized and renamed the U.S. Army Research, Development and 
Engineering Command (RDECOM) ).
    The administrative and support functions to facilitate all elements 
of the Zumwalt Program are headquartered at TIEHH. Once established and 
initiated, the Zumwalt Program used SBCCOM funding to expand and branch 
out to recruit scientists and conduct research in more than 12 
different departments within the TTU System. Each research project is 
peer-reviewed to insure it complements the overall Zumwalt Program and 
SBCCOM/RDECOM mission, which is to develop, acquire, and sustain 
soldier support and nuclear, biological, and chemical defense 
technology, systems, and services. The start-up funding enabled 
individual scientists within the Zumwalt Program to bring their 
individual expertise and laboratory resources to bear on the threats of 
biological and chemical weapons and threat agents. The Zumwalt Program 
at Texas Tech is part of the National Consortium for Countermeasures to 
Biological and Chemical Threats (National Consortium), which represents 
efforts contributed from Arkansas State University, Florida Atlantic 
University, Kansas State University, Oklahoma State University, 
University of Central Florida, University of Kansas, University of 
South Florida, University of Texas System, and the Texas Tech 
University System.
    Vision, Objectives, and Collaborations: Created by the best and 
brightest of the TTU System, the Zumwalt Program envisioned that its 
efforts would result in a long-term and much- needed biological and 
chemical weapon and threat agent research program. Initially envisioned 
as a means for creating professional jobs for West Texans, this program 
is now positioned to significantly contribute to improving national 
security. In an effort to minimize start-up costs and maximize 
research, the Zumwalt Program is permanently housed at TIEHH where an 
Administrative Support Team has been continually utilized to ensure 
solutions were provided to the problems associated with biological and 
chemical threat agents. The initial prime objective of the Zumwalt 
Program was to develop and lead collaborative efforts with other 
academic institutions involved in countermeasures research. This 
objective was achieved. In fact, after three years, intercollegiate 
collaborations continue to be developed with other academic 
institutions which now include the University of South Florida's Center 
for Biological Defense, the University of Texas, Oklahoma State 
University, the University of Kansas, Texas A&M University, and the 
Johns Hopkins Applied Physics Laboratory. Evidence of these successful 
collaborations was displayed when Texas Tech hosted the 2003 Consortium 
of Biological Defense Research Meeting (CBDR) where more than 80 
scientists presented over 30 technical presentations concerning the 
detection, mitigation, and prevention of biological and chemical weapon 
and threat agents.

Specific Questions Addressed:

1.  What tools and systems is the Institute of Environmental and Human 
Health (TIEHH) working on to detect and respond to a bioterrorist 
attack? What organizations provide the funding to support this research 
and development? How are the resulting technologies transitioned to 
users?

    The Zumwalt Program continues its focus of coordinating and 
integrating all expert, multi-disciplinary intellectual and 
technological resources available to design, develop and field 
effective and efficient strategies, devices and therapeutics to combat 
biological and chemical weapons of terrorism or of mass destruction. 
The Zumwalt Program team at TTU is composed of more than 60 research 
scientists collaborating to meet our mission. The focus of our 
endeavors remains the leveraging of previous successes, advancement and 
continuity of our multi-disciplinary team to exploit all identified and 
novel opportunities to meet the Nation's biological and chemical threat 
countermeasures research and development needs as identified by the 
Institute of Medicine's National Research Council:

        <bullet>  Pre-incident communications and intelligence

        <bullet>  Personal protective equipment

        <bullet>  Detection and measurement of chemical and biological 
        agents

        <bullet>  Recognizing covert exposure

        <bullet>  Mass-casualty decontamination and triage procedures

        <bullet>  Availability, safety, and efficacy of drugs, vaccines 
        and other therapeutics

        <bullet>  Computer-related tools for training and operations

    Specific ongoing research efforts being conducted by scientists 
under the auspices of the Zumwalt Program to protect against and 
respond to potential bioterrorism incidents, are focused upon four 
areas, including: (1) The modeling, simulation and visualization of how 
biological threat agents may disperse through an environment following 
release. (2) Developing and refining technologies for agent detection, 
remediation and therapeutic intervention strategies. (3) Developing new 
and assessing existing technologies to create sensors and personal 
protective devices for biological and chemical threats. And (4), the 
design and development of technologies to protect buildings and the 
environment from biological and chemical weapons. During fiscal year 
2003, the outstanding team of research scientists working as part of 
the Zumwalt Program successfully completed research in these four focus 
areas, as detailed below:

Focus Area I: Modeling, Simulation and Visualization

<bullet>  Modeling and Simulation of Scavenging Degradation and 
Deposition of Chemical and Biological Contaminants in the Urban 
Environment--While most modeling and simulation projects have 
concentrated efforts upon determining and predicting the dispersive 
characteristics of chemical and biological agent plumes or clouds 
around buildings in an urban environment, this project seeks to 
understand the effects that vegetative canopy, scavenging contaminants, 
degradation of the chemical and biological agents as they interact with 
ambient radiation and urban pollutants or deposition and potential 
resuspension or re-evaporation of contaminants have on plume or cloud 
dispersion within the urban environment. Most currently-used models do 
not account for these post-release factors that are believed to 
profoundly affect the dispersion and concentration patterns, possibly 
leading to large errors in simulation accuracy. A primary focus of this 
program is to formulate and test boundary conditions that account for 
these post-release phenomena for codes that predict contaminant 
transport and dispersion. An understanding of the vegetative canopy 
flow is fundamental to improving the accuracy and ability to 
characterize urban dispersion patterns, including the street-level 
patterns. For this reason, investigators have gone to great lengths to 
study and understand data unique to vegetative canopies, including tree 
type, leaf size, and tree-stand arrangement. Models have been created 
that show particle movement and deflection around vegetative canopies 
and are proving to be very useful for estimating the risk that response 
teams may face when attempting to rescue casualties or entering and 
cleaning-up contaminated areas. Collaboration between TIEHH and the 
Atmospheric Sciences Group has lead to significant leveraging 
opportunities with the Governor of Texas Homeland Security Office and 
Division of Emergency Management of the Texas Department of Public 
Safety.

<bullet>  Modeling Airborne Transport of Hazards Using Advanced 
Atmospheric Monitoring Systems and Numerical Techniques--The objective 
of this project is to evaluate the capabilities and limitations of 
mesoscale (10-100 km range) atmospheric models for chemical and 
biological agent airborne transport prediction. It is critically 
important to understand how biological and chemical agents are 
physically dispersed and transported in the atmosphere. Accurate 
simulation or near real-time assessments of chemical and biological 
threats depend upon accurate interpretations and forecasting of 
atmospheric conditions. Work conducted during 2002 has allowed 
investigators to develop and deploy portable field meteorological data 
sensor and recording platforms. Optimizing and enhancing the 
meteorological data handling of current DOD models will allow for 
accurate simulations of potential scenarios in advance of chemical/
biological attacks, the determination of where and when specific 
populations or targets would be at risk given specific criteria, 
determination points of release and environmental conditions, and allow 
the tracing back of the trajectory of detected airborne agents in order 
to locate and neutralize its release point. These platforms were tested 
under severe weather events, included hurricane Lilli and tropical 
cyclones Fay and Isadore. The high-resolution atmospheric data gathered 
during these storm events can be used to better predict biological and 
chemical agent dispersion in the atmosphere. Additionally, significant 
leverage opportunities have resulted with the Texas Division of 
Emergency Management, as well as the testing of these capabilities 
during a training event held in the Houston Shipping Channel. Future 
leverage opportunities appear likely with atmospheric research groups 
in Oklahoma and New Mexico.

<bullet>  Determining Spread Pattern of Microbial Food Toxins in 
Agricultural Systems--Agriculture-related terrorism is a real and 
present threat to our country's food supply and economic stability. The 
primary objective of this project is to determine and follow the spread 
pattern of ricin/ricinine from the point of contamination on the soil 
surface to its ultimate detoxification/ degradation. Investigators have 
identified and characterized a ricin-contaminated test-site within an 
existing field. This field has been used to grow castor beans for many 
years and investigators have detected a significant ricin gradient 
within the soil. Innovative techniques have been developed and 
implemented to qualify and quantify ricin levels in the soil. Abiotic 
factors including soil types, mineralogy, pH, salinity, moisture as 
well as biotic factors, fungi and bacteria, are primary factors in the 
capacity of the soil to sequester or mitigate the ricin/ricinine. From 
data resulting from studies of spread patterns during 2001, 
investigators are focusing on determining or developing new ways to 
mitigate the spread of this dangerous toxin. Recent discoveries of 
direct links between the al-Qaida network and the Iraqi military, and 
plans to utilize ricin on the battlefield, heighten the need to find 
means to mitigate the toxin.

Focus Area II: Agent Detection, Remediation and Therapeutic 
                    Intervention Strategies

<bullet>  Cellular Transduction Mechanisms Involved in Latent 
Neurodegeneration of Motor And Cognitive Central Nervous System Sites--
Chemical warfare agents, particularly organophosphate-based agents and 
biological toxins pose a significant threat to both military and 
civilian personnel and have the potential to both acutely and 
chronically impact the human nervous system. Long term consequences 
associated with intermittent or continued exposure to these toxicants 
appear to arise from excessive levels of glutamate and activation of 
AMPA-preferring glutamate receptors. There is some evidence to suggest 
that syndromes such as the Gulf War Syndrome experienced by Desert 
Storm veterans is the latent result of chemical exposure. Broadly, 
there needs to be a scientific basis for understanding and preventing 
acute and delayed neuronal cell death. Specifically this study was 
initiated to determine whether AMPA-receptor-induced dark cell 
degeneration (DCD) in Purkinje neurons is associated with the 
translocation of Bax, cytochrome C release from the mitochondria and 
activation of representative initiator and executor caspases that 
include caspase-9, caspase-3, and caspase-7. Investigators have 
concluded that stress-activated kinases are instrumental in mediating 
AMPA-induced DCD, and allow for the assumption that AMPA-induced 
toxicity is pharmacologically ameliorated with MAP antagonists. 
Developing therapies to control cell death in a programmed manner may 
prove beneficial in mitigating long-term effects of exposure to various 
chemical agents.

<bullet>  The Isolation and Characterization of Combinatorial Peptides 
for the Detection and Neutralization of Bioagents--Isolation and 
characterization of high affinity peptide ligands is a useful and 
possibly a more economical means for detecting and neutralizing 
biological warfare agents. Using principles of combinatorial peptide 
chemistry along with affinity maturation of phage display peptides, 
this project will continue to investigate peptide ligands with high 
binding affinity for ricin, cholera, tetanus, and shiga toxins. During 
2002, investigators identified peptide display phages with binding 
affinity for ricin and cholera toxin. These discoveries were critical 
in gaining the ability to detect ricin and cholera toxins in very low 
concentrations. Additionally, a capillary bio-panning apparatus was 
developed that can be used for automated bio-panning of phage display 
libraries.

<bullet>  Microsystems for Detecting Liquid and Gaseous Hazards--
Fluorescent Spectroscopy is used to identify and quantify trace 
contaminants by looking for their characteristic optical 
``fingerprint.'' This spectrophotometric sensing approach is a 
cornerstone of analytical chemistry and increasingly finds applications 
for monitoring biological and chemical agents. This project is focused 
on the development of enabling technologies needed for next generation 
sensors and integrating optic spectroscopic techniques into a compact 
biological and chemical agent warning device. Investigators have 
fabricated a hybrid mini-fluorescence/absorption spectroscopy system, 
the materials for a UV light emitting diode, microfluidics, and an 
analysis and deconvolution system. Liquid core waveguide technology has 
also been used successfully to improve this project. The hybrid-
integrated mini-fluorescence/absorption system incorporates mostly 
small and discrete parts and is under computer control that uses a 
laptop for data output.

<bullet>  Combinative Toxicity of Biotoxin Mixtures--Biotoxins are 
naturally occurring toxic agents produced by bacteria, cyanobacteria, 
fungi and some species of plants or marine fish and are etiological 
agents for a variety of animal and human toxicoses. Several biotoxins 
such as aflatoxin, T-2 toxin, anatoxin, botulinum toxin, microcystins, 
ricin, saxitoxin, staphylococcal enterotoxin, and tetrodotoxin are 
known to be potential biological weapons. Synergistic and potentiation 
effects of biotoxin mixtures may enhance casualties and cause long-term 
effects in affected human populations. The objective of this study is 
to investigate the mechanisms of combinative toxic effects on animals 
and humans to facilitate the development of protective strategies 
against potential use of these mixtures as biological warfare threat 
agents or terrorist attack agents. Investigators tested the acute 
toxicity of four biotoxins, including aflatoxin B1, T-2 toxin, 
microcystin-LR and fumonisin, in rats and fish. The respective toxic 
index for these toxins was developed. Additionally, antibody-based 
immunoaffinity methods, enzyme-linked immunosorbent assays, and 
radioimmunoassay were established for measuring these biotoxins in the 
laboratory as well as for a small number of environmental samples. 
Investigators also optimized the experimental conditions, including 
parameters such as cell numbers, incubation times, substrate 
concentrations, and biotoxin solubilities. Significant leverage 
opportunities have already been demonstrated with cancer research 
centers in China. Future research collaborations include environmental 
research in Vietnam.

<bullet>  Counter-Terrorism Measures to Combat Yersinia pestis with 
Selenium Pharmaceuticals--The primary objective of this research is to 
produce selenium-labeled peptides and phage (bacterial viruses) that 
can selectively bind to the surface of pathogenic bacteria and 
inactivate them through the generation of superoxide radicals on their 
surface. Initial results have demonstrated that selenium could be 
covalently bonded to organic molecules and would continue to retain its 
ability to kill bacteria. Additionally, investigators identified 
specific peptide sequences for high specificity and affinity for 
Yersinia pestis. Some of these sequences have been synthesized and 
labeled with selenium display phages. Most importantly, investigators 
have demonstrated that using the selenium-labeled phage, bacteria can 
now be killed in 30 minutes, as opposed to 36 hours. Plans have been 
initiated with members of the DOD to test the in vivo efficacy of these 
phage on Y. pestis.

Focus Area III: Sensors and Personal Protective Devices

<bullet>  Development of Lightweight Nonwoven Protective Clothing for 
Chemical and Biological Warfare Protection--Non-woven substrates are a 
novel and promising approach for use in the development of protective 
clothing substrates because they are lightweight, breathable, and 
comfortable. The purpose of this project is to use state-of-the-art 
non-woven technology to produce fabrics capable of providing chemical 
protection. Researchers have produced non-woven substrates with high 
tensile strength and have incorporated an activated carbon layer that 
is thought to provide a significant amount of chemical absorbency. 
Additionally, the research team was able to use thermal bonding 
technology to incorporate chemical sensor prototypes into wall 
coverings. This project has generated substantial scientific, industry 
and media attention and has been featured in local and regional 
coverage. Results from this project has led to the filing of two 
patents and has significantly increased public and industry awareness 
for TIEHH, TTU, and TTU's Office of Technology Transfer and 
Intellectual Property.

<bullet>  Development of a Fluid-Based Fluorescent Bioaerosol 
Detector--The primary objective of this research is to meet the 
immediate need for an inexpensive, low power, robust trigger to alert 
inhabitants of an increase in biological aerosol activity, thereby 
allowing the triggering of more sophisticated systems to determine the 
identity and source of the pathogen. During 2002 this project resulted 
in the development and testing of a novel and inexpensive sensor device 
capable of detecting airborne biological agents. The first three months 
of the project were dedicated to defining the parameters for sample 
media such as liquids, aerosols, and solid surfaces. A considerable 
amount of time was spent in the design and testing phase, as well. The 
prototype instrument utilizes a recently developed and proven aflatoxin 
biosensor which utilizes a flashlamp and photomultiplier tube, coupled 
with miniaturized fluidics to repeatedly sense small amounts of 
fluorescence in a two-minute cycle and a high-flow, aerosol 
concentrator into a single integrated unit. Although there was some 
experimentation involved in the construction of the detection device, 
the final test results of the prototype bio-aerosol detector revealed 
the relationship between the bacterial agents and the intensity of the 
fluorescence emissions. This prototype device will be improved and 
refined in 2003 and tests in full-scale building models will be 
completed.

<bullet>  Development of Near Real-Time Sensors for Chemical Warfare 
Agents in Indoor Environments--The potential use of chemical weapon 
agents represents a growing global threat and has brought to focus the 
need for instrumentation that can rapidly detect these compounds at 
very low levels. The objective of this project is to develop an 
inexpensive, concealable sensor for monitoring the release of the 
chemical warfare agents Sarin and Soman in indoor and outdoor 
environments. Using liquid core waveguide technology and a molecular 
imprinted polymer designed specifically for recognition of chemical 
agents, investigators have built a chemical sensor capable of detecting 
chemical warfare simulants in near real-time. The proof of concept was 
successful and efforts in 2003 will seek to improve on limiters of 
detection and timing. Significant leveraging opportunities for this 
project exist, including the possibility for future collaborations with 
ITT Industries and the United States Air Force.

Focus Area IV: Building Protection Strategies

<bullet>  Modeling and Simulation of Chemical and Biological Fluid 
Dispersion within a Building Envelope--The Modeling and Simulation 
(M&S) project has developed an integrated computer model and simulation 
of the release of chemical and biological agents in urban terrain, 
including releases within an office building. Along with the ability to 
predict chemical and biological particle dispersion, these models 
provide predictions of the relative toxic effects on military and 
civilian personnel. These simulations should prove useful to the 
military for training operations designed to test response time for an 
offensive or terrorist use of chemical and biological weapons. 
Additional future leverage opportunities exist with both tactical and 
operational war-gaming and virtual battlefield technologies.
     Each of these research projects was very successful in meeting its 
planned objectives and milestones, as well as generating significant 
information and novel findings to enhance the knowledge base and 
approaches to countering biological and chemical weapons and threats. 
Measures of the successes of these research efforts by the Zumwalt 
Program include the issuance of one patent and two are pending with the 
U.S. Patent Office, more than 35 peer-reviewed publications are either 
in print or in press, and 60 professional scientific presentations have 
been presented in 13 states and five foreign countries as a direct 
result of this research program to date.
     Specific areas of research to be addressed by the Zumwalt Program 
researchers at Texas Tech during fiscal year 2004 will include:

Focus Area I: Modeling, Simulation and Visualization

<bullet>  Modeling the Transport of Aerosols in the Urban Environment: 
Real-time Updating of Dispersion Predictions Using Sensor Data--Near-
real time dispersion codes based on Gaussian Puff and Plume models are 
essential to the direction of responses to chemical, radiological and 
biological releases. Aerosol dispersion predictions are currently based 
on Second Order Integrated Puff (SCIPUFF) algorithms. One of the major 
sources of uncertainty in the predictions provided by such codes lies 
in source characterization. In many cases, it will be difficult or even 
impossible to directly assess the exact characteristics of a source 
during the critical early stages of a release, and further uncertainty 
results from the effects of source location (elevation, position 
relative to obstacles) on downstream transport. It is sought to develop 
techniques to integrate sensor data to improve dispersion predictions 
in real time during the evolution of a release event. It is anticipated 
that future generations of sensors will provide a spatial concentration 
field during the evolution of a release event. The proposed research 
will develop techniques to use this data to develop refined estimates 
of source characteristics and updated dispersion predictions. The 
reverse-diffusion problem is inherently ill-posed, eliminating the 
possibility of direct analytical solution. To address this problem, a 
neural net algorithm is to be developed to characterize the source from 
the evolving concentration field. The algorithm will then be applied to 
evaluate the effect of sensor deployment strategies on the accuracy of, 
and time taken to achieve, source characterization. The proposed 
research will be closely integrated with the development of the Texas 
Emergency Analysis and Response Program (TEARP) operations center. The 
dispersion modeling tools used in center operations will provide 
scenarios for use in the evaluation of sensor deployment strategies. 
The operations center will benefit by using scenario development for 
both the training of center personnel and the cooperative development 
of operational strategies with TIPC. The evaluation of sensor 
deployment strategies provides another opportunity for cooperation with 
the TEARP center and TIPC, both with regard to strategies for use in 
emergencies and in the design of permanent sensor arrays to protect key 
elements of the infrastructure of the State of Texas. As source 
characterization algorithms are developed, methodologies will be 
developed to implement the algorithms in conjunction with the Gaussian 
modeling codes used by TEARP. The algorithms may be tested in an 
operating environment, and, once successfully validated, implemented 
for use in emergency operations. Research currently funded enhances 
understanding of aerosol transport in the urban environment by 
characterizing the interaction between aerosols and vegetative 
canopies. While the vast majority of the research effort will be 
devoted to the research described above, an effort is to be made to 
pursue elements of the current investigation into the interaction 
between aerosol species and vegetative canopies to completion. A 
methodology is to be developed to introduce the local effects 
associated with vegetation into larger scale Gaussian dispersion 
models. Further investigation is needed to determine the residence of 
time of the entering streams within the canopy and the rate at which 
aerosols entering the canopy can be expected to deposit out on the 
surfaces of the canopy. These elements may then be combined with 
previously obtained results to formulate a sink/source term 
representing vegetation in Gaussian Puff models. An investigation into 
the effect of wind velocity on the aerodynamic drag force exerted on 
trees is also to be undertaken in order to establish a framework for 
adjusting canopy parameters in response to varying wind velocities.

<bullet>  Use of Prognostic Wind Fields and GIS-based Software for 
Surface-Layer Atmospheric Diffusion Computation--This project is a 
follow-up to the past three years of our work, which has focused on 
combining meteorological field platform development, mesoscale 
meteorological models and diffusion modeling technologies to 
investigate, develop, evaluate the accuracy and effectiveness of, and 
improve codes simulating the airborne dispersion of chemical/biological 
agents or other hazardous substances. Past results have indicated that 
nudging the meteorological models with surface-based data alone appears 
to have only a limited impact on mesoscale weather and dispersion 
forecasts: it appears that data from vertical profiles and probes of 
the atmosphere may be needed for true improvement of model 
prognostications through data assimilation. A model providing the best 
tools for evaluation of a dispersing airborne chemical/biological event 
must provide a balance between complexity, timeliness, and accuracy, 
and should be able to display results overlain with urban topography in 
a Geographic Information Systems (GIS) setting. The proposed project 
will strive to implement these needs, and will represent a partnership 
with Army Research Laboratory (ARL) scientists. The ARL has been tasked 
to develop a real-time operational system for short-term weather 
forecasting for chemical/biological-emergency response applications, 
and has sought out the expertise of this project's Principal 
Investigators to assist them towards this goal. This project will 
include the development of interactive software between the MM5 
meteorological model and the CATS-JACE GIS-based software, including 
the HPAC dispersion model, in order to display airborne dispersion 
calculations in a GIS environment. A microscale wind model will be 
developed or acquired, and will be interfaced with the aforementioned 
dispersion model to provide a fast but sufficiently accurate and 
detailed wind flow prediction in the event of an attack or accidental 
release. This project utilizes the field facilities of Texas Tech's 
Wind Science and Engineering Research Center and West Texas Mesonet, 
leveraged with other ongoing experiments supported by other agencies, 
to acquire high-resolution surface and upper air wind flow 
measurements. The MM5 meteorological model will then be ``nudged'' with 
these data to determine whether vertical (above-surface) meteorological 
information improves short-term local forecasting and dispersion 
calculations and provides a more accurate prediction of the 
consequences of a chemical/biological release. Finally, a new-
generation mesoscale model will begin to be tested to determine whether 
it can replicate MM5's ability to provide inputs to the HPAC dispersion 
model. This project will represent an improvement to models of weather 
and airborne dispersion, supporting the Army's need to rapidly and 
accurately adjust high-resolution meteorological and dispersion model 
forecasts to actual observations at a meso (10 to 100 km) scale, as 
related to the Integrated Meteorological Support System concept. The 
results of the proposed research will improve the ability not only of 
the armed forces but also civilian authorities and first responders to 
use locally-collected weather data to gain a tactical advantage, 
whether it be on the battlefield or in a civilian emergency.

Focus Area II: Agent Detection, Remediation and Therapeutic 
                    Intervention Strategies

<bullet>  Mechanistic Studies of Combinative Toxicity of Biotoxin 
Mixtures--The long-term goal of this research project is to investigate 
mechanisms of combinative toxic effects of biotoxin mixture(s) on 
animal and humans and develop prevention strategies against potential 
use of these mixture(s) as biological warfare threats (BWT) or 
terrorist attacks. Biotoxins are naturally-occurring toxic agents 
produced by bacterial, cyanobacteria, fungi, and some species of plants 
and marine fish, which have caused the tremendous economic loss 
worldwide and are etiological agents of a variety of animal and human 
toxicoses. Many biotoxins, such as aflatoxin, T-2 toxin, anatoxin, 
botulinum toxins, microcystins, ricin, saxitoxin, staphylococcal 
enterotoxins, and tetrodotoxins, are known to be weaponized or to be 
available for use as terrorist attack(s). For many years, our research 
efforts have been only focused on study of single toxin, and a great 
deal of data regarding individual toxins are well documented. However, 
little attention has been paid in study of combinative toxic effects of 
biotoxin mixture(s), which may be more potent and cause more damage to 
human and animal health. The great challenge currently faced in the 
field of anti-BWT is how to deal with the attack(s) of toxic biotoxin 
mixture(s). It is logical to raise the concern because a large quantity 
of single biotoxin is ready, available for use and our knowledge about 
the combinative toxicity of toxin mixture(s) is very limited. 
Therefore, there is an urgent need for understanding the mechanism of 
combinative toxicity of biotoxin mixture(s), developing rapid and 
sensitive methods to detect multiple biotoxins in the field and body 
fluids of animal and humans, and as a long-term shot, developing 
prevention strategies against possible use of these toxin mixtures. The 
general hypothesis for this FY04 research proposal is that the 
combinative toxic effects found in our studies with biotoxin mixtures 
may be molecularly controlled by the critical gene or gene products for 
metabolism and detoxification and modulate the process will, to a 
certain degree, reduce the damage and mortality caused by these toxin 
mixture(s). The specific aims in this project include: 1) to study 
molecular mechanisms of combinative acute toxic effects of biotoxin 
mixtures in rat and fish models. 2) To study molecular mechanisms of 
combinative cytotoxicity induced by biotoxin mixture in targeted human 
liver and lung cells. 3) To continue development and validation of 
rapid and sensitive monoclonal antibodies based method(s) for detecting 
multiple biotoxins exposures in animals and humans, and 4) To continue 
screening safe and nontoxic chemicals for detoxifying or antagonizing 
the combinative acute toxic or cytotoxic effects caused by these toxin 
mixtures. Biotoxins and their mixtures selected in the project 
represent most toxins of interest both in the field of anti-BWT and in 
the scientific community of public health. Through the completion of 
the proposed study, the mechanisms of combinative acute toxicity and 
cytotoxicity of selected mixture of biotoxins will be thoroughly 
explored. The rapid and sensitive method(s) for detecting multiple 
biotoxins in field and body fluids of animals and humans will be 
developed and validated. A series of chemicals possessing antagonistic 
effects against acute toxicity of biotoxin mixture(s) will be 
identified and studied. This proposal seeks the continuing support from 
RDECOM for FY 2004. The research project titled ``Combinative toxicity 
of biotoxin mixtures'' was funded by SBCCOM in FY 2001 (DAAD13-00-C-
0056), in FY 2002 (DAAD13-01-C-0053), and in FY 2003 (DAAD13-02-C-
0070). The proposed studies for the first two years have been completed 
and the annual report for each year has been delivered. The delivery 
arrangement for the FY 2003 will be fully met by the end of this 
funding year. A large database regarding toxicity and cytotoxicity of 
individual toxin, combination of two toxin mixtures, and combinations 
of three toxin mixtures in F344 rats, mosquitofish, human HepG2 and 
BEAS-2B cells has been set up based on our previous studies. Research 
proposed will be follow-on from previous research findings with the new 
specific aims and new methods.

<bullet>  Proteomics and Latent Neurodegeneration Triggered by Warfare 
Agents: Development of a Novel System for Comprehensive Assessment of 
Candidate Protein Mediators Using an Array Chip--The objective of this 
proposal is to utilize a protein array chip to develop a novel model 
system that permits a comprehensive and efficient qualitative 
assessment of candidate proteins involved in latent neurodegeneration 
triggered by radiological, biological and chemical warfare agents. The 
ultimate objective is to identify molecular substrates, define 
prominent transduction pathways and describe relevant cellular 
pathophysiology mediating latent neurodegeneration to be able to 
rationally develop therapeutic interventions that prevent catastrophic 
life-long neurological problems following exposure to non-lethal 
amounts of warfare agents by targeting proteins identified as major 
contributors to neuronal programmed cell death in selected brain 
regions. Retrospective epidemiological studies document higher 
incidences of neurodegenerative and other diseases in personnel from 
the Viet Nam conflict and Gulf War however potential causes and 
mechanisms are entirely unknown. Chronic neurodegenerative diseases 
have been mechanistically linked to excitotoxicity, a process that 
occurs when glutamate abusively activates various glutamate receptors 
including the AMPA and NMDA subtypes leading to a plethora of 
intracellular events that are capable of triggering multiple 
constitutive programmed cell death enzymatic cascades that remain 
poorly characterized. Moreover, particular cell death mechanisms are 
likely dependent on many concomitant factors including the physiologic 
context of the cell and the regional location in the brain. This year 
we propose to develop a model system using a protein array chip that 
directly identifies proteins that mediate the pathology of cellular 
neural degeneration. Protein array technology is a successor to gene 
micro-array technology and represents an innovative and new, ``state-
of-the-art'' approach that targets many relevant proteins at once and 
excludes irrelevant proteins by casting a wide net, allowing 
identification of potential players at the exclusion of others. 
Proteins are the molecular machinery (work horses) of the cell 
responsible for all physiologic and pathologic processes. 
Identification of relevant proteins by traditional methods is 
particularly problematic since the number of these proteins and 
enzymatic cascades associated with cell death is rapidly expanding 
making it impractical to singularly probe each candidate protein. 
Protein array methodology has the advantage over DNA genomic technology 
because it directly identifies complexes of proteins that work in 
molecular ensembles to carry out the pathophysiologic events. 
Furthermore, this technology translates to more efficient discovery of 
cellular processes, fostering rapid progression and development of 
rational therapeutic interventions for field applications. Our major 
goals/milestones for year 4 continue to be to define potential novel 
therapeutic approaches that target destructive enzymatic cascades to 
prevent radiological, chemical or biological warfare agent-induced 
excitatory neurodegeneration in exposed individuals. The overall intent 
of our research is to develop a model system to expedite discovery of 
various proteins that contribute to signal transduction pathways that 
are common final process responsible for neurotoxicity and 
neurodegeneration regardless of the nature or type of initiating 
insult. These studies will identify universal intracellular mediators 
of neurodegeneration and thereby identify relevant target proteins/
enzymes on which to focus development of prophylactic and therapeutic 
treatments to prevent latent neuropathology in individuals at risk from 
non-lethal exposures to neurotoxic warfare agents.

<bullet>  Fluorescence based detection of single spores--The goal of 
this project is to combine recent advances in ultraviolet light sources 
and results of experiments with gated fluorescence detection to prepare 
a microsystem capable of detection of a single spore. Under past 
funding from SBCCOM we have developed deep ultraviolet light emitting 
diodes operating at 280 nm that are an enabling component of new 
fluorescence-based spore detection systems. We have also developed the 
microfluidic components using sophisticated electronics needed to 
realize a practical detection system. The current implementation uses a 
chelation reaction of terbium with dipicolinic acid (DPA), a unique 
chemical component of spores, to provide an efficient and long-lived 
fluorescence signature specific to DPA. This detection method greatly 
reduces the problem of false positives. The fluorescence efficiency of 
Tb(DPA)3 is 10,000 times higher than that of native Tb(III). Our 
current system, based on gated photomultiplier detection, has a 
sensitivity limit equivalent to 10 spores. This already exceeds the 
best published results by more than a factor of 70. Higher power LED 
sources and improvements in the photodetection electronics will reduce 
the limit of detection to a single spore. The construction and testing 
of the new system requires an interdisciplinary team of scientists with 
expertise in Electrical Engineering, Chemistry, and Physics. Such a 
team, consisting of Profs. H. Temkin (Electrical Engineering), S. 
Dasgupta (Chemistry), S. Nikishin (Electrical Engineering), and M. 
Holtz (Physics), has been assembled and proven under the past SBCCOM 
funding. A simple, compact, and reliable spore detection system would 
be of great interest to a number of our partners in the Admiral Elmo R. 
Zumwalt, Jr. National Program for Countermeasures to Biological and 
Chemical Threats.

<bullet>  Development of Combinatorial Peptides for use in the 
Detection of and Countermeasures against BWAs--Many bioassays and 
biosensors depend upon antibodies as recognition reagents. While 
antibodies frequently have the desired sensitivity and selectivity, 
there can be problems with antibody reagents. In some cases, antibodies 
may be unobtainable due to the non-antigenic nature of the analyte or 
the target of interest and need to be analyzed in a sample matrix not 
compatible with antibody function. This later limitation can be 
especially important in environmental testing applications, where 
compounds must be extracted from soil or groundwater with organic 
solvents. Antibodies are also relatively expensive to produce in large 
quantities, are susceptible to a variety of environmental agents and 
conditions, have a relatively short shelf life and require 
refrigeration or freezing for storage and transport. Recent technology, 
however, can address these limitations and includes the use of peptides 
as reagents for sensors. Single -chain peptides are much more robust 
and have much longer shelf-lives than do more complex proteins such as 
antibodies. They do not require refrigeration for storage or transport, 
can be produced in very large quantities inexpensively and are more 
amenable to a variety of diagnostic and therapeutic formats than are 
antibodies. For these reasons high affinity, target-specific peptides 
offer an obvious advantage over the use of antibodies in the detection 
and/or neutralization of biowarfare agents (BWAs). A program is 
proposed to develop Phage-Display technology for the isolation and 
characterization of high affinity peptide ligands which can be used for 
the identification, simulation, and as countermeasures against of BWAs. 
For this study, and on the advice of RDECOM, we will target Y. pestis, 
vaccinia virus, B. anthracis spores botulinum toxin (BoNT) for 
identification and simulation and cholera toxin (CT) for countermeasure 
studies.

<bullet>  Counter Terrorism Measures to Combat Yersinia pestis and 
Cholera Toxin with Selenium Pharmaceuticals--Objective: During the last 
year a selenium-peptide was designed and synthesized that can kill over 
three log units of bacteria (99.9 percent) in 15 minutes and kill all 
of the bacteria in two hours. This seleno-peptide is specific for only 
bacteria that express the Yersinia pestis F1 antigen on their surface. 
Thus, the peptide has no effect on other bacteria. This represents the 
first of a new type of antibiotic that kills by a mechanism for which 
bacteria cannot develop resistance and that is specific for a single 
bacterial type. The objective for the next year is to complete the 
design of this new antibiotic by testing its half-life in vivo. The 
seleno-peptide will then be modified to extend its half-life and test 
it on the bacteria in living animals. In addition, we will extend this 
technology to develop a drug that will inactivate cholera toxin. This 
will utilize a peptide that was developed by Dr. Joe Fralick on a 
different SBCCOM project which targets and binds quite well to cholera 
toxin. Methods: 1. To determine and improve the half-lives of newly 
selected seleno-peptides and seleno-peptidomimetics in vivo. The 
peptides will be labeled with tritium and then injected into mice. 
Half-lives for the existence of the peptide in the blood will then be 
measured. The same peptides will also be synthesized with attached 
polyethylene glycol residues to improve their half-life in vivo. 2. To 
continue to synthesize peptides and peptidomimetic selenium containing 
compounds that were selected for increased binding to Yersinia pestis 
and increased stability in vivo. While testing for the half-life in 
vivo, additional seleno-peptides will be synthesized based upon 
molecular modeling studies for binding to the F1 protein. These 
peptides will then be tested by BiaCore binding studies for the ones, 
which bind best to the F1 protein. 3. To test for the ability of the 
seleno-peptide or seleno-phage to kill Y. pestis in vivo. The best 
candidates from the half-life studies will be tested for their ability 
to kill the Y. pestis bacteria in vivo. 4. A seleno-peptide that binds 
to cholera toxin will be synthesized and tested for its ability 
inactivate the cholera toxin. Significance: This research represents 
the design and synthesis of a new type of antibiotic that can target a 
specific bacterial species, and then kill that bacteria by a mechanism 
for which the bacteria cannot develop a resistance. In addition this 
same technology, which works extremely well on bacteria, will be 
extended to the design of a drug that can inactivate a toxin. Both of 
these new drugs have significance as medical countermeasures for the 
protection of combat personnel.

Focus Area III: Sensors and Personal Protective Devices

<bullet>  Liquid Crystal Technology Based Diagnostic Sensor for 
Detecting Nerve Agents--Threats of use of Chemical and Biological 
agents during peace time and warfare have drawn considerable attention. 
For purposes of countering such threats, it is necessary to detect a 
variety of synthetic organic chemicals at low concentration levels. 
Highly sensitive laboratory-based methods of detection (like Gas 
Chromatography and Liquid Chromatography) for specific chemical 
compounds do exist. However, these methods are not suited for 
measurement of personal exposure due to their size, weight and power 
requirements. Further, many of these techniques require demanding user 
input for obtaining reliable analytical results. Hence, it becomes 
imperative that we find an inexpensive, easily-constructed, low weight 
alternative that requires minimal user input for detecting presence of 
chemical warfare agents for the protection of personnel in danger of 
being exposed. To meet this challenge, several approaches have been 
designed. In the first approach, a pre-treated solid surface presents 
an array of immobilized chemical receptors that weakly bind LC 
molecules to orient it in a well-defined direction. Upon exposure, the 
receptors will selectively bind targeted analytes (driven by 
competitive H-binding ability) more strongly than they bind the 
molecules forming the LC. This will release the LC molecules. Since the 
surface will be pre-treated to define a nanometer-scale topography, the 
freed LC molecules will be forced to assume a predictable and visually 
distinct orientation in the absence of receptor-mediated-anchoring of 
the mesogen at the surface. In the second approach novel liquid 
crystalline molecules will be designed and synthesized that form LC 
phase through weakly bonding with each other. These molecules will be 
placed in an electric/magnetic field which orients the molecules in a 
well-defined direction. The target molecules, due to their competitive 
H-bonding ability, will release the LC molecules from each other. This 
will induce a visually-distinct phase in the liquid crystalline 
material. This release will also trigger a change in the applied 
electric field which in turn will be amplified and used for detection. 
In this approach, the LC molecules will double up as receptors for 
target analyte molecules. This approach will also allow the flexibility 
to tuning/designing target specific liquid crystalline molecules. The 
above will lead to the construction of a detection system that will be 
sufficiently simple to be easily incorporated into a sensor for 
personal monitoring. Such a sensor, with low power requirements and 
production cost will be of diagnostic utility for detecting nerve 
agents such as Tabun (GA) Sarin (GB) Soman (GD) or VX or their 
hydrolytic products.

<bullet>  Development of Highly Efficient Nonwoven Chemical 
Countermeasures Substrates--The overall goal of the project is develop 
nonwoven based chemical countermeasures protective substrates that are 
multi-functional and highly efficient. Immediate objectives are: 1) to 
develop ``next-to-skin'' friendly adsorbent chemical decontamination 
wipes and liners for chemical protective suits and 2) to develop highly 
efficient and multi-functional destructive adsorbent nanofiber webs. 
The proposed project will utilize the ``state-of-the-art'' H1 needle-
punching non-woven technology to develop a multi-layer adsorbent 
substrate. In addition, a through-air thermal bonding technology will 
be effectively utilized to develop base substrates with enhanced 
strength and smoothness. The combined use of the needle-punching and 
the thermal bonding technologies will result in non-woven base 
substrates that have improved mechanical and surface properties. The 
project will also focus on a new and unexplored territory to develop 
destructive adsorbent nanofiber webs. These specialized nanowebs will 
have catalytic degradation action against certain chemical warfare 
agents and also adsorbency. This multi-functional web will 
significantly enhance the overall protection and filtration 
efficiencies of chemical protective substrates. The RDECOM funded 
chemical protective non-wovens research at TTU has been extremely 
successful in delivering products on time. A three-layered non-woven 
chemical protective substrate has been developed. The chemical 
protective non-woven composite substrates were evaluated for their 
protection and adsorption characteristics at the U.S. Army Natick 
Soldier Center. Results have been very successful and have shown that 
the non-woven composites are good enough to serve as lining materials 
for JS-LIST chemical protective suits. Overall, the project has 
tremendous pay-back potential to the U.S. DOD and the society by 
developing new technologies that enhance the protection efficiencies of 
currently available chemical countermeasures substrates. The continued 
support of the RDECOM will help to sustain graduate students to 
continue their research activities resulting in their intellectual 
growth and development.

<bullet>  Development of a Field-Deployable, Remotely-Monitored, Area-
Wide, Biological Pathogen Detection System--Zoonoses, or diseases of 
wild and domestic animals that can cross over into humans, have shaped 
history and influenced mankind's social and cultural behaviors. Many of 
these naturally-occurring zoonotic pathogens are known to have been 
weaponized and are classified as potential biological terrorism threat 
agents. Diseases such as hantavirus, plague (Yersinia pestis) and 
tularemia (Francisella tularensis) exist and are maintained in wild 
rodent and arthropod hosts throughout most of the western United 
States. These enzootic foci of disease are most often unknown until a 
human case of disease occurs and field surveillance operations are 
conducted. Current technologies to identify the reservoirs or vectors 
of these disease agents involve capture of wild rodents, collection of 
blood or tissue specimens from the animals, and serological assay, 
culture growth or polymerase chain reaction methods. These processes 
and techniques are extremely labor-intensive, expensive and require 
from days to weeks for definitive results to be obtained. The primary 
objective of this project is to develop a remotely monitored, near-real 
time, highly accurate biological agent detection system that can be 
easily deployed into any environment to detect and report the presence 
of disease pathogens and infection in a suspect rodent population. The 
initial step to acquiring our objective will be to develop a 
molecularly imprinted polymer (MIP) or liquid crystal (LC) absorbence 
sensor that is sensitive to Yersinia pseudotuberculosis (a pathogenic 
species in rodents very similar to Y. pestis). The MIP/LC sensing 
element will then be integrated into a rodent bait matrix and offered 
to a rodent known to harbor Y. pseudotuberculosis. The fluorescence 
response signal of the MIP or absorbency response of the LC will be 
monitored, measured and transmitted to a remote event recorder. 
Successful development and follow-on enhancement of this biological 
pathogen detection system will significantly improve public health, 
preventive medicine and Homeland security response capabilities in the 
civilian and military environments.

Focus Area IV: Environmental Protection Strategies

<bullet>  Generation and analysis of dust particles potentially 
containing plant toxins and bacterial spores--The objective of this 
proposal is to identify the relationships between soil materials and 
the generation of dust particles that contain plant toxins and 
bacterial spores. Inoculation of soil with a toxic agent would be a 
simple mechanism to contaminate large military reservations through the 
dust raised by wind action. The plant-toxin, ricin, and peanut lectin, 
a non-toxic surrogate for ricin, will be evaluated. The spores of the 
bacteria Bacillus cereus, a surrogate for Bacillus anthracis, will 
initially be evaluated. Characterization of ricin sorption to and 
desorption from natural and anthropogenic materials has been achieved 
by our team. Also, the sorption of both ricin and Bacillus cereus 
spores on raw fruits and vegetables has been examined. The potential 
detachment of dusts containing these toxins or spores has not been 
evaluated. A local USDA-ARS research facility that examines wind 
erosion has developed a laboratory apparatus to generate dust particles 
from soil samples. This technology will be utilized in this research 
project. A series of experiments to quantify the amount and fraction of 
dust particles that contain toxins and bacterial spores is to be 
conducted. Soils are unique materials that are heterogeneous and vary 
both spatially and temporally. Soils with the same soil texture can 
exhibit radical differences in dust loss depending on whether the soil 
is wet or dry. Temperature might also have an effect on dust 
production. This will be the first year of a multi-year proposal. The 
relationship between soil properties, dust generation, and wind 
transport of toxins and spores is complex and cannot be easily or 
rapidly evaluated.

Leveraging of Successes

    Specific examples of ongoing efforts to leverage the successes and 
expand the momentum of the Zumwalt Program into additional research 
areas to address highly vulnerable human health protection and economic 
stability include: (1) Coordinating the development and establishment 
of a multi-disciplinary project with the Director of Homeland Security 
for Texas to provide near real-time surveillance, monitoring and 
predictive modeling of disasters or biological and chemical incidents. 
(2) Developing and coordinating a multi-disciplinary project to provide 
near real-time surveillance of livestock and field crops for disease 
indicators to combat agricultural terrorism. (3) Exploiting the 
successful completion of research and development of a near real-time 
biological aerosol detector device. (4) Conducted preliminary studies 
and analysis for the development of multi-discipline, multi-agency 
projects to quantify and characterize zoonotic diseases classified as 
potential biological weapon agents occurring in Texas. New research 
initiatives being pursued as a result of the capabilities, expertise 
and successes of the Zumwalt Program team include:

        <bullet>  Enhanced sensitivity and specificity of biological 
        and chemical agent sensors.

        <bullet>  Emergency operations support through total visibility 
        and modeling of biological and chemical threats in the 
        environment.

        <bullet>  Active surveillance and monitoring of pre- and post-
        harvest agricultural production systems.

        <bullet>  Non-woven fabrics technology for protection against 
        and detection of biological and chemical threat agents.

        <bullet>  Adaptation of biological and chemical agent sensor 
        technologies to more directly support homeland security needs.

        <bullet>  Development of integrated medical system/health care 
        surge capacity models to assess biological and chemical 
        terrorism incident response capabilities.

        <bullet>  Expansion of non-wovens materials technology research 
        to improve health and safety of military forces, as well as 
        emergency first responders in diverse environments.

        <bullet>  Design and development of novel approaches to 
        military medical force protection.

        <bullet>  Development of biological and chemical environmental 
        threat recognition, prediction and mitigation technologies.

        <bullet>  Dynamics of zoonotic pathogens and their potential 
        use as biological terror agents.

2.  How does TIEHH work with first responders and State and local 
government organizations to understand their needs for the technologies 
being developed at TIEHH? How do you work with them on education, 
training, and outreach?

    Through the scientific expertise and state-of-the-art technologies 
available through the collaborations among the Zumwalt Program team 
members and through leveraging of our successes, an operational 
capability to augment and supplement emergency response assets in the 
State of Texas was created. This capability, the Texas Emergency 
Analysis and Response Program (TEARP), integrates scientific and 
technical expertise with state-of-the-art computing, communications, 
information systems, and visualization technologies to create an 
immediately responsive and highly accurate operational capability to 
save the lives and protect the property of Texans during accidental or 
intentional incidents involving biological, chemical and radiological 
threat agents.
    The TEARP at Texas Tech University is composed of four primary 
components: (1) A continuous Operations Center which coordinates the 
gathering and initial assessments of ``raw'' information, disseminates 
analyzed information, and maintains communications with supported 
agencies and services. (2) The Center for Dispersive Processes which 
utilizes data received from numerous sources to develop predictive 
plume/cloud/threat dispersion models. (3) Wind Science and Engineering, 
which utilizes meteorological and other weather information resources 
to evaluate and predict atmospheric influences at an incident site. (4) 
Biological and Chemical Threat Assessment, which collects and analyzes 
epidemiological, epizoological and toxicological data to develop 
predictive models of biological pathogen threats, chemical hazards and 
their dispersion. This operational platform will provide Texas law 
enforcement and emergency response leadership, as well as on-site 
personnel, the information technologies and capabilities needed to 
dramatically improve their abilities to safely, effectively and 
efficiently respond to emergency situations. We are a multi-
disciplinary team combining scientific and technical expertise, as well 
as operational experts with an understanding of emergency incident 
response and support operations. This operational understanding coupled 
with highly accurate weather and hazardous dispersion prediction 
technologies will provide on-site emergency responders with what is 
needed to help save lives and property.
    The TEARP will provide a wide variety of technical and relevant 
information and consultation to on-site authorities and the Governor's 
emergency response team through the development and interpretation of 
predictive models of hazard (plume/cloud) movement in the environment 
for 1, 2, 3, 6, 12, 24, 48 and 72 hours in the future, thereby ensuring 
highly accurate, near-real time situational awareness for the Texas SOC 
and on-site first responders. TEARP utilizes all available U.S. 
National Weather Service observations, near-real time satellite 
imagery, and forecast information combined with sophisticated high 
speed computing capabilities (SGI Super Computer) to provide weather 
forecasts covering Texas at resolutions ranging from 1-15 km. 
Additionally, the TEARP can deploy mobile platforms called Vehicular 
Instrumentation Platform for Emergency Response (VIPER) systems 
outfitted with biological, chemical, meteorological, and radiological 
sensors into hazardous areas and environments, to relay near-real time 
data to decision-makers. The TEARP will maintain a full remote 
computational backup and satellite distribution network for its 
products and results to ensure uninterrupted service. Finally, the 
superior technologies and operational and scientific expertise brought 
together by the TEARP will make available unprecedented resources to 
provide training to emergency responders, as well as local and state 
elected officials, in all aspects of biological, chemical and 
radiological incident response activities.
Operational Capabilities:

        <bullet>  Deliver rapid, accurate data and predictions to 
        government officials, emergency responders, and emergency/
        incident site commanders; information to make insightful and 
        knowledgeable decisions.

        <bullet>  Provide real-time dissemination of analysis results 
        through secure communications to prepare for and mitigate an 
        emergent event.

        <bullet>  Continuously deliver accurate, high-resolution, 
        timely weather predictions covering the entire state of Texas.

        <bullet>  Provide state-of-the-art dispersion predictions of 
        pollutants, biological and chemical agents as a result of 
        adverse atmospheric conditions, industrial and transportation 
        accidents, and terrorism-related incidents.

        <bullet>  Provide mobile platforms called Vehicular 
        Instrumentation Platform for Emergency Response (VIPER) systems 
        for deploying biological, chemical, meteorological, and 
        radiological sensors into hazardous areas and environments, to 
        relay near-real time data to decision-makers.

        <bullet>  Ensure dispersion and weather predictions are 
        visualized using leading edge technologies.

        <bullet>  Provide support for local and state emergency 
        response training exercises.

        <bullet>  Provide technical support on the latest in 
        meteorological and particle dispersion modeling and simulation 
        capabilities. Modeling results (complemented with insights and 
        analysis from subject matter experts in biological, chemical, 
        and radiological materials and their relationship to 
        environmental toxicology and epidemiology) will be utilized 
        before, during and after all operational events. These highly 
        accurate assessments will be communicated in user-friendly 
        language to enable use by all facets of governmental 
        infrastructure.

        <bullet>  Maintain a full remote computational backup and 
        satellite distribution network for its products and results to 
        ensure uninterrupted service.

3.  How can the Federal Government, particularly the Department of 
Homeland Security, improve its efforts to help communities be better 
prepared for a bioterrorist attack? Are there specific areas that 
demand increased attention?

    The following areas require increased attention from the Department 
of Homeland Security to ensure the American people are protected from 
the threat of bioterrorism:

        1.  An increased research focus on the development of more 
        rapid biological pathogen recognition and identification 
        capabilities for use in both active and passive surveillance 
        systems, particularly in areas of high population density.

        2.  The creation of regionally-focused research laboratories to 
        assess and develop technologies to address the growing threat 
        of emerging and resurging pathogens that may also have the 
        potential for use as biological terror agents, particularly 
        those pathogens specific to or enzootic in geographic regions.

        3.  An increased focus on the establishment of training and 
        education facilities to provide the most up-to-date information 
        and technologies to emergency responders, their leadership, as 
        well as elected officials, on the preventive and response 
        procedures for biological weapon agents.

                    Biography for Ronald J. Kendall

        <bullet>  Founder and Director of The Institute of 
        Environmental and Human Health (TIEHH) at Texas Tech University 
        (1997-Present); Founding Chair and Professor, Department of 
        Environmental Toxicology, Texas Tech University (Institute 
        Faculty, Adjunct Faculty, Staff, Graduate Students--130; 
        150,000 square feet Physical Plant and multi-million dollar 
        annual budget)

        <bullet>  Founder and Director of The Institute of Wildlife and 
        Environmental Toxicology (TIWET) at Clemson University (1989-
        1997)

        <bullet>  Founding Department Head (1989-1995) and Professor 
        (1989-1997) in the Department of Environmental Toxicology at 
        Clemson University

        <bullet>  Founding Director, Institute of Wildlife Toxicology, 
        and Professor of Environmental Toxicology, Huxley College of 
        Environmental Studies, Western Washington University (1980-
        1989)

        <bullet>  Past-President of the Society of Environmental 
        Toxicology and Chemistry (SETAC), and has served on its Board 
        of Directors and Executive Committee, as well as being Vice 
        President, on the SETAC Foundation for Environmental Education 
        Board of Directors, and was the Annual Review Editor and 
        currently Terrestrial Toxicology Editor of the journal, 
        Environmental Toxicology and Chemistry

        <bullet>  Authored more than one hundred refereed journal and 
        technical articles, and published or edited several books 
        including, Toxic Substances in the Environment, Wildlife 
        Toxicology, Wildlife Toxicology and Population Modeling: 
        Integrated Studies of Agroecosystems and Principles and 
        Processes for Evaluating Endocrine Disruption in Wildlife

        <bullet>  Made more than 170 public and scientific 
        presentations in the field of wildlife and environmental 
        toxicology

        <bullet>  As Principal Investigator have received 136 research 
        grants totaling more than 42 million dollars

        <bullet>  Graduated thirty students at the graduate level, 
        including M.S. and Ph.D. degrees

        <bullet>  Authored ten courses in environmental toxicology and 
        wildlife toxicology

        <bullet>  ``Award of Appreciation'' from United States 
        Environmental Protection Agency for service related to 
        Chairmanship of the EPA Scientific Advisory Panel for 
        implementation of the Federal Insecticide, Fungicide and 
        Rodenticide Act and the Food Quality Protection Act of 1996, 
        January 2004.

        <bullet>  Received an Outstanding Researcher Award, College of 
        Arts & Sciences, Texas Tech University, 2003.

        <bullet>  Received the 1996 Alumni Research Award for 
        outstanding faculty research at Clemson University

        <bullet>  Received the 1987 Paul J. and Ruth Olscamp Research 
        Award, from Western Washington State University

        <bullet>  In 1996, addressed the United Nations Committee on 
        Sustainable Development, United Nations, New York

        <bullet>  Awarded a Fulbright Fellowship in 1991

        <bullet>  Served as an environmental advisor to the United 
        States Justice Department, Environmental Enforcement Section

        <bullet>  National Board/Committee Appointments (representative 
        past and present)

        <bullet>  National Research Council Committee on Superfund Site 
        Assessment and Remediation in the Coeur d'Alene River Basin 
        (November 2003 to present)

        <bullet>  United States Environmental Protection Agency's, 
        Science Advisory Panel (Member, 1995-December 2002; Chair 
        January, 1999-December 2002)

        <bullet>  United States Environmental Protection Agency's, 
        Joint SAB/SAP Review on ``Data from Testing of Human Subjects'' 
        served as Chairman (1998-2000)

        <bullet>  United States Environmental Protection Agency's, 
        Science Advisory Board, Mercury Review Subcommittee (1997)

        <bullet>  The National Academy of Sciences', Ecological Risk 
        Assessment Subcommittee, Committee on Risk Assessment 
        Methodologies (1990-1991)

        <bullet>  The Endocrine Disruptors Screening and Testing 
        Advisory Committee (EDSTAC) of the USEPA (1996-1998)

        <bullet>  Board of Research Directors of the Canadian Network 
        of Toxicology Centers for the Canadian Government (1993-1999)

        <bullet>  Consulted with many foreign countries on 
        environmental issues (e.g., Russia, Costa Rica, Canada, the 
        Netherlands, France, United Kingdom, Portugal, Switzerland)

        <bullet>  Graduated with honors from the University of South 
        Carolina, received M.S. degree in Wildlife Ecology from Clemson 
        University, Ph.D. in Fisheries and Wildlife Sciences/Toxicology 
        from Virginia Polytechnic Institute and State University, and 
        received a United States Environmental Protection Agency post-
        doctoral traineeship at the Massachusetts Institute of 
        Technology
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                               Discussion

    Mr. Neugebauer. Thank you, Dr. Kendall, and I'm going to 
yield to my friend from Kansas, Mr. Moore, for the first 
questions.
    Mr. Moore. I'd like to direct my first questions to Mr. 
Schable and also to Sam Turner, Mr. Turner. And the question is 
that the President has set a goal of assuming, I'm sorry, 
assuring that most Americans have electronic health records 
within the next 10 years. This would seem to impact detection 
and monitoring, analysis and interpretation, as well as 
knowledge management.
    My question to you is what do we need to do to meet the 
President's goal of assuring that--and is this something that 
we should do, that most Americans have electronic health 
records in the next 10 years? What do we need to do to make 
that happen?
    Mr. Schable, first, if you would, please?
    Mr. Schable. Electronic medical reporting and medical 
records would be a useful tool in monitoring events, get 
knowledge of something that might be happening on a local 
level, but to also see over a long period of time what the 
baselines are for particular events. That is like we track 
influenza over long periods of time. We know when a peak 
occurs, something has occurred, when the peaks for influenza 
should be or they shouldn't be. How exactly to handle that is a 
little out of my expertise. I would defer to the person from--
Mr. Turner, from the hospital system to answer that a little 
more at the local level.
    Mr. Moore. Very good.
    Mr. Turner. We're currently in the process of implementing 
electronic medical records here at the hospital and we think 
we'll have it done within the next 14 months, the first phase 
of it, which will go a long ways toward being able to really 
take care of our patients adequately and it certainly will 
increase the medication, reduction of medication errors, safety 
of patients in the hospital. I think that any time you can have 
that much information readily available to parties that need 
the information, it will certainly increase, not only our 
ability in-house, but as well as community-wide and nationwide 
to get demographics out, disease categories information that 
needs to be done to really address some of the issues that 
we're talking about today.
    The problem is that it's millions of dollars for each 
hospital to implement it. And you don't get reimbursed for 
that. So the ability for all hospitals to be able to implement 
this mandate is problematic. It really is, and I think that 10 
years, certainly for some hospitals is realistic, but for most 
hospitals without funding, it's impossible.
    Mr. Moore. Thank you, Mr. Turner. I guess I'd ask the same 
question to Mr. Morrissey with the Kansas Department of Health 
and also Ms. Kent, if you have comments on that, and any other 
witness, frankly, if you have comments on that, let me hear 
from you.
    Mr. Morrissey. Congressman Moore, I think Mr. Turner's 
focus on the potential benefits with patient safety and drug 
interaction, whole range of things, have been an issue that the 
whole industry has focused on for some time and clearly would 
benefit from that. We've talked and you've heard several of us 
talk about early detection systems and the potential for new 
technology and common patient medical records to enhance those 
and I think there's no question that going that direction makes 
sense from the technological standpoint.
    Probably the concern I would raise is that Kansas is also a 
rural state with many very small hospitals. We have a large 
number, in fact, the largest in the country of critical access 
hospitals and I'm not sure that the priorities statewide are 
going to be as focused on that kind of technological change as 
they are on for us walking before we run and having on the 
ground communication and basic surveillance capability to 
respond.
    So I think it's both. We have an urban situation and 
capacity to deal with. We also have a very rural situation and 
it's going to require addressing both, both directions.
    Mr. Moore. Ms. Kent, do you have any comments?
    Ms. Kent. During our disease outbreak, when CDC came and we 
were trying to get a handle quickly on what the extent of the 
outbreak was, we wanted to look at physician records, 
electronic records and so we called all of our physician groups 
in the community and were truly handicapped by the fact that I 
think we only had two medical practices that had electronic 
records. And so we were not able to get a handle on that as 
quickly as we could have, had we had electronic records to be 
able to access. So I think that it has tremendous potential in 
terms of when you have disease outbreaks, but I do think in a 
state as rural as Kansas, it's going to be very difficult to 
achieve.
    Mr. Moore. Mr. Mason or Dr. Kendall, any comments?
    Mr. Mason. Well, as I mentioned in my testimony, we use an 
electronic medical record system. We basically implemented it 
about a year ago and spent probably about a half a million 
dollars of our funds of capital improvements to implement the 
project. So yes, it's costly. I can only imagine what it would 
be like to implement it in a hospital.
    I think an important part is we're looking to the future to 
have electronic medical records to surveil, but let's don't 
forget those that we already have in place. As an example, the 
MAST system of Kansas City is implementing an electronic 
medical record system. And if you combined our EMSystem and 
MAST EMSystem, you're looking at probably about three-fourths 
of the metro area's emergency medical response system through 
hospital. You could data mine an awful lot of this medical 
surveillance from that. While we need to look at future 
implementation, let's look at leveraging what we have in place 
right now as well.
    Dr. Kendall. I'd like to make a comment, Congressman Moore.
    Mr. Moore. Yes.
    Dr. Kendall. In Lubbock, Texas, we're blessed with multiple 
hospitals and a medical school at Texas Tech. Just this past 
year, the flu epidemic alone saturated our beds to the point 
where if we had had an additional problem like a biological 
attack, we would have been at capacity already. Therefore, the 
concept of the best medical records possible as applied to 
individual patient care could do much more for us to identify 
how serious a level of potential an individual patient may be 
of succumbing to a disease threat and so on.
    And also, I want to comment that once we have people 
entering the hospital, we are way down the road on a biological 
or chemical event. In other words, can we do a better job at 
providing the platforms necessary to provide real time 
information to assist our first responders in reducing 
exposures or getting people out of toxic or hazardous zones. I 
think that's going to be one of the great challenges because 
already, this minute, the fine people that are running our 
hospitals are already in near capacity, in order to make their 
budgets work as well as provide the kind of comprehensive care 
necessary in today's health care needs.
    Thank you.
    Mr. Moore. Thank you, Dr. Kendall.
    Mr. Morrissey, about a third--and I'll direct this really 
to anybody on the panel who thinks they have something to 
contribute here, because a lot of these transcend your 
individual testimony, I think, and apply to Kansas and 
Missouri.
    A third of the population of Kansas lives near Missouri in 
this northeast section of Kansas and I guess my question to you 
is how are we coming along in coordinating efforts to protect 
the population of Kansas and Missouri with the State of 
Missouri?
    Is there coordination efforts going on there, Mr. 
Morrissey?
    Mr. Morrissey. Congressman, there is ongoing communication 
between the two state programs and the two state health 
departments and in fact, in this federal region, the four 
bioterrorism programs have a meeting scheduled, really, the 
first one to get all of the staffs together and to begin that 
discussion.
    Mr. Moore. When does that happen? Do you recall?
    Mr. Morrissey. It's in June. I'll have to get you that 
exact date. I think that's an area where we recognize there's 
significant need. The metropolitan area really has been the 
focus of the metropolitan medical response system with first a 
program that was funded through Kansas City, Missouri and 
covered the Kansas side and now one as well in the Wyandotte 
County area. And so a good deal of that coordination has 
occurred locally through those mechanisms and through the focus 
of MARC and their regional partnership.
    Mr. Moore. Anybody else want to comment on this?
    Ms. Kent. I would just say that I think we're beginning, 
counties that are a little further removed from the 
metropolitan area, but would be impacted such as Douglas 
County, beginning to have closer relationships with the Kansas 
counties that are part of the metropolitan area, but I think 
there's still a lot of work that needs to be done in that area.
    Mr. Moore. Mr. Schable, and this is not intended as a 
criticism of anybody, this is simply an acknowledgement, I 
think, that we had a horrible event here in September 2001 and 
we've got a huge challenge to try to prepare our nation to 
respond to something in the future similar to make sure 
something like that doesn't happen to the extent that we can.
    My question, I guess, is if you can answer this or any 
other panel member can answer this, with regard to the 
Department of Homeland Security, how are efforts to coordinate 
among the 50 States and I just--I think this is the first time 
I've heard about this regional meeting that's coming up in 
June, maybe. And I'm glad to hear that because my concern is I 
don't know what's really being done by the Department of 
Homeland Security to coordinate efforts with the 50 States and 
my feeling is, and maybe this is correct, maybe it's not, that 
the Department of Homeland Security and the federal agencies 
would have a lot more background and experience in dealing with 
bioterrorism than some of the states would.
    Is there an effort to try to coordinate the information 
that they could use, the 50 States, to protect themselves and 
our citizens or is each state kind of just left on its own to 
develop their protection as best they can?
    Mr. Schable. Well, the Department of Homeland Security, of 
course, is a new federal department that is still organizing 
itself, but I assure you, Congressman, that the Department of 
Health and Human Services is actively working with the 
Department of Homeland Security on these bioterrorism efforts. 
Many of the people that I know that are now in the Department 
of Homeland Security are long-time public health people that I 
personally know and have a lot of experience with and then we 
do try to coordinate what we are doing.
    The Department of Homeland Security has some very specific 
mission for the Nation's defense against terrorism and CDC 
knows what it needs to do and we do try to coordinate.
    Could we coordinate better? Certainly, sir. And we are 
making every effort to try to do that. As I said, I know almost 
everyone in DHS that deals with terrorism and we constantly are 
trying to make sure that the right hand and the left do know 
what they're doing. Do they always know what they're doing? No, 
sir, but we're trying very hard to make sure they do know what 
they're doing.
    I am firmly convinced that if an event occurs, it will be 
at the local level and those people are the ones that are going 
to have to respond first. When something happens, they're not 
going to call me first. These people are going to be responding 
and we are going to be right behind them helping them respond.
    Mr. Moore. Thank you, Mr. Schable. I do want to again state 
this is not intended as a criticism of anybody. We're kind of 
all struggling through this together and I appreciate the 
efforts that are being made on the national level and I just 
want to make sure that the states, each of the states has the 
same opportunity and experience and information level that the 
Federal Government has.
    Does anybody else have a comment on that?
    Mr. Chairman, I've got some other questions, but I 
certainly would like to yield back to you.
    Mr. Neugebauer. Sure, we'll bounce back and forth here.
    Dr. Kendall, one of the things that is certainly an 
important part of our efforts on biological attack is 
detection. And then once we've detected, determining how broad 
that threat is and to disseminate that information, obviously, 
to our first responders and our health officials.
    Could you kind of go into a little bit of detail of the 
TEARP and the VIPER program that you all have developed at the 
Institute and how that fits into the detection scenario?
    Dr. Kendall. Yes, sir, I will. Through the Governor's 
office there is a strategic plan to deal with homeland security 
in the State of Texas, including biological and chemical 
terrorism countermeasures. Included in that are operational 
centers that are located throughout the state that employ 
largely our Department of Public Safety, but in our case, there 
are discussions to engage research and knowledge-base 
information that can be transferred to our first responders.
    What I mean there, as I mentioned earlier, the Department 
of Defense has funded us for a number of years to develop 
information for military readiness, yet it was highly 
transferrable to domestic security. And in that concept, we 
developed the TEARP, the Texas Emergency and Analysis Response 
Program which involves our high performance computing systems, 
virtual reality center and multi-disciplinary expertise to 
engage questions of how would one look at a hazardous waste--I 
mean a hazardous substance or toxic cloud or release into our 
water systems, etc., and work through that question through 
virtual reality simulation as we could then assist in 
identifying the threat level and the dispersion zone and at 
what point and what level of protection would be needed to 
enter those zones. That's going to require a lot of expertise 
and quick response. Not hours, minutes. Okay?
    In addition to that, one of the areas that we have worked 
with and I wanted to emphasize cooperation is the key. Multi-
disciplinary cooperation among our federal agencies, our states 
and then down to our regions and communities.
    One of the areas that we've worked with with our wind 
engineering research team, a world-renown group at Texas Tech, 
is the VIPER platform, is the Vehicular Instrumentation 
Platform for Emergency Response. Basically, this is a system 
that we can deploy either with human operated capability or in 
the future robotics that can engage toxic zones to provide us 
with critical weather information, wind information, humidity, 
barometric pressure as well as deploy our sensors to determine 
what substances at what concentrations and the dispersion zone.
    This information can be transferred immediately in real 
time via wireless internet as well as cell phone technology 
back to the operations center so the high performance computer 
can model the event and determine dispersion characteristics 
and how widespread the toxic zone will be. Those are some of 
the things we are doing within the State of Texas and this will 
be provided--this kind of data will be provided immediately to 
our first responders. We provide demonstrations to leaders in 
our community and the state level, including the Office of 
Homeland Security leadership in the state. And I think it's a 
model that could have applications in other regions, including 
this region.
    Mr. Neugebauer. I think I can speak for Dr. Kendall, I 
think he would invite you to come and see the capability that 
they have developed there for helping our first responders in 
other agencies to begin to model a particular event and I think 
it's important that we share the information that we're 
gleaning from the research money that we're spending because 
there's not an endless supply of that money available and so I 
think--Mr. Schable there is nodding his head, yes. And so I 
think it's important that we do that. So I would encourage you 
to do that.
    One of the things we talked about and we focused this 
morning a little bit is about the attack on our direct--attack 
on our citizens in an event of something like that, but what we 
really haven't talked about in some of the opening testimony 
was attacks on our food supply which could be as catastrophic 
as attack directly on our population.
    I'd like to kind of just hear from some of you as you're 
incorporating into your plans and detection and monitoring, 
what you're doing in that respect also. Mr. Schable.
    Mr. Schable. Yes sir. We are working diligently with the 
Food and Drug Administration, the U.S. Department of 
Agriculture, the Food Safety Inspection Service, FSIS. Indeed, 
their Acting Director is coming next week to discuss this 
because food safety, it really is extremely important, yet many 
people don't realize how hard that is to do. There are 
tremendous numbers of processing plants. CDC historically keeps 
an eye on outbreaks associated with food processing plants, but 
in this day and age, we want to make sure that those terrorism 
type of events don't occur. We don't want to have to go 
investigate. We would prefer to investigate nothing. But we are 
working with those groups to try to make food safety much 
better. Indeed, in Georgia, at the U.S. Department of 
Agriculture associated with one of the universities, they just 
opened a new research laboratory to detect outbreaks or threats 
to the food safety very quickly. And again, that is something 
we need to do a good deal more work on. We've as you said, sir, 
been working more on people, but now we're going to start 
backing that up with work on not only food supply, but the 
animal industry itself.
    Mr. Neugebauer. Any others?
    Mr. Morrissey. Mr. Chairman, recently, the state has 
allocated funding from its grant funds from the Office of 
Domestic Preparedness to conduct a statewide assessment of food 
security in the state and I would echo Mr. Schable's concern 
that this is a difficult problem to get your arms around. The 
farm to fork idea here in terms of agriculture and the whole 
food chain is a huge task when you think of it from a security 
perspective and changing. From a public health perspective, our 
basic response has still got to be dealing with food borne 
disease and the systems that we already have in place to detect 
and respond to food-borne illness.
    Mr. Neugebauer. Dr. Kendall.
    Dr. Kendall. Congressman Neugebauer, a good example of a 
model for a biological terrorist attack would be West Nile 
Virus, as an example, moving from the northeast to the 
southeast and across the country. We in Lubbock, Texas, get 
about 16 inches of rain a year. You wouldn't think there would 
be many mosquitos there, but last year we had the largest per 
capita outbreak in the country with children dying and older 
individuals dying.
    What does this mean is that the animals were telling us 
something, birds, horses, etc. Therefore, although I was asked 
to focus predominantly on human health today, we cannot 
separate them. The animals were already telling us the virus 
was moving in. Our institute had the data and was showing these 
mosquitoes were infected, birds were dying, etc. I think we've 
got to learn to have good surveillance epidemiology to look for 
signals before humans start dying.
    In addition, I think it gives us tools to better apply 
early warning systems that will help us better save lives.
    Mr. Neugebauer. Thank you. Anybody else want to--I think 
particularly, this is going to be an issue for Texans and 
Kansans alike because when you look at the contribution that 
these two states, for example, make to the food supply in our 
country, particularly I think about the cattle industry, it's a 
major issue.
    This is a question to all of you, but disease surveillance 
we've been talking about is an important facet of public 
health, especially in early detection of seasonal diseases and 
outbreaks. Have you or your office detected seasonal diseases 
earlier, more rapidly through the use of disease surveillance 
and I guess has the CDC been an integral part of that 
surveillance in the past and presently?
    Mr. Schable. Well, since he asked, the Chairman asked about 
have we been of any help, I hope that the state would say yes.
    (Laughter.)
    Mr. Morrissey. Kay just did actually, in her earlier 
comment talking about the Cryptosporiosis outbreak that Douglas 
County suffered through last summer and the significant help 
from CDC and from the state and the partnership that worked on 
that. But to the question about early detection systems, I 
don't think that I can say that we've had the experience of 
having detected disease using those electronic systems. And my 
understanding is that's not occurred nationally. We really 
haven't gotten to the point yet of having a system that's 
worked to the extent that we can say yes, we identified this 
disease early because of that and I think in my testimony, I 
made the point that we're looking at developing more basic 
systems across the state and assuring that we can function 
doing more rudimentary, I guess, surveillance.
    It's not that we don't recognize the very potential 
advantages of the technology interventions with surveillance, 
but we're looking to others to make the investments to develop 
that and frankly, we're looking to take advantage once those 
systems are better tested and in place.
    Mr. Turner. I think there are, with the HealthSentry 
software package I mentioned in my testimony, there are 
beginnings of having viable software packages and tools to help 
us with early detection. And CDC has always been an important 
part of helping hospitals out, but we are very vulnerable as 
was evidenced by the influenza outbreak this past winter when a 
lot of us ran out of the vaccinations. It's just some things we 
just have to get--we're going to have to get better and better. 
That's something that really caught a lot of us by surprise. 
The full scope of it. But there are software packages that are 
being implemented that are being discovered that will help us 
in the future.
    Mr. Neugebauer. I think an important aspect of this 
question is and it's somewhat what Dr. Kendall mentioned was 
like for West Nile Virus, it's important that information 
transfer begin very quickly, particularly West Nile because 
early treatment of that disease is very important and I think 
as we look at some of these other threats, identifying them 
very quickly and making sure that we help, and particularly, I 
think the question was brought up about or a statement was made 
that in Kansas and in West Texas, we're urban and we're rural.
    And in some of those early detections, we always assume 
that those are going to begin in a metropolitan area, but you 
know that may not necessarily be the case. So we've got to 
build a network where our detection and identification is done 
on a relatively quick basis.
    Mr. Moore. Mr. Chairman, may I follow-up on one of your 
questions?
    Mr. Neugebauer. I yield back to you.
    Mr. Moore. Thank you, sir. Thank you. I thought the 
Chairman asked a really good question and I wanted to follow up 
a little bit and that deals with the food supply and the 
infection of a food supply. And we saw in the last several 
months disastrous results when one animal in Canada apparently 
came to this country infected and we--it has a tremendous 
adverse effect on our economy. Kansas, Texas and I think there 
are a few cattle in Texas, right, Mr. Chairman?
    Mr. Neugebauer. One or two.
    Mr. Moore. And really, I'm very serious here, this could be 
a tremendous economic, just devastation for many places that 
are cattle producers around this country.
    What, if anything, can we, should we do to protect the food 
supply, namely cattle, but expand from there and I'm asking Mr. 
Schable, Dr. Kendall, anybody who wants to comment on that, Mr. 
Morrissey?
    Mr. Schable. It's actually a very good question, 
Congressman.
    What can we do to protect the food supply? I think we have 
worked with our colleagues in the U.S. Department of 
Agriculture as they are the ones that have the legal 
responsibility for the food supply, along with the Food and 
Drug Administration and HHS. We have to look at what vaccines 
are available, what systems are available, how can we make sure 
something doesn't move into this country from other parts of 
the Nation, other parts of the world. The borders between us 
and Canada and us and Mexico, I don't know how easily herds 
move back and forth, but I don't think they worry--they worry a 
little bit about that, but they're starting to pay more 
attention to that type of thing.
    I think that's what we need to do, is to start putting as 
much effort into animal and plant safety in many of these cases 
as much as we are for human safety because you're right, sir, 
is that the economic impact of this would be tremendous if say 
there was a significant cattle problem and look what happened 
in the U.K. That was a lot of people who suffered a lot from 
that particular event.
    Mr. Moore. Others? Dr. Kendall.
    Dr. Kendall. Congressman Moore, thank you for the 
opportunity to comment on this, but to a large degree how we've 
concentrated our agriculture, say corn production, cotton 
production, beef cattle, concentration, chickens, other 
poultry, makes them vulnerable and easily attacked. Therefore, 
the need for surveillance capability, I think is critically 
important now.
    I continue to emphasize we cannot separate ourselves from 
our food supply. The need for fiber and food is critical to our 
survival as well as our monetary health and for that reason I 
think increased cooperation between multiple federal agencies, 
as well as our states and regions will be critical as we 
continue to work through these problems and how to detect them 
early.
    Mr. Moore. And let me just ask one additional question 
which may elicit further comment from any of the people who 
have already talked, but to Mr. Morrissey as well. How are we, 
right now, in terms of readiness, preparedness to deal with 
this? Are our people protected? What do we need to do to get us 
there? My uneasy feeling is we're not really close yet. Maybe 
I'm wrong, I hope I'm wrong.
    Mr. Morrissey. Congressman, if I can touch on the question 
about foreign animal disease first, that's not our principal 
focus in the Department of Health and Environment. It is a 
shared responsibility across a number of agencies and the 
Department of Animal Health, Commissioner Teagarten has that 
responsibility. They're working toward enacting--they have in 
place an active statewide planning process. They're working 
toward an animal identification tracking system and they're now 
I think looking forward to participating in a national effort 
to better be able to electronically track animals for things 
like BSE and the whole range of concerns.
    I think that's in the early stages and like the public 
health system and the health care system, they have the same 
kinds of problems with surge capacity. And in fact, we have 
some plans, but our ability to implement those in a very short 
time frame is I think very limited and those are issues they're 
going to continue to struggle with.
    Mr. Moore. I guess that's the uneasiness I feel about this 
and I think it's just an acknowledgement that we still have a 
ways to go, we need to get through. That's one of the reasons 
for the hearing today, Mr. Chairman. As you know, sir, I really 
appreciate your coming in for this, but there are a lot of 
areas where I think our country and our people are still 
vulnerable. We need to number one identify those and find a way 
to coordinate giving information to all the different, the 50 
states and homeland security. I know this is a huge, huge 
challenge. So I'm not pointing a finger to anybody. I'm saying 
we're all in this together. We've got to work together and I 
think we're doing the best job we can right now, but boy, we've 
got a ways to go to make sure that our nation is protected in 
the future. Because what we saw as a result of September 11 was 
not just the horrible fact of 3,000 plus people died there, but 
there were tremendous economic implications for the rest of the 
Nation after that as well. So it's a question of lives and our 
commerce, the airline industry was hurt very, very badly as a 
result of September 11.
    Mr. Chairman, do you yield back?
    Mr. Neugebauer. I think the President's directive, I think 
they're calling that Project Bioshield and I think that's--when 
we talk about multi-disciplinary, I think we've got to put the 
food supply into that initiative because it's equally 
important.
    One of the things I'd like to hear from some of the first 
responders because you have other folks in the room that 
probably need to hear this, but what are some of the 
information--we heard a lot of you talk about the need for 
vaccination and equipment and stuff like that, but from an 
informational standpoint where do you feel like the information 
void is that you need today to be on the front line, 
particularly the first responders diagnoses, symptoms, 
remediation?
    Mr. Mason, I'll start with you.
    Mr. Mason. For us, the--as the responders you said the word 
response, basically react. We don't spend a lot of time in the 
detection and surveillance piece in and of ourselves, we just 
respond to the 911 calls and start tracking those trends--hm, 
something has consistently been going on here--and then we pull 
in our friends in public health in the process.
    Through the exercises we participate in in the county and 
the state, as an example, I think one of the frustrations for 
the response community isn't the lack of information from our 
public health community, it's the speed at which it comes. And 
that's just a matter of science. It has little to do with 
problems in communicating on the human side. It's laboratories 
are few and far between. Their ability to do high end 
analytical work in the State of Kansas, I think, is limited to 
one lab that's been recently upgraded. So that slows the 
process down in terms of identifying what it is that we're 
dealing with. Once the identification has occurred, the 
treatment plans and what we can do to respond to that are I 
think pretty well known and very easily disseminated from top 
to bottom, so really, it's probably more of a time delay in 
determining what it is we've dealt with. In terms of my 
personal frustration in exercises, thankfully, nothing in the 
real world has hit us yet. But in the exercises, it's certainly 
been that delay in what is this thing? We've got to narrow it 
down to five possibilities and we can start some things, but it 
certainly is that delay.
    Mr. Neugebauer. And that concerns me, quite honestly. If 
you're called to a building, for example, this afternoon and 
people are either sick or you find people that have died in 
that building, as you go into that building, do you have 
detection equipment that would help you begin to identify the 
environmental conditions of that building?
    Mr. Mason. We do. When we're talking about detection 
equipment, it's a broad spectrum from like the chemical 
detection through the biological detection. The biological 
detection clearly is the one that takes some time to get a true 
analysis of what goes on and we can certainly defer to the 
experts on exactly what I'm referring to here, but we can go in 
today with monitors that tell us if there's an oxygen deficient 
atmosphere, if there are certain chemical agents, VX, saran and 
so on and so forth that are part of those environments. We can 
walk in today with those things off of the fire trucks which 
traditionally don't carry items like that on our first response 
ambulance, but my hazmat medics carry those kinds of detection 
equipment so we can look at the signs and symptoms of patients 
and do they fit a certain profile for a chemical agent. Those 
kind of are the things, walks like duck, quacks like a duck, 
it's a duck. Very simple things up front in the chemical 
environment.
    It's the more incipient biological thing that we're not 
going to know about. It's going to be we're all of a sudden 
seeing a spike in calls and maybe it's an evocative thing and 
maybe it's a more rapid food-borne illness that we're seeing a 
grouping of people come in, but today, I think, going back to 
just universal precautions. The books from the CDC tell you to 
wash your hands and wear your gloves. Our paramedics do that 
every day. So going into a building today with the detection 
equipment we have, I feel safe that our people are going to go 
in there. They're not going to get themselves hurt. They're 
going to identify the problem and they're going to treat the 
injuries and give them transport to the hospital.
    It's again that long-term identification of what is this 
biological piece that we're dealing with. We can through the 
grant money, the Homeland Security grant money, they bought a 
nice fancy piece of equipment that can tell us today off one of 
our hazmat trucks is it coffee creamer or is it anthrax? They 
can do a little bit of that stuff in the field now which is 
nice. So we're making some of these technological advances to 
give to that rapid assessment of what the problem may be, so 
we're getting there in terms of biological, but I think there's 
still a lot more needs to be done and I'm very intrigued with 
this VIPER system that I'm hearing about.
    Mr. Neugebauer. I was going to say so, Dr. Kendall, if Mr. 
Mason calls you and has a reading on this device and he's got a 
five story building or a warehouse or something like that, what 
kinds of information could you give him back to help his first 
responders?
    Dr. Kendall. First of all, there would need to be structure 
in a way that we would need the relevant data on atmospheric 
conditions or humidity, etc., so we can get a better feel, if 
it's in a building, outside of a building, how materials may 
move or flow.
    Once you get into the biological area, that gets into--we 
can do quick analyses on chemicals. A lot of the real time 
chemical problems, the equipment right in our building we can 
do it. It's the biologicals as Mr. Mason mentioned, that 
require a little bit more screening. Although we can get it 
down to certain, at least certain potential areas.
    I think one of the--I was just sitting here thinking, 
Congressman, but one of the areas that I think we're 
underestimating is we're talking about whether anthrax or 
botulism and so on, we know a good bit about them, relatively 
speaking. It's the techniques and current technologies of 
molecular biology, we're going to probably be seeing in the 
future genetically engineered organisms that we don't 
necessarily have the technology yet to deal with and I think 
our techniques in the future are going to have to be robust, 
they're going to have to be encompassing and at least get them 
information: is this an acute toxin or a chronic toxin or 
whatever else? And so that's a challenging area. We don't have 
as quick a response capability as I would like to see, but this 
is what I'm saying. We need to develop further techniques to at 
least get the first responders the information on just how 
hazardous is this. Subsequently, of course, we can be seeing 
the human health effects if they aren't adequately prepared.
    Mr. Neugebauer. Ms. Kent?
    Ms. Kent. Yes, I just wanted to say on the biological 
agents and referring back to my testimony, this is where having 
lab surge capacity that we can really get quick results and 
that is where epidemiology is critical, where we really are 
getting on it right away and following up and who has had 
contact with whom, but laboratory surge capacity will be 
critical in these biological events.
    Mr. Neugebauer. I yield back.
    Mr. Moore. Thank you, Mr. Chairman. A couple of questions 
and I'll throw them out to anybody who feels they have 
something they want to contribute, I'd like to hear from you.
    One, I guess is, with response, and the Chairman asked this 
earlier, kind of as a collateral question here about the VIPER 
system or somebody mentioned the VIPER system, I guess, Mr. 
Mason did. So it sounded like a great system.
    Are there efforts to find out where a state has come upon 
something that really may benefit the other 49 states to 
distribute that information to make sure that not just Texas 
has it? That's one question I have.
    Another question and this is an uneasy feeling again and I 
hope you can say well, that shouldn't be a concern, you don't 
have to worry about that. I have walked past on sidewalks in 
Washington, D.C. and the same thing here, huge buildings where 
several hundred or a thousand people work and I've seen not far 
from the sidewalk this huge air intake and I just wonder what 
would happen if somebody were to put a biological agent in 
there that would be distributed through the air ventilation 
system throughout the building.
    Are we dealing with anything like that? Is that just 
science fiction or is that something that really could be 
damaging to people?
    Mr. Turner.
    Mr. Turner. I don't know that we are dealing with that and 
some of these opportunities that terrorists would have are so 
scary that you don't even want to mention them on record 
because there are so many opportunities.
    Mr. Moore. I guarantee you, if we thought about it, they 
have too.
    Mr. Turner. I know. As I mentioned in my testimony, one of 
our concerns that we have, even at this facility is if our 
inability to isolate air duct systems, those systems that would 
just spread it throughout the hospital, so we could be really 
good at what we're doing even in the emergency department, but 
it then infiltrates the whole hospital. So I don't see from a 
public facility standpoint that we are doing anything to 
address that and it is something to be concerned about.
    Mr. Morrissey. Congressman, we have done statewide threat 
assessments, now in the second version we're into, in looking 
at that and I think it's as indicated, safe to say that we have 
a lot of buildings that are vulnerable in a variety of ways and 
the process of re-engineering those is probably overwhelming in 
a number of cases, not just from the situation you describe, 
but even from protecting them from explosive attack. I think 
it's a big problem and I sure don't have an answer.
    Mr. Moore. I'm sure, Mr. Schable has an answer.
    Mr. Schable. Well, we have, obviously, that is something, 
sir, that we have looked at. Since Mr. Turner is sitting next 
to me, we'll use his hospital as an example. I mean the air 
intakes usually do not blow directly into the hospital without 
some type of filtration system embedded in them. They're not 
HEPA filters which would filter all organisms, but there are 
things in there that would substantially reduce the amount of 
particles that do make it through.
    But as Mr. Morrissey said, to re-engineer these types of 
buildings so that air intakes would truly get rid of all 
biological agents as they go through it would be an 
astronomical cost. We have thought about that and there's no 
clear answer for that, sir.
    Dr. Kendall. As far as I'm concerned, it was just a few 
years ago when Admiral Zumwalt approached us with this question 
and concern. And look at us today. It's every day. It's 
meetings, it's on the evening news. We need to be ready and no, 
we aren't ready. We're getting ready. And those air ventilation 
systems are vulnerable and it depends on what substance you're 
using, how you're applying it.
    So at this point, with all this great nation has done, 
putting a man on the moon, all our great technology, this is 
one that we need to drop back, evaluate exactly what we need to 
get ready and I think with first responders, they're critical 
to us, but they need technology and information. And so we've 
got to figure out how to make that transfer across lines very 
easily. And so it may be under a biological attack, it may be 
Texas or it may be California that gets the answer for Kansas 
to address it. That's the kind of technology and information 
sharing we're going to have to implement.
    But I wanted to say, Congressman Neugebauer did invite 
people to come to our University. I want to formally say we 
support our Congressman greatly. He is a great friend of our 
District and our University. And I welcome everybody to come 
and see how we would walk through this challenge. And you give 
us the challenge. You give us the weapon. You give us the 
scenario. We've done it for our leaders in the state. You come 
and we will talk to you and perhaps Kansas, working with Texas, 
and Oklahoma and so on, we start building regional expertise 
and information-sharing.
    And I fundamentally believe we can't expect to deal with 
this necessarily from Washington, D.C. We're going to have to 
be dealing with it right in our regions and our states and in 
our communities ultimately.
    Mr. Moore. And I'm not saying that. The Federal Government 
certainly does not have all the answers, certainly not. And if 
Texas has developed a model program, I just want to share in 
that information and not just stay down in Texas and I don't 
know yet if that's happening and I'm not sure that it's your 
responsibility to make sure that information gets out to 49 
other states, but I'd sure like to see somewhere in the Federal 
Government, the Federal Government identifying model programs 
that work well and distribute that information, coordinate that 
information with other states. That was my comment.
    Mr. Neugebauer. I think that's a great point and certainly 
if we're going to put research dollars into it, we talked about 
that limited supply, information sharing.
    And I'm glad the gentleman moved into the building 
environment. I think we've got detection and you've got 
containment and mediation. I think this is the next piece of 
the puzzle. Building design, I mean, we--I know we have in West 
Texas and in Kansas we've got places where people can go for 
tornados and we've got designated areas in buildings for people 
to go for those events.
    Mr. Moore. We have basements.
    Mr. Neugebauer. We have those too. I think the next part of 
that, our state and our federal officials have to start 
thinking about is where is the best place in a building to go. 
Instead of smoke detectors now, do we have environmental 
detectors and what kind of mediation could we provide people 
early in and also in containment? I just would open up for the 
panel, your thoughts and things that you see going on and 
what--or is there anything going on?
    Mr. Mason. Mr. Chairman, we presently on the local level, 
usually we have in place already to a certain degree until new 
technologies push us in another direction, and that's following 
existing shelter in place programs that have been in place for 
a number of years developed around communities where 
significant hazardous materials risk is involved. If there was 
a release at chemical plant X, that community had plans in 
place to shelter. Create a safe haven within your home or work 
place that kind of shuts yourself off from the outside air, so 
on and so forth.
    So that's a program that we still profess on a very regular 
basis in Johnson County. There can be, again, much more--
utilizing some of the things Dr. Kendall has mentioned, many 
more advances made in terms of detection and providing--you 
read my mind, is there going to be a chemical detector and bio 
detector to sit next to our smoke detector in the house?
    Mr. Neugebauer. Exactly.
    Mr. Mason. Some day, I guess that's going to be here. I 
think a thing that we face again as an emergency response 
community is the grant money came out and so did all the snake 
oil salesmen. And everybody but Ronco has come forth with the 
biodetector kit and we need people like Dr. Kendall and his 
institution of higher learning to tell us and establish the 
best practices, to run these things through the paces and tell 
us that no, this thing here is best used as a paperweight. This 
item here is a good piece of detection equipment for first 
responders. We need facilities like his to do that work for us.
    Mr. Morrissey. Mr. Chairman, I think from a state 
perspective, as indicated, we're following now the federal 
recommendations that are not new, that are basic about shelter 
in place and do other things. I think that's not an area that 
we focused on.
    I think one of the big concerns about bio detection 
systems, generally, is and it's very important again, I think 
for the smaller, more rural states is what do you do when the 
alarm goes off? And in fact, do we have the resources to 
allocate and do we know what resources it takes? We've touched 
on the difficulties here with screening. How do you handle the 
number of false positives that get generated out of some of 
those systems?
    I don't think we have answers for that, but I think those 
are very real concerns from a national perspective before we 
get to making significant commitments to particular systems.
    Mr. Schable. Mr. Chairman, it's interesting what we've been 
talking about here because historically CDC, health departments 
in the state and the counties work on human beings and all of a 
sudden now we're being tasked more and more with environmental 
microbiology, that is, we at CDC don't do much of that. We are 
certainly embarking on a lot more of that in these detection 
systems, that is, how can we help the first responders. As he 
has said, many of the tools out there, you might as well just 
flip a coin whether or not the answer is correct or not. We are 
working on--the National Institutes of Health has put 
significant research funds out the door to many different 
groups who wish to apply for these types of grants to work on 
environmental microbiology.
    We can detect almost anything in a human being very 
quickly, but trying to detect whether or not there might be 
anthrax in a dust bunny sitting over there--it may sound 
simple, but it's not so simple, sir.
    Mr. Moore. Thank you, Mr. Chairman. That kind of was my 
uneasy feeling and has been since September 11, actually. The 
Federal Government will probably do a pretty decent job of 
protecting our nation from the nuclear strike, probably. And 
that chemical contamination is going to be fairly readily 
discernible and we can probably deal with that, but where we're 
really behind the eight ball and behind the curve is on 
bioterrorism and really trying to recognize when it's happened 
and it may take sometimes hours or days before we really know, 
and then preventing it. And we've talked about a couple of 
areas already.
    I want to ask Dr. Kendall a question, if I can, please. In 
your written testimony, Dr. Kendall, there were indications 
that the University of Kansas and Kansas State are participants 
in the national consortia for countermeasures to biological and 
chemical threats and that the University of Kansas is a 
collaborator with the Zumwalt Program which you mention in your 
testimony, Dr. Kendall.
    What are the Kansas universities' roles in these programs? 
Are there other ways that you think institutions in Kansas or 
around the country could be working together?
    Dr. Kendall. I appreciate you mentioning that point. As I 
earlier testified, the national consortium was developed 
originally with the University of Texas at Austin, University 
of South Florida and our program, called the National 
Consortium for Countermeasures to Biological and Chemical 
Threats. And we received our first funding from Congress in the 
year 2000 after discussions in 1999. That entity has been 
operational since the first funding was received in 2000.
    In just this past year, the expansion and to other 
universities, and in fact, 17 universities are a part of the 
consortium now. We had last May, our meeting in Texas, I hosted 
it at Texas Tech and Kansas representatives were there. 
Unfortunately, we didn't have an expansion in research funding 
at that time. However, there are discussions as to 
collaborative projects and other places in which we could share 
resources. And in fact, in just two weeks, we will be meeting 
in Florida. They're hosting this event this year and we--and so 
we will have consortium members from most of the universities 
including our program. And we intend to with the new 
presidential directive and the great expansion of interest in 
bioterrorism, to forge out some new proposals and ideas to 
leverage this knowledge into operational platforms that can 
help people save lives and protect property.
    So they are in the dialogue and they are welcome and we 
intend to reach out and embrace them for collaborative research 
and also education.
    Mr. Moore. Thank you. Mr. Chairman?
    Mr. Neugebauer. What I was going to say and I know that I 
have a few more questions and the gentleman does also. I don't 
know what your time schedules are for airplanes and stuff. So 
if a Panel Member feels that they need to go take care of a 
little thing like airplane reservation or has one, feel free to 
excuse yourself, but in fact, we have you all together here and 
I think this is an excellent opportunity for dialogue and we'll 
continue a little longer here, but I do want to be sensitive to 
anybody that has any.
    One of the things that is--I've heard the comment made in 
communications and in planning at the regional and local level 
and statewide level and the--obviously the states are 
disseminating a lot of the money from homeland security for 
many of these initiatives, but do you feel like everybody is 
being included and everybody is at the table that we need at a 
planning level or are there some people being left out? What's 
your sense of that, Mr. Turner?
    Mr. Turner. I think regionally since 9/11 the people that 
need to be at the table are at the table. If you ask me does 
every one of a particular discipline, do they feel they're at 
the table? Probably not, but I think that discipline has been 
represented at the table.
    We still have this--there's still a certain amount of 
independence with all of our entities and a concern of mine is 
that while we're at the table and realize what we need to do, 
we know we need better information systems and everybody has 
their idea about which information system is the best for their 
hospital or organization, I think it's important that the 
government not get into mandating what information system is 
out there, but that whatever systems are out there, they need 
to be able to speak to each other.
    We're going to go with Cerner. Someone else is going to go 
with McKessen. We need to make sure that on top of everything, 
they're able to speak, but I do believe that regionally the 
players are at the table.
    Mr. Moore. I think you make a good point there and I think 
it's working with CDC, making sure multiple platforms, making 
sure when the information gets to the CDC, it's in a readable 
form. It's kind of like exporting a spreadsheet. You may have a 
different spreadsheet program that you may need to make sure 
that whatever spreadsheet you send, the person on the other end 
is able to open that spreadsheet. And so I think as we 
disseminate that information, do you feel like in the private 
sector, in the companies that are helping provide that 
technology are they at the table right now with us and are they 
in the loop? Are they listening to the needs and some of the 
challenges?
    Mr. Turner. Some other folks might be able to speak to this 
more factually than me. I don't see a lot of emphasis when we 
get with the private sector on bioterrorism. I do see it 
getting a lot of information that helps us with taking care of 
our patients, disseminating that information, but I don't see a 
lot of talk about doing it for the purpose of addressing 
bioterrorism, but others might know better than me.
    Mr. Morrissey. Mr. Chairman, I think that may be because 
the focus has perhaps been at the state and federal level and 
with universities and research in terms of the development 
process and certainly there's been significant private sector 
involvement in developing the products that facilitate 
planning, communications, a whole range of areas.
    I touched on in my testimony, the Governor's concern about 
the initial question that you raised and she literally upon 
taking office started asking questions about how homeland 
security efforts were being coordinated and was everyone at the 
table and how is that done. And as a result of that discussion, 
formed a new body whose focus was to give an overarching view 
to the various elements of both the bioterrorism program and 
for us at the state level, integrating that homeland security 
effort into the ongoing emergency response, and existing 
emergency response capability that was there.
    The Kansas Division of Emergency Management has primary 
responsibility for emergency response under state law. We've 
always had a close relationship with them related to disaster 
response. It got significantly greater with the advent of the 
bioterrorism funding and development of those programs and so I 
think yes, we have those folks at the table, but as you said, 
is there someone out there who feels differently, I'm sure 
there are.
    One of the problems has been just getting to it all and we 
talked about food security, a number of issues that we agree 
are a high priority. We don't have as much work done on them 
yet at this point.
    Mr. Neugebauer. And I think that brings up a point that I 
want to make and the way I feel and I want to encourage all of 
us to, as we move forward in this, in Congress and the 
Administration and the people out in the field and in the 
research and in the private sector is we don't have a lot of 
time to work on just one thing at a time. We really have got to 
be working on this issue in a multi-disciplined way. We need to 
bring the private sector in. We need to start talking about 
designing buildings and ventilation systems for future 
buildings.
    We know the retrofit cost would be phenomenal, but the 
problem is if we wait two, three, four or five more years 
before we really determine what's the best way to do that, 
we've got three, four, five years of buildings that don't have 
the capability. The problem with not addressing feed lot 
contamination or animal contamination, if we wait, two, three, 
four or five years, we've got that many more years of 
opportunity there, so I think what we have to begin to do is 
identify where, who's doing what and begin to develop some 
niches and some specialties and have different groups working 
on that rather than all of us trying to work on one particular 
issue at a time. I think in order to commercialize that, which 
is the ultimate goal here is that with research and any of 
those kind of things that we're learning is quickly getting 
them commercialized and in a format that everybody understands 
so that we can share that information and make sure that our 
information systems are talking to each other. So I think as we 
move forward and we want to talk to people, certainly encourage 
the Administration that we've got to really do this on a broad 
basis.
    Mr. Moore. Can I just add something?
    Mr. Neugebauer. Sure.
    Mr. Moore. I think the Chairman has made an excellent 
point. We need to multi-task here and you know, we live in a 
free society and an open society and we think this is the 
greatest country in the whole world and it is. We value and 
love the freedom and openness of our society. But it's those 
very things that make us vulnerable, make our nation 
vulnerable.
    And we need to find ways, I guess, to work together and 
this should not be--it's not partisan at all. It's not about 
Republicans and Democrats, it's about Americans and working 
together to protect our nation and our people. And we've talked 
about the food supply. We've talked about biological agents 
that can get into the food supply or air. We've talked about--
we haven't talked about huge containers that come into the 
ports around our country that could have a dirty bomb. And we 
make an effort to inspect some of those containers, but boy, 
I'll guarantee you, there's just thousands of them that really 
don't get inspected is my understanding.
    And we haven't even mentioned here, and this wasn't the 
point of this, but as a nation, it's part of the threat of 
terrorism against our country. We used to get up every morning 
before September 11 and turn on the television and drink a cup 
of coffee and watch TV and read about or see on television a 
report of some horrible suicide bombing in the Middle East or 
some terrorist incident in Europe and we thought well, that 
never happens here at least, but we found out on September 11, 
we're part of the real world and we do have to be prepared for 
that because the Chairman and I were talking before we started 
here and we can take all the steps that we can imagine which 
would cost millions and billions of dollars and yet still not 
be able to protect everybody because somebody tried to 
assassinate and shot President Reagan several years ago with 
the best security protection in the country. If somebody is 
willing to give up their life, there's a good chance that 
they're going to be able to hurt some people and I'm just 
amazed that we haven't seen the suicide bombings that we see in 
the Middle East happen here because there are demented people 
there and there are some demented people in this country as 
well. And it would just be tragically easy for something like 
that to happen.
    And I'm not trying to spread any ideas to anybody, but as 
we said before if we've thought about it, I guarantee you 
people around this world have thought about it as well and I'm 
really glad, Mr. Chairman, that you were willing to come here 
today because we need--I guess the one other area I want to 
identify and ask a question about and just throw this out.
    We've talked about coordination of information and ways to 
protect our country. And I still have this uneasy feeling, 
again, it's not critical of anybody because it's such a huge 
task. It's just going to take time for us to develop the ways 
to do this, but coordination of information and spreading 
information like this VIPER program. I'm sure there are other 
great programs in other states and I just question or wonder if 
this information is getting around to the other states so they 
can look at implementing similar programs in their states.
    What I don't want to happen is just one or two states 
develop great programs and the rest of the country not hear 
about it and I think that would be a good responsibility of the 
Department of Homeland Security, for example, to disseminate 
that information around and make sure everybody has access to 
it, so if they want to develop a similar program, they have 
that opportunity.
    Mr. Neugebauer. And I think that as I read the President's 
press release, I think that is part of the initiative here is 
to make sure that there is coordination because as Mr. Moore 
and I have observed first hand sometimes we're appropriating 
money in different areas and sometimes for the same cause 
without--not a lot of coordination going on. And we're at a 
time in our country, one, that's not the right public policy, 
but secondly, we're at a time in our country where we're 
watching what we're spending and we need to spend it wisely and 
so we do need that coordination to go on.
    Mr. Moore, I always like to ask the panel--because they're 
the experts and you and I are here to listen--when are they 
going to ask this question and we never asked that question and 
we leave here not really hearing some information that we 
needed to hear and certainly we have your testimony and opening 
statement.
    But was there in this dialogue, did it spur a question that 
we should have asked that you would like to bring up or a point 
that----
    Mr. Morrissey. Mr. Chairman, it's not a point. It's one 
that's been raised a couple of times, but I think it's worth 
noting. In the issue of information exchange and technology 
transfer, an appropriate federal role and that is one that I 
think CDC has taken a lead in and that is standard setting.
    It's been raised, noted a couple of times. The issue is not 
you should pick up the system we're using or translate it, but 
that we can all develop systems that can communicate based upon 
federal standards that are defined and achievable in the public 
health information network that Mr. Schable mentioned is down 
the road in attempting to organize public health information 
systems, to be able to do that. I know there are other 
standards around and it seems to me from a federal perspective 
in the area we're talking about, that has to be a critical 
basic function. How do we assure that all of these systems are 
going to be able to link up?
    Mr. Neugebauer. I think it's a good point. Any----
    Ms. Kent. I would have to say I concur with that because at 
the local level we're looking at spending money. We want to be 
sure that we spend it on something that's going to be 
compatible with neighboring counties and neighboring states and 
I think the Federal Government does have a role in being sure 
to help with those standards so that the money we're spending 
is very well spent and that we can all be talking to each other 
and understanding what is going on. And I think that's true in 
terms of communication technology also in terms of radios and 
all of that type of thing.
    Mr. Neugebauer. Mr. Schable, could you enlighten us, maybe 
what's going on at the federal level to address that?
    Mr. Schable. Well, as I mentioned, what's called PHIN, 
Public Health Information Network, is a large program trying to 
bring some order to all of these surveillance systems, if you 
will. I mean CDC, historically, asks the state and local health 
departments for data to come in. I mean many, I don't know, I'm 
not exactly sure how many data streams the State of Kansas has 
and the State of Texas has to CDC, but I'm sure it's a lot. It 
would be nice if all of those data streams all from a computer 
networking capability were all able to talk to each other and 
if the State of Kansas wanted to share a piece of information 
with the State of Texas, someone could just hit a submit button 
instead of when sometimes the data shows up at the other state, 
it's completely garbled because somebody didn't use the same 
DL7 code or--I'm not a computer expert, but I mean that's one 
of the things we're trying to do is make some kind of sense and 
order out of these hundreds and hundreds of data streams that 
are coming in and it almost sounds easy, but that's another 
major task is to try to get these things so that all of the 
extant data streams which might not work which are very 
important and have to be changed over so that they do work.
    We don't want to tell the State of Texas or the State of 
Kansas in half of your data systems you're going to have to go 
out and hire 10 more people just to reprogram everything you've 
got, then that would be disaster.
    What we need to do at the federal level is to come up with 
something that can take a data stream that's not perfect and 
mold it over into a thin compliant system so that we have 
something that people can look at data quickly, can share data 
very quickly.
    Mr. Turner. I agree with everything that's been said about 
the information. I also would like for us not to forget the 
basics and that is that we provide funding for CDC or whomever 
to make sure that we're able to quickly produce the 
antibiotics, the vaccinations that we need locally to take care 
of at least a 72-hour period of need.
    Mr. Moore. May I ask a question, Mr. Chairman? My question, 
and I don't know who to ask this to, I suspect it may be here 
and Dr. Kendall or Mr. Morrissey, but are all the players at 
the table, all the interested stakeholders, the parties, for 
example, pharmaceutical companies and you just mentioned 
vaccines, if they can be manufactured, developed quickly 
enough. Is there a stockpile large enough to handle those? When 
people are sick and go into a drugstore, is there a way to 
monitor what's happening there in terms of what kind of 
medications they may be getting to treat certain symptoms and 
which may--they may not even go to a--I suppose they're going 
to go to a doctor, but maybe they don't even know what they 
have.
    What are we doing to, what are we doing to determine if 
people are, go to a doctor and then they're prescribed a 
medication, they end up at the drug store and they buy a 
prescription and maybe they've been correctly diagnosed, maybe 
not, but is there a way that we can look at patterns there? 
I've heard about some software and I think Cerner's, I've been 
out to Cerner once or twice and they've talked about a software 
program they have to try to monitor that.
    Mr. Turner or Mr. Schable or anybody, Mr. Morrissey, can 
you comment on that and what we're doing there?
    Mr. Schable. Several of the departments, Health and Human 
Services, Homeland Security, there are what are called 
requirements committees in which what we do, along with the 
NIH, they're there, we look at what is, what do we think is 
required in the future for the level of do you need this 
vaccine or that vaccine or this antibiotic or that antibiotic? 
What does the Nation need in the strategic national stockpile 
that CDC runs?
    And so there are groups of high experts that try to sit 
down and think what is important, what needs to be done? Do we 
have enough of this drug or that drug? A pharmaceutical company 
isn't going to make a drug that no one is ever going to use, so 
we have to tell them this is something that's important. We 
think it needs to be in the stockpile. And that information 
then is given to the pharmaceutical companies. So we are 
working at that level.
    But what you just mentioned, sir, is that the issue of 
would it be nice to know, because a lot of people when they get 
sick don't even go to the doctor. Unfortunately, there are a 
lot of marginalized individuals who cannot afford health care, 
barely can afford to go buy some aspirin at a discount super 
store. And so is there a way to monitor the amounts of the 
drugs sold? And CDC is embarking on a biosurveillance 
initiative, we call our bio intelligence center in which we are 
trying to put that data together, not only pharmaceutical data, 
laboratory data, data on emergency room admissions. This is 
just the start. We're just getting ready to do this because, 
obviously, in the same issue would be of data monitoring. All 
of these people are using different types of data sets, plus 
when, can you imagine the amount of drugs that are sold on a 
daily basis in the United States, when that came to the CDC, 
you would have a huge database. Someone has to write computer 
software that says when something happens, a red flag goes off 
so someone--no one person could monitor all of that. It would 
have to be the computers. But the computer program has to say 
you better look in Kansas City, because all of a sudden 
everybody is starting to buy some type of antibacterial drug or 
some type of something to monitor upper respiratory infections. 
That could be a key. And so we are just now embarking on doing 
that and we're moving down that path.
    Mr. Neugebauer. Dr. Kendall.
    Dr. Kendall. I think at it though with the drug companies, 
they are probably going to need to be encouraged because it 
takes so much money to develop a new product and bring it to 
the market these days. And I think this is going to be an area 
that's going to be very important to us and perhaps that may be 
something the Science Committee could consider, how to 
encourage new drug research, that may not be immediately 
needed, but would set the platform to be able to deal with 
these kind of ultimately potentially terrorist threats.
    But Mr. Chairman, I was just thinking here, if I could have 
one more minute just to speak. I was just thinking about your 
comment about many years ago and the nuclear threat to the 
country. And I can think about when I was a child the Cuban 
Missile Crisis and how that challenged this country and its 
backbone. And I look at what we did as a nation and then in my 
lifetime we have seen the Cold War diminish to a great degree. 
We've seen the Berlin Wall fall. We've seen an enormous 
increase and our presence relative to challenging and being 
able to take on the nuclear threat.
    At this point we have a new challenge, biological 
terrorism. It's more difficult to target it. It's more 
difficult to follow it and it's more difficult to even tell 
where it is at any given time. So I think both of you are to be 
complimented for holding this meeting and hopefully many other 
meetings in the future because we as a nation are getting ready 
and we're not ready. We're beginning to get ready. And 
technologies are emerging and we have a wonderful opportunity 
to transfer information and to work together, but this reminds 
me of back in the '60s and beginning to think about the nuclear 
threat.
    Indeed, gentlemen, this country will respond, I'm 
convinced. And it's going to take leadership from leaders like 
you to bring us together, challenge us as did Admiral Zumwalt 
did me years ago. And then I think the technology, the 
capabilities, the universities, the health responders will work 
together and we will make this nation stronger and safer.
    Mr. Neugebauer. I want to thank this panel. I think we've 
had a great discussion here today, good questions. I encourage 
you if you have any follow-up information that you want to 
provide to the Committee to do so and we will put that in as 
part of the record.
    You can't have a hearing like that without the help of a 
lot of folks and certainly, Mr. Turner, we want to thank you 
and your staff for providing this facility for us. I want to 
thank Jimmy Hague and Elizabeth Grossman, and Sarah Matz from 
my office and I know Marsha Shasteen and then Jana Denning. 
Jana, thank you for your help and then Jill deVries. Jill, 
thank you for your help in making this possible.
    In closing, I would just like to say that this is a very 
important issue in our country and it's going to be more and 
more important every day as we fight this front and this is a 
front that we're not just fighting in Iraq and Afghanistan and 
other parts around the world. This is unfortunately--the 
battleground is, has been brought and could be brought to our 
homeland. So we want to continue to work with you. We're 
relying on you to challenge us and to keep us moving in a 
direction that protects our citizens. As I've said, I was very 
fortunate the first 54 years of my life. I didn't have to live 
a fearful life in my own country. And I don't intend for my 
children or your children or grandchildren and my grandchildren 
have to live a fearful life in their own country.
    It's going to be a challenge, but you know that's the great 
thing about America is when we're challenged, that seems to be 
when we do our very best work. And so I'm going to thank all of 
you for being here and thank you for your attendance and your 
participation today.
    Mr. Moore. May I make a quick closing statement as well? I 
really appreciate the statement that the Chairman just made 
here because he's talking about what a challenge we have in the 
future, but that we as a nation do rise to the challenge and I 
appreciate the comments by Dr. Kendall and all of you for being 
here today because I think we've had a good discussion about 
some of the challenges.
    I had to smile because he said, Dr. Kendall said, when he 
was a boy we would have these air raid drills or nuclear drills 
or something where you would put your head down on your desk 
and put your hand over the back of your neck as if that's going 
to protect from a bomb, you know? And now we're sort of talking 
about little masks and duct tape and that's probably not going 
to protect us from some of the things we need protected against 
as well.
    We are at the front of the challenge here, but I'm 
absolutely confident as the Chairman indicated, as Dr. Kendall 
and you all have indicated, that we can meet this challenge as 
a nation and protect our people in the future and we just have 
a lot to learn here. And I think we, in the last two and a half 
years, have begun to scratch the surface about how much we have 
to learn, but I'm absolutely confident that we can do it. So 
thank all of you, and Mr. Chairman, thank you especially for 
convening this hearing.
    Mr. Neugebauer. Thank you. We're adjourned.
    [Whereupon, at 11:30 a.m., the hearing was concluded.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


                  Prepared Statement of Scott C. Voss

   An Overview of Current Local Public Health Initiatives in Johnson 
          County Kansas and the Kansas City Metropolitan Area

                               3 May 2004
                           Scott C. Voss, MPH
 Public Health Emergency Coordinator, Johnson County Health Department
        Co-Chairman of the Public Health Emergency Subcommittee
       of the Regional Homeland Security Coordinating Committee,
 and Chairman of the Epidemiology Section of the Kansas Public Health 
                              Association

Introduction

    Thank you, Chairman Neugebauer and Representative Moore, for 
providing me the opportunity to testify on Bioterrorism Preparedness 
efforts in the Kansas City Metropolitan Area. My name is Scott Voss and 
I serve as the Public Health Emergency Coordinator for the Johnson 
County, Kansas Health Department. Johnson County, Kansas is situated on 
the border between Kansas and Missouri. With an estimated 2004 
population of 495,788, Johnson County represents more than 25 percent 
of the total population of the Kansas City Metropolitan Statistical 
Area.
    Additionally, I serve as the Co-Chair of the Public Health 
Emergency Subcommittee of the Kansas City Regional Homeland Security 
Coordinating Committee. This objective of the Public Health Emergency 
Subcommittee is to regionalize all public health emergency activities, 
within the Kansas City Metropolitan Area. I also serve as the Chairman 
of the Epidemiology Section of the Kansas Public Health Association.
    You have had a chance to hear from my colleague from the Lawrence-
Douglas County Health Department, Ms. Kay Kent, regarding the 
interaction of local public health with State and federal agencies 
during a response to a public health crisis. Her testimony was 
appropriate and true. However, Douglas County is not part of the Kansas 
City Metropolitan Statistical Area. Therefore, Ms. Kent could not 
provide you with a perspective on the efforts that local public health 
has undertaken within the Kansas City Metropolitan Area and 
specifically within Johnson County Kansas. My testimony will provide 
you with that information.

Issues Confronting a Bi-State Multi-Jurisdictional Region

    Local public health agencies in the Kansas City metropolitan area 
are faced with a relatively unique challenge. As with many other local 
public health agencies, we must coordinate our plans and responses with 
other local public health agencies from neighboring jurisdictions. This 
can be a relatively easy task, when both agencies are receiving 
guidance from the same state health department. However, here we are 
confronted with a situation where we must work with health departments 
that receive their guidance from a different state health department. 
While the overall goal of the local health departments is the same, the 
specific guidance and timelines we have been given differ.
    To address this issue, the local public health agencies have formed 
the Public Health Emergency Subcommittee. This committee, which was 
formed under the Kansas City Metropolitan's Regional Homeland Security 
Coordinating Committee, was created to provide a forum from which local 
public health agencies could meet and work through these bi-state 
challenges. The subcommittee has developed working groups to address 
the following; Quarantine and Isolation, Epidemiology and Surveillance, 
the Strategic National Stockpile, Training and Exercises, and Planning. 
Together, this subcommittee has fostered a spirit of cooperation 
between all of the participating agencies and has resulted in many 
regionalized public health decisions.

Early Detection Systems

    Here is Johnson County we are currently implementing three 
syndromic surveillance systems for the early detection of bioterrorism 
or public health emergencies. These systems respectively look at school 
absenteeism, emergency department data, and 9-1-1 emergency call data.
    The first system was designed to monitor the rate of absenteeism in 
our public schools. Over the past several years, our department has 
worked closely with the school nurses responsible for the 153 public 
schools in Johnson County. Together, we have implemented a system, 
which collected information on the number of children absent each day 
and the type of illness they were experiencing. Through careful 
analysis of this system and review of scientific literature on school 
based absenteeism surveillance, it was determined that this system was 
of little benefit. As of this year, we have altered this system to only 
collect information from the schools when total school absenteeism 
reaches 15 percent. We have included a notification when the 
absenteeism increases by five percent of the total student population 
in one day. We are currently testing this system to determine its 
functionality.
    The second system relies on information collected at emergency 
departments. We have identified two hospitals, within Johnson County, 
to be sentinel syndromic surveillance sites. Working with the infection 
control nurses at each of these hospitals, we identified the specific 
indicators of a possible bioterrorism event, as they would be recorded 
in the hospitals. Each day we receive a report from the infection 
control nurses with the data from the previous day. Currently there is 
no mechanism for the collection and dissemination of this data on the 
weekends, so the data from the weekend is transmitted to us on Monday 
morning. This is a very simple form of hospital based syndromic 
surveillance. We are currently investigating other methods of real time 
hospital data surveillance.
    This system utilizes a product called FirstWatch, developed by 
Stout Solutions, to monitor 9-1-1 emergency medical service calls. We 
worked with Med-Act (the Johnson County EMS), Johnson County Emergency 
Communications, the Health Departments in Kansas City, Missouri and 
Sedgewick County, Kansas and Stout Solutions determine the specific 
call types to monitor. Once this was established the system began the 
silent monitoring of call activity within our county. When it detects a 
significant increase in call volume, an alert is sent to the e-mail and 
pagers of a select group of responders. We are currently working to 
launch regional component of this system that would allow for a 
regional view of this data.
    The FirstWatch system is a relatively new component to our disease 
surveillance arsenal. We are continually working with the company to 
identify areas for enhancement of our system and to tune our current 
system capabilities. Although this system has not yet provided early 
warning for a disease event in our county, it has done so in other 
jurisdictions. In 2003, this same system installed in Tulsa, Oklahoma 
and Richmond, Virginia provided an early warning to public health of 
the arrival of influenza in their communities. With proper calibration 
of this system and vigilance, this system has much promise in providing 
similar results here.

Mass Prophylaxis Management systems

    During a bioterrorism event, it is likely that the public will 
require medications in order to prevent contracting the disease. The 
Strategic National Stockpile provides the medications for the mass 
prophylaxis of the public. To perform the mass prophylaxis on the local 
level, we will establish clinics throughout our county, often in sites 
not normally used for health care services. These clinics must be 
operational in a just a few hours and provide treatment for, 
potentially, thousands of victims over a few days.
    The primary staff at the clinics will be volunteers, although key 
members of the public health departments and government agencies will 
provide direction and oversight. A number of initiatives are under way 
in the Kansas City area to improve the availability of trained health 
care professionals. In fact, the Mid-America Medical Reserve Corps has 
identified the SNS deployment as one of the primary volunteer needs in 
our area and will begin active recruitment later this month. However, 
many health care professionals that volunteer may be required to 
provide for the normal care and treatment of patients in hospitals, 
physician offices and other health care settings. The competition for 
health care professionals will likely reduce the availability of 
qualified personnel at the clinics.
    The operating efficiency of a clinic will be largely determined by 
the availability of key health care professionals to perform critical 
knowledge-based decisions, including health assessments and medication 
dispensing. If there are not sufficient personnel to make the 
decisions, the clinic efficiency and effectiveness will be reduced. 
This problem has been recognized at exercises held here in the Kansas 
City area and at other locations throughout the Nation. Even with a 
corps of trained volunteers, a large magnitude event will likely 
overwhelm the available trained resources. The key to increasing the 
efficiency of the clinic lies within the ability to utilize less 
skilled personnel to complete the paperwork and to remove, to the 
greatest extent possible, the decision making process from these less 
skilled people.
    The Johnson County Health Department is currently investigating a 
product from NexGenisys, a Kansas City based company, called 
Metropolitan Emergency Dispensing System (MEDS). The product provides 
critical support for mass prophylaxis clinics by providing patient 
tracking, labeling, inventory reporting and clinical decision support. 
This program is designed to improve the efficiency of the prophylaxis 
clinics by using an evidence-based clinical decision support system 
that will assess risk factors and determine appropriate treatment for 
the victims. This will allow for the better utilization of health care 
professionals, at a time when this resource will likely be scarce. It 
is our hope that utilizing a system, such as MEDS, will allow us to 
provide this vitally important medication to our population in a much 
more timely manner.

Everyday Benefits of Bioterrorism Preparedness

    The tragedy of September 11, 2001 and the ensuing bioterrorism 
events of that fall were a terrible moment in U.S. history. While it 
was impossible to imagine at the time, good has come from those 
horrible events. We have become stronger as a nation, focused clearly 
on what are weaknesses are, and worked to strengthen those weaknesses. 
Public health is one discipline that has benefited from this focus and 
work.
    An act of bioterrorism is similar to a naturally occurring disease 
outbreak, only on a different scale. Therefore, all of our preparedness 
activities that we are undertaking are providing an increased 
capability to detect and respond to any disease outbreak.
    Additionally, the addition of the risk communicator and information 
specialist positions and the development of a risk communication plan 
have added an extra level of expertise and capability to our department 
public information officer. These new resources have been utilized many 
times to develop and refine messages our department sends to the media.
    Finally, our efforts in bioterrorism preparedness have made us more 
recognizable to outside organizations. In the past, it has been 
difficult for the Health Department to make contact with certain groups 
or organizations. Now, the Public Health Emergency Preparedness and 
Response Program regularly meets with representatives from these 
organizations. Many of these groups and organizations actively seek out 
our program for assistance or guidance. These new relationships have 
provided the opening to work on non-bioterrorism related projects.

</pre></body></html>
